<html>
<title> - STATUS OF THE U.S. ARMY AND U.S. MARINE CORPS IN FIGHTING THE GLOBAL WAR ON TERRORISM</title>
<body><pre>[Senate Hearing 109-470]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-470
 
 STATUS OF THE U.S. ARMY AND U.S. MARINE CORPS IN FIGHTING THE GLOBAL 
                            WAR ON TERRORISM

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 30, 2005

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE
28-577 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 Status of the U.S. Army and U.S. Marine Corps in Fighting the Global 
                            War on Terrorism

                             june 30, 2005

                                                                   Page

Chu, Hon. David S.C., Under Secretary of Defense for Personnel 
  and Readiness; Accompanied by Hon. Charles S. Abell, Principal 
  Deputy Under Secretary of Defense for Personnel and Readiness..     6
Myers, Gen. Richard B., USAF, Chairman, Joint Chiefs of Staff....    14
Schoomaker, GEN Peter J., USA, Chief of Staff, United States Army    16
Hagee, Gen. Michael W., USMC, Commandant, United States Marine 
  Corps..........................................................    24

                                 (iii)

 STATUS OF THE U.S. ARMY AND U.S. MARINE CORPS IN FIGHTING THE GLOBAL 
                            WAR ON TERRORISM

                              ----------                              


                        THURSDAY, JUNE 30, 2005

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-325, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Collins, Talent, Graham, Dole, Thune, Levin, Kennedy, 
Reed, Akaka, and Bayh.
    Committee staff members present: Judith A. Ansley, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Gregory T. Kiley, professional staff 
member; Sandra E. Luff, professional staff member; Elaine A. 
McCusker, professional staff member; David M. Morriss, counsel; 
Stanley R. O'Connor, Jr., professional staff member; Joseph T. 
Sixeas, professional staff member; Scott W. Stucky, general 
counsel; and Diana G. Tabler, professional staff member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Bridget W. Higgins, research assistant; and 
Gerald J. Leeling, minority counsel.
    Staff assistants present: Andrew W. Florell, Benjamin L. 
Rubin, and Nicholas W. West.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Chris Arnold, assistant to Senator Roberts; 
Mackenzie M. Eaglen, assistant to Senator Collins; Lindsey R. 
Neas, assistant to Senator Talent; Meredith Moseley, assistant 
to Senator Graham; Bob Taylor, assistant to Senator Thune; 
Mieke Y. Eoyang, assistant to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Darcie Tokioka, assistant to Senator 
Akaka; William K. Sutey, assistant to Senator Bill Nelson; Todd 
Rosenblum, assistant to Senator Bayh; and Andrew Shapiro, 
assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, ladies and gentlemen. The 
committee meets this morning to receive testimony on the 
current status of our ground forces in fighting the global war 
on terrorism the world over. The committee welcomes our 
distinguished panel of witnesses: General Richard Myers, the 
Chairman of the Joint Chiefs of Staff; Dr. David Chu, the Under 
Secretary of Defense for Personnel and Readiness; General Peter 
Schoomaker, Chief of Staff of the United States Army; General 
Mike Hagee, the Commandant of the Marine Corps; and our 
distinguished former colleague, Charles Abell, Dr. Chu's 
Principal Deputy and a valued and respected member of our team 
over here.
    I am going to put my statement into the record such that we 
can have the maximum time for the benefit of our witnesses. We 
all note the past 3\1/2\ years have been a time of great 
success and enormous challenge for the United States Armed 
Forces. The Armed Forces of the Army, Navy, Marine Corps, and 
Air Force, Active and Reserve components, have performed 
magnificently in the months following the attacks of September 
11, 2001.
    The Constitution says that the Congress of the United 
States shall raise and maintain our Armed Forces. We are here 
today to get your report on their status and what we in 
Congress can do to help our President and Secretary of Defense, 
the Chairman, and others to maintain this extraordinary force 
which has served America so well.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets this morning to receive testimony on the 
current status of U.S. Ground Forces in fighting the global war on 
terrorism.
    I welcome our distinguished panel of witnesses: General Richard B. 
Myers, the Chairman of the Joint Chiefs of Staff; Dr. David S.C. Chu, 
the Under Secretary of Defense for Personnel and Readiness; General 
Peter J. Schoomaker, the Chief of Staff of the United States Army; 
General Michael W. Hagee, the Commandant of the Marine Corps; and 
Charles S. Abell, Dr. Chu's Principal Deputy, and a valued former 
colleague on the staff of this committee. I thank you all for your 
service and for your appearance today.
    The past 3\1/2\ years have been a time of great successes and 
enormous challenges for the U.S. Armed Forces. The U.S. Armed Forces--
Army, Navy, Marine Corps, Air Force, and Active and Reserve 
components--have performed magnificently in the months following the 
attacks of September 11, 2001. The mission of our men and women in 
uniform to defend the Nation has never been executed with better skill 
or dedication. The rapid military successes of Operation Enduring 
Freedom in Afghanistan and Operation Iraqi Freedom have evolved into 
the hard work of reconstruction and stability operations necessary to 
ensure peace and security in these troubled regions. Such important 
work brings new challenges, including the extraordinarily high 
operational tempo on people and equipment, the technological challenges 
of countering asymmetric threats such as improvised explosive devices, 
the demands of transforming the Armed Forces for future threats, and 
the responsibility of the Nation to properly care for those who 
volunteer to serve Active, Reserve, National Guard, and retired--and 
their families. Since September 11, our Nation has been at war, and the 
men and women of the Armed Forces and their families have been equal to 
the task.
    Even with these successes, however, we must be mindful of the 
impact these ongoing operations are having on our forces. That is our 
focus today, the status of our ground forces--the Army and Marine 
Corps--both Active and Reserve components. Since the fall of 2003, the 
Army has maintained over 120,000 troops in Iraq, and approximately 
18,000 soldiers in Afghanistan. The Marine Corps has maintained about 
20,000 marines in Iraq since early 2004 and has also contributed 
significant forces to Afghanistan. Maintaining these force levels has 
required the rotation of hundreds of thousands of soldiers and marines, 
in and out of these theaters. The Services, as ``force providers,'' 
have ensured that the Commander of U.S. Central Command, General 
Abizaid, has the ground forces he requires.
    Such a high operational tempo raises issues and concerns that must 
be understood and addressed. The first of these concerns is recruiting. 
We are concerned about recent reports regarding the challenges faced in 
military recruiting. On June 10, the Office of the Secretary of Defense 
released monthly recruiting data showing that the Army, the Army 
Reserve, the Marine Corps Reserve, and the Army National Guard had 
fallen short in achieving their May 2005 recruiting goals. This is not 
the first such report on problems with recruiting. I ask our witnesses 
to address the impact of recruiting shortfalls on the Active and 
Reserve components of the Army and Marine Corps and how those shortages 
may affect your ability to meet combatant commanders' requirements.
    A second issue is retention. The Services have done a great job of 
retaining experienced officers and noncommissioned officers, but there 
are warning signs. In the Army Reserve, for example, there are 
significant shortfalls in first term reenlistments and higher than 
expected requests for retirement. There is no question that the stress 
of frequent deployments and family separations, as well as the 
improving economy, are having an effect on the willingness of trained 
and experienced individuals to continue to serve. We look forward to 
your assessment of the current situation and any recommendations you 
may have for legislative assistance to help you in meeting your 
manpower requirements.
    Every battlefield commander has two critical priorities--
accomplishing the mission and protecting the force. Providing the best 
force protection to all deployed forces, including personal body armor, 
adequate numbers and types of armored vehicles, and the deployment and 
acquisition of countermeasures for improvised explosive devices has 
been a formidable challenge. The committee has been, and remains, 
committed to ensuring that the Department receives whatever authorities 
and resources the Services and the combatant commanders need to protect 
our deployed forces. I look forward to updates from our witnesses today 
on the status of these efforts, and what more needs to be done.
    It is the solemn duty of this committee to fulfill its 
Constitutional responsibilities to ``raise and maintain'' this 
magnificent force. We will continue to do just that. I thank our 
witnesses for helping the committee to understand the challenges we 
face in sustaining and improving our magnificent fighting forces.

    Chairman Warner. Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman, for holding this 
very important hearing focused on the status of the Army and 
Marine Corps in fighting the global war on terrorism. I join 
you in welcoming our witnesses. Both of us and a number of our 
colleagues have had a chance to shake the hands and thank some 
of the extraordinary men and women who are with us today and 
who have represented us so bravely and nobly around the world. 
There will be more of that, I am sure, later.
    We are truly proud of our men and women in uniform. They 
are performing superbly in very difficult and dangerous 
conditions. I hope that our witnesses today will be able to 
assure us that everything possible is being done to give those 
men and women everything that is needed to succeed in fighting 
our Nation's battles.
    One of the concerns that we all have is the impact of the 
ongoing conflicts in Iraq and Afghanistan on the future of our 
All-Volunteer Force. The All-Volunteer Force depends on 
volunteers, and the statistics show that the number of 
volunteers is dwindling. The Army in particular is in trouble. 
Through the end of May, the Active-Duty Army is 8,300 
enlistments below its goal. That is about a 20-percent 
shortfall. The Army Reserve is about 2,400 below its goal. That 
is about a 20-percent shortfall. The Army National Guard is 
about 9,800 soldiers below its goal and that is almost a 25-
percent shortfall.
    Although the Marine Corps is on track to meet its 
recruiting goal for the year, it too is facing challenges and, 
as General Hagee will say in his opening statement, fiscal year 
2005 is proving to be the most difficult recruiting year that 
we have had in 10 years. The recruiting marketplace will become 
even more challenging in fiscal year 2006.
    The Services are meeting or exceeding overall retention 
goals. However, this too can change if our military personnel 
become exhausted by repeated combat tours. Some are already on 
their second and third tours in Iraq. If our career 
professionals decide that they have had enough, their departure 
has the real potential of breaking our force.
    The only way that we have been able to meet our troop 
requirements in Iraq and Afghanistan is by mobilizing the 
overextended National Guard and Reserves. This has been done at 
a great cost to them, their families, and our communities. 
Governors are concerned about whether they will have National 
Guard personnel and equipment to respond to natural disasters. 
We continue to hear from employers about the adverse impact on 
small businesses and self-employed National Guard and Reserve 
members.
    Finally, some are wondering if the National Guard and 
Reserves will be ready the next time they are needed. In a 
memorandum to the Army Chief of Staff, the Chief of the Army 
Reserves said that ``The Army Reserve is additionally in grave 
danger of being unable to meet their other operational 
requirements, including those in named op plans and continental 
United States (CONUS) emergencies, and is rapidly degenerating 
into a broken force.''
    The Chief of the National Guard Bureau recently stated that 
``My concern is that the National Guard will not be a ready 
force the next time it is needed, whether here at home or 
abroad.''
    Our overreliance on the Guard and Reserve may have severely 
impacted them as effective military units. Because we have 
virtually exhausted our supply of ground forces, they will not 
be readily available if needed for yet another operation. In 
the assessment of the Chairman of the Joint Chiefs, the 
shortage of ground forces will result in taking longer to 
succeed in another conflict, such as any possible conflict in 
North Korea or Iran.
    Mr. Chairman, the balance of my statement has to do with 
the equipment issues and some of the other issues involving 
personnel, and I would ask that the full statement be 
incorporated in the record at this time.
    Chairman Warner. Without objection.
    Senator Levin. I thank the chair.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    Thank you, Mr. Chairman, for holding this very important hearing 
focused on the status of the Army and Marine Corps in fighting the 
global war on terrorism. I join you in welcoming our witnesses this 
morning.
    The American public is truly proud of our men and women in uniform 
You should be very proud of yourselves and your service to your Nation. 
You are performing superbly in very difficult and dangerous conditions.
    Many people are concerned that there are not enough of you for the 
missions we expect you to accomplish, that you have not been equipped 
with the best protective gear available, and that in some cases, you 
have not been properly trained for the missions. Today, I hope that our 
witnesses will be able to assure us that we are doing everything 
possible to give you what you need to succeed in fighting our Nation's 
battles.
    While our soldiers and marines have performed magnificently in this 
war, and while in general our equipment has performed nearly as well, 
we were not as prepared in that regard as we should have been. 
Shortages in required equipment were apparent before we invaded Iraq 
and have been even more apparent during the violent aftermath for which 
there had been inadequate planning. For example, early in 2003 the 
Marine Corps did not have the brigade and below battle command systems 
that the Army had which provide situational awareness. Consequently, 
there was an urgent, last minute program launched to provide marines 
with the ``Blue Force Tracker'' system just prior to the kick off of 
the Iraq invasion so that Joint Force Commanders could track Marine 
Corps units like they could the Army units attacking on the Marine 
flank. Had this not been a planned invasion and rather an unanticipated 
combat mission, then the Marines would have gone to war without that 
capability.
    We went into the war with equipment shortages and, even after 
pouring billions into supplemental appropriations, are still suffering 
from those shortages. We are all well aware of the shortages of 
individual and wheeled vehicle armor, of aviation survivability 
equipment, of radios and machine guns for support units in both the 
Army and the Marine Corps. Now, the Marine Corps Inspector General has 
identified even more shortages among Marine Corps units deployed in 
Iraq.
    Our soldiers and marines, the civilian workers at our depots and 
arsenals, and our defense contractors have labored long and hard to put 
some degree of armor on over 40,000 wheeled vehicles over the last 2 
years. They are to be commended for their work. However, it has not 
been without mistakes and unacceptable delays--many related to the 
fragmented nature of the ever-growing requests that emanate from Iraq 
and Afghanistan. For instance, the Army requirement for factory 
installed up-armored HMMWVs increased over time from 247 to over 
10,000, and for add-on armor for HMMWVs to over 15,000. Until recently, 
the Marine Corps has been reporting a requirement for an additional 498 
up-armored HMMWVs and a total of 5,500 add-on armor kits for HMMWVs. 
Now the Marine commander in Iraq has requested that all of his HMMWVs 
with add-on-armor be upgraded to the factory installed up-armored 
version--a total of over 2,200 more.
    We, in Congress, are committed to providing our troops all of the 
funding necessary, both for force protection, and for prosecuting the 
war, but the administration continues to refuse to request the needed 
supplemental appropriations on a timely basis. We, in Congress, seek to 
address the Services' war related and overall defense requirements in a 
comprehensive and coherent way, but the administration's lack of action 
hinders our ability to do so. The Services know what they need for 
recapitalization of equipment and for equipment shortages, and have a 
good estimate of personnel and operations and maintenance costs for the 
remainder of the fiscal year, but the administration is unwilling to 
share that information with Congress. We expect the Chief of Staff of 
the Army and the Commandant of the Marine Corps to be open and honest 
with their funding requirements and cooperate with Congress in 
addressing their shortfalls.
    I am very concerned about the impact of the ongoing conflicts in 
Iraq and Afghanistan on the future of our All-Volunteer Force. The All-
Volunteer Force depends on volunteers, and the statistics show that the 
number of volunteers is dwindling. The Army, in particular, is in 
trouble. Through the end of May, the Active-Duty Army is 8,321 
enlistments below its goal of 49,285. That is about a 20 percent 
shortfall. The Army Reserve is 2,392 below its goal of 11,944. That is 
a 20 percent shortfall. The Army National Guard is 9,705 soldiers below 
its goal of 39,957. That is almost a 25 percent shortfall. That is a 
total shortfall of 20,418 recruits for the Total Army. Although the 
Marine Corps is on track to meet its recruiting goal for the year, it 
too is facing challenges. As General Hagee said in his opening 
statement, ``Fiscal year 2005 is proving to be the most difficult 
recruiting year we have had in 10 years'' and ``the recruiting 
marketplace will become even more challenging in fiscal year 2006.''
    The Services are meeting or exceeding overall retention goals. 
However, this too can change if our military personnel become exhausted 
by repeated combat tours. Some are already on their second and third 
tours in Iraq. If our career professionals decide that they have had 
enough, their departure has the very real potential of breaking our 
force.
    The only way we have been able to meet our troop requirements in 
Iraq and Afghanistan is by mobilizing the overextended National Guard 
and Reserves. This has been done at great cost to them, their families, 
and our communities. Local governments have lost key first responders 
when they were ordered to Active-Duty. Governors are concerned about 
whether they will have the National Guard personnel and equipment to 
respond to natural disasters as they occur. We continue to hear from 
employers about the adverse impact on small businesses and self-
employed National Guard and Reserve members. Finally, some are 
wondering if the National Guard and Reserves will be ready the next 
time they are needed. In a memorandum to the Army Chief of Staff, the 
Chief of the Army Reserve stated that ``the Army Reserve is 
additionally in grave danger of being unable to meet other operational 
requirements including those in named OPLANS and CONUS emergencies, and 
is rapidly degenerating into a `broken' force.'' The Chief of the 
National Guard Bureau recently stated that ``My concern is that the 
National Guard will not be a ready force the next time it is needed, 
whether here at home or abroad.'' Our over-reliance on the Guard and 
Reserve may have severely impacted on them as effective military units.
    Because we have virtually exhausted our supply of ground forces, 
they will not be readily available if needed for yet another operation. 
In the assessment of the Chairman of the Joint Chiefs, the shortage of 
ground forces will result in taking longer to succeed in another 
conflict, such as any possible conflict with North Korea or Iran.
    This leads us directly to the question of end strength. The 
overriding issue is whether the Army and Marine Corps have sufficient 
personnel to maintain current force levels for future rotations in Iraq 
and Afghanistan. Currently, Reserve Component personnel (National Guard 
and Reserves) constitute approximately 40 percent of the 139,000 
personnel in Iraq. The Army Reserve is approaching a point at which it 
will soon use up all personnel available for deployment, and some 
reports indicate that the National Guard has used nearly all of its 
combat forces. It is clear that the National Guard and Reserves will 
not be able to relieve our Active component forces for much longer.
    Many of us have been concerned about the size of our Army and 
Marine Corps for some time. The Administration has rebuffed our 
attempts over the last several years to increase the authorized end 
strengths of these forces. I believe that our proposed increases were 
sustainable when we made them because we had a much more favorable 
recruiting market at the time. Now I fear that it is too late. Even if 
we all agreed to end strength increases, we may not be able to enlist 
the volunteers we would need. Earlier this year, the Senate Armed 
Services Committee adopted a provision that would increase the Army by 
20,000 soldiers over this year's authorized level, and 40,000 soldiers 
more than the administration requested for next year. We have to make 
an assessment of whether the Army can achieve that increase if it 
remains in the authorization act.
    Now we must ask ourselves what we can do to help the Army and 
Marine Corps address their recruiting problems so that they can meet 
end strength requirements. We know that the continuing news about 
casualties in Iraq and Afghanistan have caused the influencers--mothers 
and fathers, other relatives, teachers, guidance counselors, ministers, 
and coaches--to discourage young men and women who would otherwise be 
willing to serve in the military. The improving economy and favorable 
job prospects have given these young people other attractive options.
    The Army has been attempting to address its recruiting shortfall by 
adding recruiters, increasing bonuses, lowering standards, and 
increasing targeted advertising. But it appears that will not be 
enough.
    I look forward to hearing what our witnesses have to say about 
other initiatives to address their recruiting and equipping challenges. 
I am particularly interested in what we can do to help.

    Chairman Warner. Secretary Chu, we recognize you.

 STATEMENT OF HON. DAVID S.C. CHU, UNDER SECRETARY OF DEFENSE 
 FOR PERSONNEL AND READINESS, ACCOMPANIED BY: HON. CHARLES S. 
    ABELL, PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE FOR 
                    PERSONNEL AND READINESS

    Dr. Chu. Thank you, Mr. Chairman. It is a great privilege 
to be here.
    Chairman Warner. We recognize you as senior man aboard, but 
perhaps the Chief of Staff of the Army would like to make some 
introductions.
    General Schoomaker. Sir, I was planning to do it within the 
opening statement, but I will go ahead and do it right now if 
you would like.
    Chairman Warner. Well then, go by your plan. We will let 
Secretary Chu lead off.
    I am going to ask you to draw up that microphone very close 
to you.
    Dr. Chu. Thank you, sir.
    Chairman Warner. That helps.
    Dr. Chu. Thank you, Mr. Chairman, Senator Levin, members of 
the committee. It is a great privilege to be here this morning.
    I would like to begin by offering my thanks to our 
extraordinary people in uniform today. We have at this table 
some of the Nation's most senior military leaders, and we have 
in our audience this morning some of the extraordinary 
noncommissioned officers that have been so essential to the 
Nation's success.
    As members of this committee know, it was 32 years ago this 
summer that President Nixon returned the United States to its 
underlying tradition, and that is a tradition of a volunteer 
force. That force has performed magnificently over the last 20 
years. We saw that performance in Panama over 15 years ago. We 
saw it in the First Persian Gulf War. We saw it in the 
protection of the Kurds during the 1990s and the enforcement of 
the No Fly Zone in Iraq. We have seen it in Haiti twice within 
recent years. We have seen it in the Balkans, in which they 
have brought a measure of stability. We have seen it in 
Afghanistan, where they have given that country an historic 
chance for a democratic government. We see it today in Iraq.
    It is a magnificent performance. As I think General 
Schoomaker and General Hagee would emphasize, however, it is 
not simply an All-Volunteer Force; it is also an All-Recruited 
Force. Recruiting and retention are a constant challenge for 
the Department of Defense (DOD), no less so at the present 
moment in history.
    Our success, in my judgment, in sustaining the volunteer 
force over the decades is the product of a partnership between 
the legislative and executive branches. We particularly 
appreciate the authorities that have been given us to achieve 
that success. We particularly value the bonus authorities that 
you have provided and that you are considering providing in 
this year's authorization bill, that allow us to address issues 
on a targeted basis. I have in mind the Reserve affiliation 
bonus that we have requested; the critical skills retention 
bonus for the Reserve Forces to parallel that offered to the 
Active Forces; increasing the ceiling for hardship duty pay to 
allow us to address the fairness of compensation based upon the 
burdens being borne by our personnel; the increase that the 
House has offered in the enlistment bonus to $30,000--some have 
talked of higher figures; and its endorsement of a new idea 
that has been brought forward of a referral reward for those 
who help bring others to the ranks.
    There is a second way, in my judgment, that you can assist 
us, and you have been assisting us, and that is speaking out 
about the value of military service and the values that young 
men and women will bring back from military service to their 
civilian communities. Our Nation's birthday, as we all know, 
occurs in just a few days and I can think of no better occasion 
on which to celebrate the value of military service than that 
date.
    Thank you, sir.
    [The prepared joint statement of Secretary Chu and Mr. 
Abell follows:]

  Prepared Joint Statement by Hon. David S.C. Chu and Hon. Charles S. 
                                 Abell

                              INTRODUCTION

    Mr. Chairman and members of this distinguished subcommittee, thank 
you for the opportunity to be here today.
    The All-Volunteer Force is performing well. Although the Army is 
experiencing recruiting difficulties, recruiting and retention overall 
remains solid. Today, we will review with you the current status of 
military recruiting and retention and discuss some of the current 
initiatives we are undertaking with the Services to address the 
challenges we face.
    Where we face challenges, we take the necessary steps to resolve 
problems. We continually review compensation packages to ensure that 
they are adequate to meet the needs of the members, whether the need be 
for basic pay, allowances, special pays, or survivor benefits. We work 
with the Services to take full advantage of the strength that comes 
from combining resources and knowledge, and of the research that we 
have done over the years to assist us.
    The decisions made about authorities and funding for the next 
fiscal year matter a great deal to those who have volunteered to serve 
our Nation. We are happy to be here to answer your questions and 
discuss the programs that we believe are essential to sustaining our 
volunteer military in meeting our National security requirements.

                  ACTIVE DUTY RECRUITING AND RETENTION

    The success of our All-Volunteer Force begins with recruiting, and 
the viability of the force is assured with successful retention. This 
has been easier in some years than it has in others. We gratefully 
acknowledge how Congress provides additional resources during the more 
challenging times to facilitate our success in both recruiting and 
retention.
Active Duty Recruiting
    During fiscal year 2004, the military Services recruited 176,026 
first-term enlistees and an additional 6,799 individuals with previous 
military service into their Active-Duty components, for a total of 
182,825 Active-Duty recruits, attaining over 100 percent of the DOD 
goal of 181,308 accessions.
    While meeting our quantitative goals is important, we also need to 
have the right mix of recruits who will complete their term of service 
and perform successfully in training and on the job. The ``quality'' of 
the accession cohort is critical. We typically report recruit quality 
along two dimensions--aptitude and educational achievement. Both are 
important, but for different reasons.
    All military applicants take a written enlistment test called the 
Armed Services Vocational Aptitude Battery (ASVAB). One component of 
that test is the Armed Forces Qualification Test (AFQT), which measures 
math and verbal skills. Those who score above average on the AFQT are 
in Categories I-IIIA. We value these higher-aptitude recruits because 
they are easier to train and perform better on the job than their 
lower-scoring (below average) peers (Categories IIIB-IV).
    We also value recruits with a high school diploma because they are 
more likely to complete their initial 3 years of service. About 80 
percent of recruits who have received a high school diploma complete 
their first 3 years, yet only about 50 percent of those who have not 
completed high school will make it. Those holding an alternative 
credential, such as a high school equivalency or a General Educational 
Development (GED) certificate, fall between those two extremes.
    In conjunction with the National Academy of Sciences, the 
Department developed a mathematical model that links educational 
attainment, aptitude, and recruiting resources to job performance. With 
this model we established recruit quality benchmarks of 90 percent high 
school diploma graduates and 60 percent scoring above average on the 
AFQT. Those benchmarks were set by examining the relationship among 
costs associated with recruiting, training, attrition, and retention, 
using as a standard the performance level obtained by the enlisted 
force cohort of 1990. Thus, the benchmarks reflect the aptitude and 
education levels necessary to minimize personnel and training costs 
while maintaining the required performance level of that force.
    Over the past 20 years, the military Services have met or exceeded 
the Department's benchmarks for quality recruits. The quality of new 
Active-Duty recruits remained high in fiscal year 2004. DOD-wide, 95 
percent of new Active-Duty recruits were high school diploma graduates 
(against a goal of 90 percent) and 73 percent scored above average on 
the AFQT (versus a desired minimum of 60 percent).
    Through May of fiscal year 2005, all Services except Army continued 
to meet or exceed both quantity and quality objectives for Active duty 
enlistees. The Army has achieved 40,964 of its 49,285 accession goal 
through May, for an 83 percent accomplishment. Army quality levels, 
however, remain strong (Table 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    The Army is applying additional resources to achieve its recruiting 
goal of 80,000 soldiers by the end of the fiscal year. The Army is 
aggressively pursuing three avenues of approach: (1) adding active duty 
recruiters; (2) offering stronger incentives, with increased enlistment 
bonuses and an increase in the Army College Fund; and (3) using more 
targeted advertising, focusing on ``influencers,'' particularly 
parents.
    The Services accessed 16,431 commissioned officers to Active Duty 
in fiscal year 2004, with Army, Navy, and Marine Corps meeting their 
numerical commissioning needs. In fiscal year 2005, Active-Duty officer 
accessions are on track in all Services for numerical success this 
year.
Active-Duty Retention
    Over the past 3 years, the Department has worked to improve 
servicemembers' quality of life. We continue to work with Congress to 
achieve needed military pay raises, and to develop flexible and 
discretionary compensation programs. We have every confidence that such 
funding and policy modifications will be sufficient to ensure continued 
success in achieving authorized strength levels.
    Army and Marine Corps met or exceeded fiscal year 2004 retention 
goals. Navy and Air Force were retaining more than their desired levels 
at the outset of the year, but force-shaping initiatives aimed at 
balancing manpower skills and assisting with force reduction caused 
them to retain fewer members during the last quarter of fiscal year 
2004. For fiscal year 2005, retention is on track (Table 2). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    Stop Loss
    The Army is the only Service currently using Stop Loss. The Army 
Stop Loss program affects less than 1 percent of the total force (9,044 
Active component soldiers, 3,762 USAR soldiers, and 2,480 ARNG soldiers 
in May 2005). The active Army Unit Stop Loss program takes effect 90 
days prior to unit deployment or with official deployment order 
notification, and remains in effect through the date of redeployment to 
permanent duty stations, plus a maximum of 90 days. Reserve Component 
Unit Stop Loss begins 90 days prior to mobilization or with official 
mobilization alert deployment order notification, and continues through 
mobilization, and for a period up to 90 days following unit 
demobilization.
    Army initiatives of Modularity, Restructuring, and Rebalancing the 
Active/Reserve component mix, and Force Stabilization will, over time, 
eliminate any need for Stop Loss.

               RESERVE COMPONENT RECRUITING AND RETENTION

    There has been considerable discussion about the stress that the 
global war on terrorism is placing on the force--both Active and 
Reserve. A repeated question is: What levels of utilization can the 
National Guard and Reserve sustain while still maintaining a viable 
Reserve Force? Recognizing that the global war on terrorism will last 
for a number of years, the Department established a strategic approach 
to ensure the judicious and prudent use of the Reserve components in 
support of the war effort. We will continue to assess the impact of 
mobilization and deployments on the National Guard and Reserve, and 
adjust our policies as needed to sustain the Reserve components.
    One way to examine mobilization of the National Guard and Reserve 
is in terms of today's force--those who are currently serving in the 
force. Of the 838,300 Reserve component members who are currently 
serving in the Selected Reserves, 364,860 have been mobilized between 
September 11, 2001 and February 28, 2005--representing 43.5 percent of 
the current force.
    Compared to Operation Desert Storm when we mobilized 30,000 
Individual Ready Reserve (IRR) members, we have not used the IRR in an 
aggressive manner to support the global war on terrorism. In the past 3 
years, we have mobilized 8,790 IRR members. However, further 
utilization of the IRR remains a viable option for meeting both near-
term and long-term commitments.
    We must establish the proper expectations for our Reserve component 
members, their families, their employers, and the public in general. We 
are undertaking a program to foster appropriate expectations for the 
21st century in terms of: (1) the frequency and duration of military 
duty and (2) predictability of extended duty.
Reserve Recruiting
    The Reserve components continue to face a challenging recruiting 
environment. In 2004, four of the six DOD Reserve components met or 
exceeded their recruiting goals. While we have seen mixed results in 
the first 8 months of the fiscal year, most Reserve components are 
struggling to meet their recruiting goals (Table 3). The Army National 
Guard achieved 76 percent of its recruiting goal through May fiscal 
year 2005, and the Army Reserve achieved about 74 percent of its goal. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    While the other Reserve components have been able to meet the DOD 
quality benchmarks for new recruits, the Army National Guard has 
historically experienced difficulty in meeting those standards. Army 
National Guard recruit quality levels, at 85 and 54 percent, are 
respectively, 5 and 6 percentage points below the DOD benchmarks of 90 
percent high school diploma graduates and 60 percent scoring in the 
upper half on the AFQT. Rather than recruiting from a national market 
like the active Component, the National Guard must recruit from local 
communities to fill vacancies. With National Guard units located in 
over 3,000 communities throughout the Nation, meeting the quality 
benchmarks has presented challenges. Conversely, the community-based 
nature of the Guard works to its advantage in retention, since 
``quitting the Guard'' before a guard member completes his or her 
service obligation is very apparent to the whole town.
    Recruiters report that there is a reduced propensity to join the 
military among today's youth. Due to the realities of war, there is 
less encouragement today from parents, teachers, and other influencers 
to join the military. Our efforts to recognize the value of service 
should help this over time. In addition to the reduced propensity to 
serve, fewer individuals are separating from the Active components, and 
fewer of those who do separate are affiliating with the Reserve 
components. These factors, coupled with an improving economy and lower 
unemployment, adversely affect recruiting.
    The Army is also aggressively attacking any potential shortfall in 
Reserve component recruiting through three avenues of approach: (1) 
adding Reserve component recruiters, with an additional 1,900 Army 
National Guard recruiters and 734 Army Reserve recruiters programmed by 
the end of the fiscal year; (2) offering stronger incentives, with 
increased enlistment bonuses for both prior service and non-prior 
service recruits; and (3) using increased advertising, including 
targeted advertising to parents and influencers. Your support of these 
efforts is essential.
Reserve Retention
    Retention in the Army National Guard and the Army Reserve remains 
very strong. Attrition in 2004, and thus far in 2005, is consistent 
with pre-global war on terrorism levels, and is actually considerably 
lower than pre-war levels in the Army Reserve. We expect attrition to 
remain within acceptable limits. The support of Congress and stronger 
retention incentives help offset what might otherwise be a reduced 
likelihood to reenlist. The Department has established planning factors 
that will provide greater career stability and predictability to 
Reserve members, their families, and their employers. The Services are 
implementing policies based on these planning factors now.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
     LEGISLATION IN SUPPORT OF TOTAL FORCE RECRUITING AND RETENTION

    Recruiting and retaining the right people in the right skills in 
the right number has always been a challenge and continues to be our 
challenge today. None of this comes easily; and congressional support 
continues to be key. We are grateful for the across-the-board 3.1 
percent pay raise, the increases in Basic Housing Allowance for Housing 
(BAH), which allowed us to reduce average member out-of-pocket expenses 
from 3.5 percent to 0, and the targeted increases in pays and 
allowances for our brave men and women fighting the war in Iraq and 
Afghanistan and other dangerous places. We are also pleased with the 
related increases in pay and allowances and bonuses for our members in 
the Reserve component.
    The reductions in last year's special pays and selective 
reenlistment bonuses, i.e., Army--$6.3 million, Navy--$12 million, 
Marine Corps--$4.8 million, and AF--$90 million, have presented 
challenges to retain servicemembers essential for meeting our military 
and humanitarian missions around the world. As we face these 
challenges, we seek your continued support in the forthcoming mid-year 
review and any associated reprogrammings.
    We appreciate support of appropriations consistent with the 
proposed changes to our authorities. We are requesting an increase in 
the maximum amount for the Hardship Duty Pay and the House includes 
this provision in their bill. Our request recognizes and compensates 
our women and men who are serving in a designated hardship location, 
participating in a designated hardship mission. Our leaders need the 
flexibility to raise the amounts paid in order to (1) quickly recognize 
troops serving under the most arduous of circumstances, (2) support 
sequential assignment, and (3) meet future needs as they emerge and we 
ask the Senate to pass this provision. Our other major proposal 
increases the maximum allowable amount that can be offered under the 
Selective Reenlistment Bonus program is also in the House bill. This 
increase is necessary for targeting critical skills, as required, to 
retain sufficient high quality personnel and counter the lure of the 
high technology private sector and we ask the Senate to pass this 
provision.

                        SUSTAINING ARMY STRENGTH

    The Active Army, in spite of taking a $6.3 million reduction in its 
special pays and selective reenlistment bonus funding this fiscal year, 
has increased its enlisted retention mission from 56,100 in fiscal year 
2004 to 64,162 in fiscal year 2005, an increase of almost 15 percent. 
They are pursuing constructive levers, such as Force Stabilization 
policy initiatives, periodic reenlistment bonus program updates, and 
targeted special pays to influence soldiers and, most importantly, 
families to reenlist.
    In September 2003, the Army announced and implemented a $5,000 
reenlistment bonus which was paid, in Iraq, Afghanistan, Kuwait, and 
South Korea. Through May 2005, more than 14,500 soldiers have taken 
advantage of the Present Duty Assignment Selective Reenlistment Bonus 
by reenlisting to stay with units in Afghanistan, Iraq, or Kuwait. The 
Army's current program offers bonus amounts up to $15,000 to soldiers 
in these locations.
    The Department is taking advantage of a unique force restructuring 
process--the ``Blue'' Services, Air Force and Navy, are reducing 
strength while the ``Green'' Service, Army, is increasing. Our ``Blue 
to Green'' program provides sailors and airmen with a unique 
opportunity to ``Go Army'' under an initiative intended to rebalance 
the military and preserve human capital. Sailors and airmen in skills 
identified as excess who are qualified to remain in Service, shall be 
given the opportunity to apply for immediate inter-service enlistment 
into the Army. The Department is also working with the Services to 
boost prior service accessions by sending letters to military alumni 
inviting them back to Active Duty (recapturing first term losses).
    The Department is also working closely with the Department of 
Homeland Security's Citizenship and Immigration Service to expedite 
citizenship applications for resident aliens who serve honorably as 
members of our Armed Forces.
    To capitalize on our successes in retention and sustain that 
momentum, we must continue to invest in areas that leverage readiness. 
Authorities for flexible compensation tools enable the Department to 
tailor incentives to respond to specific readiness demands and provide 
the capacity to efficiently start and stop them.
    We note that the House and this committee included two provisions 
in their versions of the National Defense Authorization Act (NDAA) for 
Fiscal Year 2006 that will very positively affect Reserve component 
recruiting. The first provision would repeal the current affiliation 
bonus authority and combine it with the non-prior service accession 
bonus to provide up to $10,000 to an individual who is separating from 
the Active Forces with a remaining military service obligation, and 
agrees to serve in the Selected Reserve for a period of not less than 3 
years in a critical skill, unit, or pay grade. We believe this will 
help us overcome the current shortfall in individuals transitioning 
from Active to Reserve service.
    The second provision would authorize a critical skills retention 
bonus for Selected Reserve members similar to the current critical 
skills retention bonus available to the active components. While 
attrition throughout the Reserve components is consistent with 
acceptable norms, attrition in certain skills is too high. This bonus 
authority would permit us to target those skills by offering bonuses to 
members who agree to serve in those skills for at least 2 years. A 
member would be limited to receiving $100,000 over an entire Reserve 
career under this authority. This amount is half of the career limit of 
$200,000 for Active component members for a similar bonus authority. We 
are certain that this bonus authority will help us retain the right 
members in the right skills.
    Additionally, we note that the House has included two provisions in 
its version of the NDAA for Fiscal Year 2006 that will have a definite, 
positive impact on military recruiting. The House raises the maximum 
level for an enlistment bonus from the current $20,000 to $30,000. The 
Services now use enlistment bonuses in support of recruiting for a 
variety of purposes: to attract high quality youth, to steer recruits 
into ``hard-to-fill'' and critical skills, to even-flow the training 
base through seasonal use, to encourage enlistment for longer terms, 
and to reward advanced education. Raising the cap to $30,000 will give 
the Services more flexibility in combining the uses of the bonus by 
encouraging particularly high quality potential recruits to enlist for 
longer terms in critical skills and enter Active Duty when most needed.
    The second provision authorizes a 1-year pilot test allowing the 
Army to offer a $1,000 referral bonus to existing soldiers. This bonus 
would be paid for referring an applicant who subsequently enlists and 
completes initial entry training. Not only will this bonus be a boon to 
Army recruiting at a time when it is needed, the 1-year pilot will give 
the Department an opportunity to judge the merit of such a program for 
Department-wide adoption. Since your bill includes no such provisions, 
we urge you to recede to the House on these two during your upcoming 
conference deliberations.

                      REDUCING STRESS ON THE FORCE

    Three other initiatives proposed by the administration would also 
help reduce stress on our force: strengthening the authority of the 
Department of Defense to train and equip the forces of other nations; 
creating in the Department of State a capacity for stabilization and 
reconstruction; and civilianizing military positions where appropriate, 
returning those billets to military use as needed. We regret that the 
amount and the scope of the request remains unfulfilled. The House 
State and Foreign Operations Appropriation Bills provide only $7.7 
million of the requested $124 million for the newly created State 
Department Coordinator for Reconstruction and Stabilization (S/CRS) and 
neither the House or Senate Authorization bills include a requested 
authority for DOD to support S/CRS with a $200 million drawdown 
authority. The appropriation process has reduced the funding for 
civilianization by $400 million. We urge Congress to reconsider these 
marks and provide the funding and authority originally requested, to 
help reduce the stress on our forces.

            ADDITIONAL OPPORTUNITIES TO SUPPORT OUR EFFORTS

    Today's environment poses some recruiting and retention challenges 
for our All-Volunteer Force. The pressures of high operational tempo, 
increases in Army end strength in support of global war on terrorism, 
and a rapidly recovering economy have made it difficult to achieve 
increased Army recruiting goals. We greatly appreciate how 
congressional support in previous periods of difficulty has helped us 
maintain the AVF to which we are all committed.
    Today I would like to encourage you to support us in a way you may 
not have thought of--by lending us your time and your voice. We are 
increasing our efforts to communicate the Value of Service to the 
American people. Throughout our Nation's history, military Service had 
a tremendous formative impact on many of our greatest leaders--from 
Presidents to captains of industry to educators and even legislators--
after 10 years of much smaller forces, the patriotic tendency may be 
waning in our society.
    In order to address this shift, we are developing a focused public 
affairs campaign aimed at bolstering patriotic impulses and 
highlighting the value of military service. The ultimate objective is 
to reach out to target parents and influencers in a way that leads them 
to support their son's and daughter's decision to serve. We hope that 
you will partner with us in this effort by teaming with our speakers' 
bureau to emphasize the importance, nobility, and Value of Service.
    With your continued cooperation in support of the programs I have 
outlined, we can certainly see the Army through its current challenges, 
ensuring continued viability of our All-Volunteer Force.

                               CONCLUSION

    Mr. Chairman, in conclusion, I want to thank you and members of 
this subcommittee for your advocacy on behalf of the men and women of 
the Department of Defense. Whether the career of a member of the Total 
Force is measured in months or years, whether that career is spent in a 
Reserve component, an Active component, a combination of the two, or as 
a Department of Defense civilian, the Nation's gratitude for dedicated 
service is proved in your continued support and funding for the 
programs that keep the force strong and healthy. We look forward to 
your questions.

    Chairman Warner. Thank you very much.
    General Myers.

   STATEMENT OF GEN. RICHARD B. MYERS, USAF, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Thank you, Mr. Chairman, Senator Levin, and 
other members of the committee. Thank you particularly for your 
continued support of our men and women in uniform and this 
opportunity to discuss the readiness issues that we have in our 
military.
    Despite the current operational demands on our forces, we 
are fully prepared to support our strategy, and to assure our 
allies while we dissuade, deter, and if necessary, defeat any 
adversary. Our forces are the most capable in the world, in 
large part because they are the best trained, the best 
equipped, and best led. Many are deployed in countries around 
the world or at sea providing stability, peacekeeping, 
humanitarian assistance, and aiding in this struggle against 
violent extremism.
    Current requirements for the force are significant and are 
not likely to decrease in the near term. In Operations Iraqi 
Freedom and Enduring Freedom, our high tempo operations have 
created challenges in several areas, including our force 
sourcing, mobilization, training and reconstitution, and 
equipment wear and tear. In the face of continuing demands on 
our forces, we are analyzing all our policies and are making 
changes to mitigate challenges to our readiness.
    Congressional support both in the annual budget and 
supplemental funding are absolutely essential to help address 
these readiness challenges, and we appreciate very much that 
support.
    Our Nation's number one military asset, as always, remains 
our people. The administration, Congress, and the DOD have made 
raising our servicemembers' standard of living a top priority. 
I thank Congress for your tremendous support to our troops and 
to their families.
    Our service men and women continue to perform superbly. 
Morale is high under some very challenging conditions. I am 
tremendously proud of how they are handling these challenges, 
as I know you are.
    We anticipate that the rest of fiscal year 2005 will be 
challenging as well for both Active and Reserve component 
recruiting, as was said, and are particularly concerned with 
the Active Army, Army Reserve, and the Army National Guard. To 
mitigate these challenges, we have increased the number of 
recruiters, enhanced enlistment bonuses, and have modified our 
recruiting strategy.
    The transformation efforts also involve measures to address 
our readiness challenges. Some of these include: the 
rebalancing of our Reserve components with the Active 
components to achieve the appropriate mix for the 21st century; 
the Army's modular force initiative, which involves a total 
redesign of the operational Army into a larger, more powerful 
and flexible force; and the creation of a more efficient global 
force management process with U.S. Joint Forces Command as a 
single-source force provider that has a global perspective.
    I think we have made a lot of progress on our 
transformational efforts, and we have had some successes. We 
have to continue to invest heavily in transformation both 
materially and intellectually to meet the challenges facing our 
country today and certainly in the future.
    As I said a week ago in this very room, our military is 
unwavering in our focus and our resolve and our dedication to 
peace and freedom. But we cannot do it alone. We need your 
continued leadership to reinforce Americans' resolve. I do 
believe our way of life remains at stake in this struggle 
against violent extremism, and I think we are also entering a 
crucial stage of this long struggle. The price for complacency 
would be catastrophic. The reward, on the other hand, will be 
freedom.
    I thank you again, committee members and Mr. Chairman, for 
your continued support. We look forward to your questions.
    Chairman Warner. Thank you very much, General Myers.
    Secretary Abell.
    Mr. Abell. Thank you, sir. Good morning, sir, Senator 
Levin, members of the committee. It is always a pleasure to be 
back at the United States Senate.
    Despite the sort of dour reports that we hear about the 
recruiting efforts of the Department, I think there is a great 
deal of good news in the Department's recruiting efforts as 
well. Our Air Force, Navy, and Marines are ahead of their year-
to-date numeric accession goals, and I am confident that they 
will meet or exceed their annual goals. Our Services continue 
to meet the Department's quality benchmarks for the Active 
Force. Recent Gallup polls show that public confidence in our 
military is high and our All-Volunteer Force is not in 
jeopardy.
    The Army is facing some challenges, but is focused on the 
mission. The emerging results for June show some positive 
trends, and I am sure General Schoomaker will report more on 
that.
    I would like to focus for a minute on something the 
chairman said and that is the thousands of the best 
noncommissioned officers in our force that are stationed 
throughout America, that are on duty in recruiting offices from 
Time Square to the most rural parts of our country. These 
noncommissioned officers, many of whom are veterans of 
deployments in support of the global war on terror, are the 
face of our military Services in our local communities. They 
work 16 or more hours per day, many of them 7 days a week, 
contacting young men and women who meet the high standards that 
we demand of those who enlist.
    These noncommissioned officers face resistance from many of 
our educators and school administrators. They must calmly and 
dispassionately discuss the nobility of service, the 
opportunity and benefits of military service, to concerned 
parents and coaches and mentors. They face intense pressure to 
succeed, and, because of the type of people they are and their 
commitment to the values and the ethos of service, some of this 
pressure is self-generated. Of course, some of it is from folks 
like us.
    Mr. Chairman, we have to help these great noncommissioned 
officers succeed. They need additional tools. Dr. Chu has 
mentioned a few, bonus authorities, and new and innovative 
ideas that we have asked for in our legislative package. They 
also need to hear from national and community leaders that 
military service is a noble undertaking and that we appreciate 
and respect those who serve.
    Our youth have a propensity to service. They want to join. 
Many times a parent or a coach or a school counselor or other 
trusted adult convinces this young man or woman just to wait a 
while, to put off their service. We all need to work with our 
respective recruiters to overcome this impediment. We need to 
give them better tools. We also need to give them our moral 
support.
    Thank you, Mr. Chairman, and I stand by for your questions.
    Chairman Warner. Thank you very much, Secretary Abell.
    General Schoomaker.

  STATEMENT OF GEN PETER J. SCHOOMAKER, USA, CHIEF OF STAFF, 
                       UNITED STATES ARMY

    General Schoomaker. Mr. Chairman, thank you very much. 
Chairman Warner, Senator Levin, and distinguished members of 
the committee: It is a pleasure to have the opportunity to 
appear before you today. With your permission, I would like to 
submit a written statement for the record.
    Chairman Warner. Without objection, the statements of all 
witnesses in total will be put in the record.
    General Schoomaker. Thank you, sir.
    Before I begin my short opening remarks, I would like to 
introduce the five soldiers to whom we awarded the first Army 
Combat Action Badges yesterday in the Pentagon. They are seated 
here behind me, and they truly represent our whole Army, our 
total Army, Active, Guard, and Reserve.
    First of all, directly to my right rear is Sergeant April 
Pashley, who is from the U.S. Army Reserve. She is a civil 
affairs team sergeant who has served in Iraq with the 173rd 
Airborne Brigade in northern Iraq in the early phases of the 
war.
    Next to her is Sergeant Manuel Montano, a military police 
team leader, originally from Colorado.
    Sergeant Timothy Gustavson, a forward observer, originally 
from Kansas.
    Sergeant Michael Boyas, a Stryker crewman, originally from 
Washington.
    Sergeant Sean Steens, a motor transport operator, 
originally from Alabama.
    These are the great fine people, the great young people 
that everybody has spoken about here. They represent them. I am 
very proud to have them here.
    Chairman Warner. The committee welcomes them, General. 
[Applause.]
    We could take a minute to describe the evolution of this 
important designator. It originated with the Army, and was 
approved by the Secretary of Defense. I notice that you proudly 
wear the Combat Infantryman's Badge. Can you distinguish how 
those two awards differ?
    General Schoomaker. Sir, I would be glad to. The Combat 
Infantryman's Badge is awarded to infantry and Special Forces. 
The badge originated in 1942 in World War II for those that 
participate routinely in direct ground combat. We designed and 
authorized the Combat Action Badge this year to recognize the 
fact that the battlefield has changed and that all soldiers are 
warriors, and that those that perform satisfactorily under fire 
in accordance with the rules of engagement, regardless of 
military occupational specialty (MOS) or regardless of unit of 
assignment, gender, or whatever, should be recognized for their 
satisfactory service under fire. It is very similar to the 
Marines' Combat Action Ribbon, if that helps.
    These five soldiers are the very first, and so all across 
the Army today those soldiers--this is retroactive, by the way, 
to September 18, 2001, when the President signed the executive 
order on the global war on terrorism.
    Chairman Warner. But if I can pick up on that, I think it's 
an important recognition that the battlefield today is 360 
degrees. That was one of the motives, I presume, and a very 
important one, that recognition.
    General Schoomaker. Sir, that is correct. You will notice 
if you examine closely that four out of five of these soldiers 
have all been wounded in combat action.
    Chairman Warner. We have the greatest respect for these 
gentlemen and gentlewoman that have joined us here today. Thank 
you very much.
    General Schoomaker. Thank you, sir.
    Earlier this month, as has been noted, the Gallup 
organization reported that the American people's confidence in 
the Armed Forces is at the top of all institutions in our 
society, and that continues to be the trend. This is due, no 
doubt, to the service of soldiers like these that are with us. 
We are all humbled by the faith that the American people have 
placed in us, and we realize that we cannot take this faith for 
granted, that we must communicate with them honestly and 
effectively.
    Therefore, I appreciate the opportunity to be able to tell 
the story of the United States Army before the American people 
through forums like this today. America remains a Nation at 
war, and this is a war unlike any other in our history and one 
we will be fighting for the foreseeable future. While this is 
not just the Army's war, we acutely feel its burdens. Our Army 
exists to serve the American people, to protect enduring 
national interests, and to fulfill our national military 
requirements.
    Our Army has honorably served the Nation for over 230 years 
and, we celebrated our birthday June 14. We continue to do so 
now in Iraq, Afghanistan, and other parts of the globe, 
deterring aggression and securing our homeland. We are doing 
all of this and transforming at the same time to meet 
tomorrow's challenges.
    Of course, while the forms of war may vary, there are 
certain constants, and soldiers have been and will remain the 
centerpiece of America's Army. The soldiers who are fighting in 
Iraq and Afghanistan reflect the very best of what America has 
to offer. They are motivated by an unwavering belief that they 
are serving for what is good, right, and just, and that they 
will be victorious. Today's soldiers epitomize the principle of 
selfless service.
    Like those in generations past who have worn the uniform 
and borne arms in the Nation's defense, today's soldiers 
understand that our constitutional liberties and guarantees are 
worth fighting for. In fact, by raising their right hand and 
taking the oath of military service with its obligations and 
risks, today's soldiers have proudly answered the call to duty 
that pierces the air once again, and I am humbled by their 
service and sacrifices.
    As we lead, train, and resource our soldiers, we must not 
lose sight of the fact that the Army's character is defined by 
those like the sergeants that are with me today here before 
you. They have demonstrated daily their commitment to live by 
the ideals contained in the warrior ethos and our Army values. 
Of course, these values reflect our Nation's values.
    While there is much good news, there are some areas of 
concern, and I know that is why we are here today. It is 
critical to recognize and acknowledge the war-induced strain 
felt by our institution and the soldiers and their families who 
are bearing the burden of this global war. I know your 
questions and our answers will address both our accomplishments 
and challenges. It is important to remember, however, that the 
challenges and opportunities are not simply the Army's to face. 
They are America's challenges, and we will not succeed without 
congressional support and the support of the American people.
    Our Nation is asking much of its Army, and I remain 
confident that we will continue to do our part as we achieve 
the critical mission we face together.
    In closing, I would like to thank this committee for the 
opportunity to appear before you and for your continued 
support, which has been tremendous, for the men and women in 
uniform today. I look forward to answering your questions. 
Thank you very much.
    [The prepared statement of General Schoomaker follows:]

           Prepared Statement by GEN Peter J. Schoomaker, USA

    America remains a nation at war. This is a war unlike any other in 
our history and one we will be fighting for the foreseeable future. 
While this is not just the ``Army's War,'' we acutely feel its burdens.
    The Army exists to serve the American people, to protect enduring 
national interests, and to fulfill national military responsibilities. 
Our mission is enduring: to provide necessary forces and capabilities 
to the combatant commanders in support of the National Security and 
Defense Strategies. The Army is charged to provide forces able to 
conduct prompt, sustained combat on land as well as stability 
operations. Moreover, the Army is charged to provide logistical and 
other capabilities to enable other Services to accomplish their 
missions.
    The Army has honorably served the Nation for over 230 years. We 
continue to do so now with contributions to the joint team in support 
of the combatant commanders. Of particular note are operations in Iraq, 
Afghanistan, and other theaters of war, deterring aggression, and 
securing the homeland. We are doing all this and transforming to meet 
tomorrow's challenges.
    Of course, while the nature of war has changed, there is a 
constant--soldiers have been and will remain the ``Centerpiece'' of 
America's Army--and they must live America's values through Army Values 
and the Warrior's Ethos.
    The soldiers who are fighting Iraq and Afghanistan are our sons and 
daughters. They reflect the best America has to offer. They are 
motivated by an unwavering belief that they will be victorious on the 
field of battle. Today's soldiers symbolize the principle of selfless 
service.
    Like those in generations past who have worn the uniform and borne 
arms in America's defense, today's soldiers also recognize the ideal of 
freedom enshrined in the Constitution. They understand, as few others 
do, that our Constitution and the liberties it guarantees are worth 
fighting for. They are ideals each swore to ``support and defend.'' 
They are ideals to which each promised to ``bear true faith and 
allegiance.'' They are ideals each thinks worth dying for if necessary.
    In fact, by raising their right hand and voluntarily taking the 
oath of military service, with its obligations and attendant risks, 
today's soldiers have proudly answered the call to duty that pierces 
the air once again.
    I am humbled by their sacrifices in service to the Nation.
    In addition to the Army's statutory responsibilities under title 10 
and the Army's critical role in providing Relevant and Ready Landpower 
to combatant commanders in support of the full range of our global 
commitments, it is our obligation to the soldiers fighting this global 
war on terror that focuses our efforts.
    Thanks to innovative leaders at all levels of DOD and the continued 
support of Congress, the Army is able to do the following despite the 
challenges of war.

        <bullet> Train and equip soldiers to serve as warriors and grow 
        adaptive leaders who are highly competent, flexible and able to 
        deal with the 21st century challenges they now confront;
        <bullet> Attain a quality of life and well-being for our people 
        that matches the quality of the service they provide; and
        <bullet> Provide infrastructure to enable the force to fulfill 
        its strategic roles by establishing and maintaining the 
        facilities and the information network required to develop, to 
        generate, to train and to sustain the force.

    By accomplishing these difficult tasks while engaged in war, the 
Army is effectively meeting the combatant commanders' needs today while 
simultaneously transforming to meet the Nation's needs tomorrow.
    While there is much good news, there are admittedly some areas of 
concern. It is critical to recognize and acknowledge signals of stress 
and strain in order to adequately address potential problems. This 
testimony addresses both our accomplishments and our challenges.
    What is important to remember, however, is that the challenges and 
opportunities are not simply the Army's to face, they are America's--
from the young Americans who answer the call to duty, to the vital 
financial and moral support of Congress, the President, the Department 
of Defense, and the American people as we fight the global war on 
terror. The Army and our soldiers are dependent on the resources and 
the continued support of the people to achieve the critical mission we 
face together.

                   SOLDIERS AS THE ARMY'S CENTERPIECE

    This is the first time in our Nation's history that the All-
Volunteer Force has been tested during a prolonged war. It has 
performed exceptionally well because of the high-quality, versatile 
young Americans who have answered the call to duty.
    Maintaining the viability of this force will depend on several 
factors which focus on soldiers. No matter how much the tools of 
warfare improve, it is the soldier who must exploit these tools to 
accomplish his mission. Conflict remains a human endeavor.
Reinforcing Army Values and the Warrior Ethos
    Our soldiers are smart, competent and dedicated to defending the 
Nation. All are guided by Army Values. They commit to live by the 
ideals contained in The Soldier's Creed which captures the Warrior 
Ethos and outlines the professional attitudes and beliefs that American 
soldiers have lived in 230 years of service to the Nation.
    Mental and physical toughness underpin the beliefs embraced in the 
Soldier's Creed and must be developed within all soldiers. The Warrior 
Ethos engenders the refusal to accept failure, the conviction that 
military service is much more than just another job, and the unfailing 
commitment to be victorious. It defines who soldiers are and what 
soldiers must do, is derived from Army Values, and reinforces a 
personal commitment to service.
    Soldiers join the Army to serve. Our soldiers know that their 
service is required to secure our Nation's freedoms. However, it is 
critical that we continue to extol and reinforce these values and the 
Warrior Ethos in all we say and do in order to sustain the Army's 
culture of service in a challenging and dangerous wartime environment.
Training Soldiers and Growing Adaptive Leaders
    To meet current wartime requirements in light of recent lessons 
learned and to prepare Army leaders and soldiers for the future, the 
Army relies heavily on both training and education.
    The biggest recent change is in our initial military training where 
all soldiers are now receiving substantially more marksmanship 
training, hand-to-hand combat instruction, an increased emphasis on 
physical fitness, live-fire convoy training, and more focus on skills 
they need to succeed and survive in combat.
    Leader development programs have been adjusted to reflect the 
challenging joint environment by incorporating the lessons learned from 
current operations. We are developing more rigorous, stressful training 
scenarios to prepare leaders to operate amidst uncertainty.
    Furthermore, in recognition that we may well have little time to 
train prior to deploying, the Army has moved from an ``alert-train-
deploy'' training model to a ``train-alert-deploy-employ'' model. For 
this reason, Army transformation is focused on providing key training 
and education to increase readiness for no-notice operations.
    We have incorporated lessons learned into all of our systems and 
training scenarios, at our mobilization stations, and training bases. 
For example, we have increased funding to adapt ranges and facilities 
to reflect likely combat situations. We have adjusted Defense Language 
Institute requirements to meet operational needs for translators. We 
have increased soldier live-fire weapons training. Furthermore, at our 
Combat Training Centers (CTCs), which are critical ``agents of change'' 
within the Army, training scenarios are constantly updated to reflect 
changing battlefield conditions and incorporate recent lessons learned. 
In all scenarios, soldiers and leaders are presented with complex, 
cross-cultural challenges by large numbers of role players who act as 
both combatants and foreign citizens. Additionally, each of the 
training centers is building extensive urban combat training 
facilities, as well as cave and tunnel complexes, to simulate current 
wartime environments. It is clear that our adaptation of training is 
having an immediate, tangible impact in Iraq and Afghanistan and in 
other places around the world.
    We have also implemented formal assignment guidelines to make best 
use of soldier and leader experiences to ensure we learn from our war 
veterans. For example, we are assigning them to key joint and 
operational billets as well as to key instructor and doctrine 
development positions.
    The Army remains committed to the education of our leaders even 
during war. In fact, we are more aggressively pursuing leaders' 
education now than during any other period of conflict in our history. 
In addition to preparing leaders for specific billets, we are educating 
them to promote intellectual pluralism, increase their cultural 
awareness, and to encourage a ``lifetime of learning.''
    Additionally, Joint Professional Military Education (JPME) is even 
more embedded throughout Army learning to provide in-depth 
understanding of joint, combined, and interagency principles and 
concepts. This education is reinforced by joint assignment experiences.
    Supported by Army Values, the Warrior Ethos and the experiences 
obtained through training and combat, Army leaders at all levels 
continue to hone the skills required to win in the complex environment 
of the 21st century.
Equipping Our Soldiers
    Our soldiers rely on and deserve the very best protection and 
equipment we can provide. Of particular note, with the support of 
Congress, acting in full partnership with industry, the Army has 
dramatically increased the pace of both production and fielding of 
vehicle armor. Since February 15, any tactical wheeled vehicle leaving 
a forward operating base has had level one- or level two-armor. We are 
meeting all the timelines for providing capability to theater. June 
production will meet theater requirement for 10,079 Up-Armored HMMWVs 
(UAH). While July production of Add-on Armor (AOA) kits will meet the 
original requirement for 24,183 vehicles, the recent increase in 
requirements to 25,847 will be met in September. Again, all vehicles 
leaving forward operating bases have level one or level two-armor.
    Of course, our enemies will continue to adapt their tactics. We 
remain committed to protect our soldiers by meeting and exceeding 
theater requirements in all areas.
    The Army is working aggressively to provide soldiers the best 
possible equipment. We have established two programs to anticipate 
soldiers' needs and respond quickly to those identified by commanders: 
The Rapid Fielding Initiative (RFI) and the Rapid Equipping Force 
(REF). Through emergency supplemental appropriations, Congress has been 
especially helpful in funding these programs.
    The RFI is designed to fill soldier equipment shortfalls by quickly 
fielding commercial off-the-shelf technology rather than waiting for 
standard acquisition programs to address these shortages. RFI is 
increasing soldier capabilities at an unprecedented pace. We are using 
fielding teams at home stations and in theater to ensure that every 
soldier receives 49 items including body armor, advanced ballistic 
helmets, hydration systems, ballistic goggles, kneepads, elbow pads, 
and other items. The equipment being issued to units reflects the 
lessons learned during 3 years of fighting in complex environments, 
including optical sights for weapons, grappling hooks, door rams and 
fiber optic viewers to support soldiers' ability to observe from 
protected positions. As of June 20, the Army has fielded RFI to 385,946 
soldiers. We completed RFI in Iraq in November 2004. We are still on 
track to field the entire operational Army (840,000) by the end of 
fiscal year 2007.
    The Rapid Equipping Force (REF) typically uses commercial and 
field--engineered solutions to quickly meet operational needs. REF has 
executed numerous initiatives to support the Army's Improvised 
Explosive Device (IED) Task Force and the requirements of the other 
Services. REF solutions meet immediate needs and are then assessed for 
wider fielding and incorporation into standard acquisition processes 
and provide predeployment and in-theater training on the technological 
solutions it provides.
Recruiting and Retaining Soldiers
    To maintain our high-quality Army, we must recruit and retain the 
best soldiers in the world. We are proud of the men and women who join 
the Armed Forces to make a difference, to be part of something larger 
than themselves, and to ``answer the call to duty'' of their country.
    As was the case last year, we are exceeding our retention goal in 
2005. So far this year we have retained just under 104 percent of our 
goal in each of the components--active, Reserve, and National Guard. 
This is an incredibly good news story. soldiers who have borne the 
burden of this global war on terror for over 3 years, some who have 
deployed two and three times, are continuing to serve at an 
unprecedented rate. Their patriotism is humbling and testimony to the 
fact that they know what is at stake in this war and are answering the 
``call to duty'' again. America can be proud.
    In contrast, the recruiting environment is a more challenging one. 
While the Army continues to attract highly qualified and motivated 
young people, the Army's fiscal year 2005 enlisted accession mission of 
80,000 is at serious risk and recruiting will remain challenging for 
the remainder of fiscal year 2005 and well into the future. In fact, 
fiscal year 2006 may be the toughest recruiting environment ever. For 
example, the Army is projected to enter fiscal year 2006 with the 
smallest beginning delayed entry program in history. This difficulty is 
a function of a good economy, declining youth propensity to enlist, and 
a declining number of people who recommend military service to those 
they know and care about. The negative impact of these factors on 
recruiting is not, however, just an Army challenge; it is America's 
challenge. Leaders and influencers across America must extol the 
virtues of service to the Nation and encourage our young men and woman 
to serve in uniform.
    The Army has taken important actions to mitigate the recruiting 
shortfalls. Our Recruiting Action Plan addresses the normal levers that 
affect mission achievement. We have added 1,215 active component on-
production recruiters for a total of 6,279, and provided funding 
increases in incentives ($70.6 million), advertising ($70.8 million) 
and recruiter support ($86.5 million).
    We do, however, ask the committee's assistance in a number of 
areas. First, the Army would benefit from an increase in the enlistment 
bonus cap. With a strong economy America's young men and women have 
many opportunities other than military service. We must compete to the 
degree necessary to fill our future ranks. Second, continue to support 
the Army's modularization initiatives. The Army Modular Force will 
provide the right mix of units to bring stability and predictability to 
overseas deployments. Third, we ask the Committee to assist in 
communicating the importance of answering the call to duty to the 
Nation, to our young adults, and to those who support them in their 
decisions. Our core values of loyalty, duty, respect, selfless service, 
honor, integrity, and personal courage are demonstrated by our soldiers 
every day. Ours is a noble profession and the country needs their 
service.
Caring for Army Families and Soldiers
    The quality-of-life programs that support our soldiers and their 
families, as well as our civilian workforce, play a major role in 
maintaining the overall viability of the All-Volunteer Army. It is also 
critical that we acknowledge that this global war on terror places 
unprecedented burdens on our soldiers and their families. We are 
cognizant of the fact that some marriages are strained by deployments 
and that soldiers and their families face significant stresses. We are 
tracking numerous metrics to ensure that we can meet the needs of those 
that serve and their loved ones.
    We must provide an environment in which individual and family needs 
and aspirations can be met. Soldiers must understand the frequency and 
cycle of projected deployments. They must believe that their families 
will be provided for in their absence. Additionally, programs to 
encourage civilian employer support to Reserve component soldiers are 
essential. Developing the environment, compensation, education, and 
other incentives to keep the All-Volunteer Army appropriately manned 
may well be the greatest strategic challenge we face.
    Army Well-Being programs contribute to the Army's ability to 
provide trained and ready forces. These programs enable leaders to care 
for their people while accomplishing the missions assigned to their 
units. Providing for the well-being of soldiers' families is a 
fundamental leadership imperative that requires adequate support and 
resources. For example, housing programs like the Residential 
Communities Initiative and Barracks Modernization Program, for which 
Congress has provided tremendous support, greatly increasing our 
ability to retain soldiers and families. Improvements in healthcare, 
child care, youth programs, schools, facilities, and other well-being 
initiatives also have a positive impact on soldier and family well-
being.
    We are pursuing numerous programs designed to improve spouse 
employment, ease the transitioning of high school students during moves 
and extend in-state college tuition rates to military families. We are 
also examining how best to expand support for veterans and National 
Guard and Army Reserve soldiers. For example, TRICARE policies now 
allow for the eligibility of National Guard and Reserve soldiers and 
their families. We are supporting our soldiers who have become 
casualties during war through the Disabled soldier Support System (DS3) 
an initiative that provides our most severely disabled soldiers and 
their families with a system of follow-up support beyond their 
transition from military service.

    SOLDIER-CENTRIC TRANSFORMATION: MODULAR FORCE, REBALANCING, AND 
                             STABILIZATION

    While more closely associated with the Army's mission of providing 
relevant and ready landpower to support the combatant commanders, the 
Army's Transformation initiatives have a direct, significant, and 
positive affect on soldiers.
    First, we are restructuring from a division-based to a brigade-
based force. These brigades are designed as modules, or self-sufficient 
and standardized Brigade Combat Teams, that can be more readily 
deployed and combined with other Army and joint forces to meet the 
precise needs of the combatant commanders. The result of this 
transformational initiative will be an operational Army that is larger 
and more powerful, flexible and rapidly deployable. The Army Modular 
Force will increase the combat power of the active component by 30 
percent as well as the size of the Army's overall pool of available 
forces by 60 percent. The total number of available brigades will 
increase from 48 to 77 with 10 active brigades (three-and-a-third 
divisions in our old terms) being added by the end of 2006. We are on-
track to achieve 80 percent of our planned conversion to the Army 
Modular Force by end of fiscal year 2006--well ahead of schedule. Our 
goal for this larger pool of available forces is to enable the Army to 
generate forces in a rotational manner that will support 2 years at 
home following each deployed year for Active Forces, 4 years at home 
following each deployed year for the Army Reserve and 5 years at home 
following each deployed year for National Guard Forces. Implementing 
this program will provide more time to train, predictable deployment 
schedules, and the continuous supply of landpower required by the 
combatant commanders and civil authorities.
    Second, we are rebalancing our Active and Reserve Forces to produce 
more units with the skills in highest demand. This will realign the 
specialties of more than 100,000 soldiers, producing a 50-percent 
increase in infantry capabilities, with similar increases in military 
police, civil affairs, intelligence, and other critical skills. We have 
already converted more than 30,000 spaces. This will reduce the 
operational tempo of units and individual soldiers.
    Third, soldiers are being stabilized within units for longer 
periods to increase combat readiness and cohesion, reduce turnover and 
eliminate many repetitive training requirements. With fewer soldiers 
and families moving, more soldiers will be available on any given day 
to train or to fight. This initiative, started in 2004, also 
transitions our Army from an individual replacement manning system to a 
unit focused system--to prepare soldiers to go to war as vital members 
of cohesive units.
    Fourth, we are working to complement our operational transformation 
by ensuring that our business, force generation and training functions 
improve how we support a wartime Army and the other Services. We are 
divesting functions no longer relevant and reengineering business 
processes to increase responsiveness to the combatant commanders and to 
conserve resources. Other improvements include developing a joint, 
interdependent end-to-end logistics structure, and fostering a culture 
of innovation to increase institutional agility. We seek to improve 
effectiveness and identify efficiencies that will free human and 
financial resources to better support operational requirements.
    Fifth, we are leveraging Army science and technology programs to 
accelerate maturing technologies with promising capabilities into the 
current force faster than expected. Many of these technologies are 
already being fielded to our front-line soldiers to dramatically 
improve their capabilities. For example, specific science and 
technology initiatives have improved existing capabilities to detect 
and neutralize mines and improvised explosive devices (IEDs), identify 
friendly forces in combat, develop medical technology for self-
diagnosis and treatment, identify hostile fire indicators, and enhance 
survivability, training systems and robotics.
    Our largest and most promising, science and technology investment 
remains the pursuit of Future Combat Systems (FCS) technologies by 
``spinning out'' FCS capabilities into the Current Army Modular Force. 
When completed, FCS will add crucial capabilities to the Future Army 
Modular Force to achieve Department of Defense transformation goals. 
FCS-equipped units, operating as a system of systems, will be more 
deployable and survivable than our current units and will enhance joint 
capabilities. They will also be better suited to conduct immediate 
operations, over extremely long distances, with other members of the 
Joint Force, to produce strategic effects.
    I would like to conclude, as I began, with a message about our 
soldiers who are protecting our National interests around the globe, 
serving in more than 120 countries. In the past 4 years, in joint and 
combined environments, soldiers helped to rescue two nations from 
oppression, and liberated over 50 million people. Since then, thousands 
have served in Iraq and Afghanistan, and many are returning for a 
second or third time. Our soldiers understand that this is a struggle 
we must win. Despite the hardships and the danger to life and limb, 
duty calls and our soldiers continue to answer.
    Our Nation's citizens--men, women, and children from all walks of 
life--sleep better at night because they know that soldiers, as part of 
the Joint Team, defend the freedoms they so richly enjoy.
    Today's soldiers are volunteers doing difficult duty against an 
enemy who does not value life, is afraid of liberty, and desires to 
crush the individual pursuit of a democratic way of life. Their 
dedication to this noble effort underscores their determined 
professionalism and tenacity. I am proud to serve with them as they 
place the mission first and live the Warrior Ethos.
    They have made our Army the most respected institution in the 
United States and the world's preeminent land power. I thank them for 
answering the call to duty.

    Chairman Warner. Thank you very much, General.
    General Hagee.

 STATEMENT OF GEN. MICHAEL W. HAGEE, USMC, COMMANDANT, UNITED 
                      STATES MARINE CORPS

    General Hagee. Mr. Chairman, Senator Levin, distinguished 
members of the committee: It is my privilege to provide an 
update on the state of readiness of your Marine Corps. Your 
marines and their equipment continue to perform extremely well, 
not only in Iraq and Afghanistan, but literally around the 
world. They continue to succeed because of the dedication and 
commitment of the individual marine and his or her family.
    Your steadfast fiscal, legislative, and moral support 
remain the cornerstone of sustaining our high-quality young 
Americans with the equipment and training required today, and I 
thank you for that support.
    On the subject of manning, I can report that the Marine 
Corps continues to experience a high rate of retention in our 
regular, Reserve, officer, and enlisted corps. The Center for 
Naval Analyses recently reported that we are retaining higher 
quality first-termers this year than we did last year. It also 
reports that we are retaining a higher percentage of first-term 
marines with families. These are indicators that marines 
believe they are accomplishing an important mission, that they 
are well-trained, equipped, led, and that they have the support 
of the American people.
    Additionally, our non-end of Active service (EAS) 
attrition, that is, those marines who leave Active-Duty before 
the end of their current contracts, is at an all-time low and 
continues to decline.
    As both the Secretary and General Schoomaker said, 
recruiting continues to be a challenge this year. However, 
thanks to significant efforts by our recruiters, we are 
slightly ahead of our fiscal year 2005 shipping goals for the 
number of recruits that we send to boot camp. I am confident 
that we will either meet or exceed that final goal by September 
30. The quality of individuals that we are shipping to the 
recruit depots remains very high.
    I know many of you have visited our forward-deployed 
marines and know from firsthand observation the 
professionalism, selflessness, and fortitude with which they 
carry out their tasks. You have also seen the wear and tear on 
our equipment as a result of ongoing operations. I remain in 
constant dialogue with our forward commanders and, although 
they are looking for improved technologies in some areas, they 
tell me that they possess the equipment they need to execute 
their assigned tasks.
    However, because of the harsh environment and high 
operational tempo, we are stressing and wearing out our 
equipment at a very high rate. Based on the requests of the 
forward-deployed commanders, we have provided them with 
equipment in several areas above their normal authorization. 
This equipment has come from some of our prepositioned supplies 
and CONUS-based units. We have started to replace this 
equipment, but that effort will take time and continuing 
resources.
    We need your help to ensure we have sufficient funding to 
aggressively replace and reconstitute our equipment. We have 
provided to the committee information necessary to identify our 
requirements and the planned way ahead to reconstitute the 
force.
    We are going against an adaptive, thinking enemy, and as 
the threat of improvised explosive devices has evolved we have 
worked aggressively to adapt our armoring program. Our Marine 
armor kit, a bolt-on kit for the A-2 series high mobility 
multipurpose wheeled vehicle (HMMWV), is at full production and 
ahead of schedule. The commander on the ground has recently 
increased his requirement for up-armored HMMWVs, the M-1114s, 
and we are pursuing the redistribution of assets in theater, an 
operational commander's call, and new procurement.
    I thank you for your vital assistance in the fiscal year 
2005 supplemental. We are executing the upkeep of the force as 
fast as we can obligate the funding provided. We greatly 
appreciate the fiscal year 2006 bridge supplemental 
appropriations, which will ensure we maintain a continuous 
funding stream as we reset your Marine Corps.
    In conclusion, let me emphasize that your marines remain 
fully dedicated to the idea of service to this great Nation. 
They know they are well-equipped, well-led, well-trained, part 
of a great team, and have the solid backing of Congress and the 
American people. We fully understand that our greatest 
contribution is our high level of readiness to respond across 
the spectrum of conflict. Marines and their families greatly 
appreciate your continued support.
    I look forward to your questions, sir.
    [The prepared statement of General Hagee follows:]

           Prepared Statement by Gen. Michael W. Hagee, USMC

    Chairman Warner, Senator Levin, distinguished members of the 
committee; it is my honor to provide you an update on the activities 
and the state of readiness of your Marine Corps since I last appeared 
before you in February. Today, over 27,000 of your marines--regular and 
Reserve, of all military occupational specialties--are deployed in 
Iraq, Afghanistan and elsewhere in the Central Command area of 
operation. Many are directly engaged in combat operations. The Marine 
Corps is a learning organization, and we continue, in close 
coordination with our joint and coalition partners, to develop new 
means to ensure that our marines--our most lethal weapons and our 
Corps' most precious assets--are properly trained, equipped, and 
organized to succeed in the face of an intelligent and adapting enemy. 
Along with our focus on effectively fighting the current fight, we 
continue to prepare to ensure our forces can rapidly respond to new 
threats and future contingencies. I would again like to thank you for 
your sustained fiscal and moral support of your marines and their 
families.

                         I. CURRENT OPERATIONS

    Your marines are fully engaged around the world in prosecuting the 
global war on terror. As I highlighted to the committee in February, 
the Marine Corps' commitment to readiness--as measured by our 
personnel, training, equipment, doctrine, and organization honed over 
many years--has repeatedly proven its value in the wide spectrum of 
operations that we have been called on to execute since September 11, 
2001. The importance of our Nation's ability to project power and 
conduct military operations over long distances for extended periods as 
part of a joint force has been revalidated a number of times. The 
Marine Corps' role as the Nation's premier expeditionary force-in-
readiness, combined with our forward deployed posture, has enabled us 
to rapidly and effectively contribute to these joint operations. Our 
scalable, combined arms teams, seamlessly integrating our robust ground 
and aviation forces with adaptive logistics, create speed, flexibility, 
and agility to effectively respond to each unique emerging situation. 
The high state of training and quality of your marines along with our 
warrior ethos--highlighted by our creed that every marine is a 
rifleman--allows marines to thrive in the chaotic, unstable, and 
unpredictable environments that have always characterized warfare and 
that our very adaptable enemies methodically attempt to exploit.
    The Marine Corps has been a key participant in several operations 
since the attack on our homeland. When the combatant commander needed 
to get ground forces into Afghanistan in late 2001, our flexibility 
allowed us to quickly join two Marine Expeditionary Units into Task 
Force 58. We then projected this force from the sea more than 350 miles 
inland to secure the airfield at Camp Rhino followed by the Kandahar 
airfield. Then, 12 months later, we projected 70,000 marines, complete 
with their equipment and sustainment--a combat ready Marine 
Expeditionary Force--into Kuwait in less than 60 days. Once unleashed, 
this Marine Air Ground Task Force attacked over 500 miles inland, 
destroying parts of eight Iraqi Divisions, and taking portions of 
Baghdad--all in less than 30 days. After returning home, the Marine 
Corps was notified in October that we were going back in with a force 
of 30,000 in 4 months. Concurrently, with preparing forces for this 
deployment as a stability and security force involved in insurgency 
operations, we conducted an evacuation of noncombatants in Liberia, and 
deployed to Haiti within 24-36 hours. We have also provided significant 
forces to support continuing operation in Afghanistan that assisted in 
establishing a secure and stable government. As the lead for the Multi-
National-Force-West, responsible for stability and security in the Al 
Anbar Province in Iraq, we formed a seamless combined/joint force that 
crushed the insurgents in the complex urban environment of Fallujah in 
less than 3 weeks. In addition to these examples of our expeditionary 
culture and our readiness, 15th Marine Expeditionary Unit trained and 
deployed with a focus on Iraq was headed to the Middle East aboard ship 
when the tsunami struck in the Indian Ocean littoral. They quickly 
reoriented to humanitarian assistance operating in India, Indonesia, 
and Sri Lanka. These operations all highlight the value of our naval 
readiness and requirement for amphibious shipping and forward deployed 
forces ready to respond across the spectrum of conflict.
    Since February 2005, the II Marine Expeditionary Force has 
completed a relief in place and transition of authority with the I 
Marine Expeditionary Force and is currently executing multiple 
security, urban combat, nation building and counter-insurgency and 
force protection missions with great confidence and skill, in the face 
of an adaptable and dangerous enemy in the heart of the Sunni Triangle. 
Marines are fully engaged in the training and establishment of the 
Iraqi Armed Forces. Highly motivated and professionally adept marines 
are currently training, supporting, and operating with the new Iraqi 
Army. We continue to aggressively match our training and equipment to 
the changing threat. Finally, in the Central Command area of operation, 
the 26th Marine Expeditionary Unit (Special Operations Capable) is 
supporting Multi-National Division-South East in Iraq, providing 
antiterrorism training to the Kingdom of Saudi Arabia, and conducting 
bilateral training with the Hashemite Kingdom of Jordan. We expect our 
commitment to Operation Iraqi Freedom to remain at about 23,000 marines 
and sailors into 2006, with the Marine Corps Reserve Forces providing 
about 4,000 of these marines.
    In Afghanistan, your Marine Corps continues to support Operation 
Enduring Freedom with an Infantry Battalion, an EA-6B squadron, and two 
Embedded Training Teams with the Afghan National Army. In the coming 
months, the Marine Corps will expand its participation in the training 
of the Afghan National Army as well as the training and development of 
the Afghan National Police. These Marine Forces are a major element of 
the Combined Joint Task Force assigned to defeat the remaining elements 
of the Taliban, al Qaeda, and al Qaeda affiliated organizations, 
``operationalize'' and deploy the new Afghan Army, solidify and 
``professionalize'' the Afghan National Police, and set the conditions 
for a successful National Assembly Election in September of this year.
    In addition to these operations, our concurrent support to other 
regions including the Horn of Africa, the Pacific, and the Republic of 
Georgia exhibit the flexibility and effectiveness of your marines in 
prosecuting the global war on terror and solidifying relationships with 
foreign governments. All of these demonstrate our continued resolve to 
be the world's foremost expeditionary warfighting organization--always 
interoperable with joint, coalition, and interagency partners--creating 
stability in an unstable world with the world's finest warriors--United 
States marines.
    Since February, over 31,000 marines have remained deployed around 
the globe fighting our Nation's battles and winning the global war on 
terror. The entire Marine Corps is supporting this sustained effort and 
no forces have been fenced. This means that many marine units in the 
operating forces are either deployed or training to relieve deployed 
units. In an effort to sustain and regenerate Marine forces for service 
in Iraq, and in response to lessons learned, the Marine Corps has 
trained and deployed a sizable number of provisional units--including 
cross-training artillery, tank and engineer units in security, military 
police, transportation, civil affairs, and foreign military training 
missions.
    The Marine Corps continues to provide well trained marines and 
units to meet our operational commitments worldwide, and our overall 
readiness in the Iraq and Afghanistan theaters remains high. This has 
come at a cost though. Current operational tempo has had an impact on 
unit readiness. Since the beginning of Operation Iraqi Freedom, overall 
unit readiness for battalion and squadron-sized units has dropped by 14 
percent. Our readiness priority remains support and sustainment of our 
forward deployed forces at the immediate expense of those units that 
have rotated out of Operation Iraqi Freedom. As a consequence, the 
readiness of the force not deployed has decreased. With your continued 
support in resetting and reconstituting our forces, we will continue to 
meet our forces for sustained operations in Iraq and Afghanistan and 
improve our readiness for any additional contingencies in the future.

                 II. PERSONNEL RETENTION AND RECRUITING

    Despite the high operational tempo, the morale and commitment of 
your marines remain high. We continue to work aggressively to reduce 
this high tempo and still meet the requirements of the combatant 
commanders.
End Strength
    The current end strength of 178,000 has allowed the Marine Corps to 
increase manning in our infantry units; create a dedicated Foreign 
Military Training Unit; add additional recruiters; and increase 
training infrastructure and other support to our operating forces. 
Coupled with initiatives implemented as part of the recent force 
structure review and our military to civilian conversions, we will 
place many more marines in our operating forces to reduce the tempo of 
operations on marines and separation from their families.
Retention
    Strong retention is a complex function of leadership opportunities, 
sense of purpose, operations tempo, compensation, quality of life, and 
educational opportunities. We are currently meeting or exceeding our 
regular and Reserve retention goals.
    Enlisted Retention
    We are a young force. Maintaining a continuous flow of quality new 
accessions is of fundamental importance to well-balanced readiness. 
Over 22,000 of our Active-Duty enlisted marines are still teenagers, 
and 106,000 are serving on their first enlistment. We are currently 
ahead of our plan in meeting our fiscal year 2005 career retention 
goal. For first term reenlistments, we are at 98 percent of this goal 
with full confidence of making or exceeding mission by 1 October 2005. 
Of particular note is that our infantry military occupational 
specialties are running well ahead of last year, and we have a 98-
percent first term skill match. Although the Selective Reenlistment 
Bonus represents just one-half of 1 percent of our military personnel 
budget, it remains a powerful retention tool, and we take pride in our 
prudent stewardship of this resource. Current Selected Marine Corps 
Reserve enlisted retention remains above historical averages.
    Officer Retention
    Overall, we continue to achieve our goals for officer retention. We 
are retaining experienced and high quality officers, and both regular 
and Reserve officer retention rates are above historical averages.
Recruiting
    A successful retention effort is but one part of ensuring there is 
a properly trained marine in the right place at the right time. 
Successful recruiting is essential to replenishing the force and 
maintaining a high state of readiness. Fiscal year 2005 is proving to 
be the most difficult recruiting year we have had in 10 years. Eight 
months into the fiscal year 2005 recruiting year, we have shipped 102.5 
percent of our fiscal year 2005 active component goal with 95.2 percent 
being Tier I high school graduates. The Marine Corps Reserve has also 
achieved its fiscal year 2005 8-month recruiting goal, shipping 100 
percent of its non-prior service goal and accessessing 107 percent of 
its goal for prior-service marines. Officer accessions, in both the 
active and Reserve components, will also achieve their goals.
    In enlisted contracting for next year, we are slightly behind where 
we had planned to be at the end of May. We have achieved 97 percent of 
our 8-month contracting goal, but we are optimistic we will reach 100 
percent by 1 October 2005. We believe the recruiting ``marketplace'' 
will become even more challenging in fiscal year 2006. Your continued 
support for a strong enlistment bonus and advertising programs will be 
essential to meet this challenge.
Marine Corps Reserve
    The morale and patriotic spirit of the Marine Reserves, their 
families, and their employers remains extraordinarily high. The Marine 
Corps Reserve continues to be fully ready and capable of rapid 
activation and deployment to augment and reinforce the active component 
of the Marine Corps as required. To date over 31,000 Reserve marines 
have served on Active Duty in the global war on terror. Currently, 
approximately 10,000 Reserve marines are on Active Duty with 
approximately 8,500 in cohesive Reserve ground, aviation and combat 
support units and almost 1,500 serving as individual augments in both 
marine and joint commands.
Marine For Life--Injured Support
    Integral to our warrior ethos is our pride in taking care of our 
own. Leveraging the organizational network and strengths of the Marine 
for Life program, we have implemented an Injured Support program to 
assist our wounded marines, our sailors serving with marines, and their 
families. Initial operational capability for this program was achieved 
on 15 June 2005. The Marine Corps is committed to effecting long-term 
measures to advocate for, inform, and guide our wounded and their 
families. Strong command interest is and will continue to be a key 
element of this goal and our programs. Resources available to assist 
include our interactive Web site (www.m4l.usmc.mil). Further, we have 
assigned two officers to the Department of Veterans Affairs' Seamless 
Transition Office to liaison and develop cooperative solutions to 
complex problems between both organizations.
Deployment Support to Warriors
    Deployment support programs and services for marines and their 
families are essential to mission and readiness. From lessons learned, 
we have developed increasingly integrated capabilities that provide a 
continuum of care throughout the deployment cycle. Commanders and 
support service providers team up for maximum visibility and impact to 
ensure all are aware, engaged, and capable of establishing reasonable 
expectations and to successfully sustain the deployment.
    Pre-deployment support involves marines and their families and 
helps them to prepare for the emotional, financial and logistical 
realities of deployment. Briefs are provided that feature information 
on resources to assist them in problem resolution, preventive actions 
to provide for smooth household operation while the Marine is deployed, 
overview of the operational and personal security concerns, and 
information on communication flow to and from the unit.
    To deal with individual and readiness concerns in theater, the 
Marine Corps employs proactive counseling services. We carefully 
observe our marines for signs, symptoms, and risks of untreated combat 
stress and provide ready and accessible resources for counseling or 
treatment as necessary. We have embedded through our Operational Stress 
Control and Readiness Program (OSCAR) mental health professionals at 
battalion aid stations to keep marines with low-level problems at their 
assigned duties and allow those with more severe conditions to 
immediately receive appropriate treatment.
    Before marines depart theater, we have the first scheduled 
decompression period for military chaplains to provide our Warrior 
Transition Brief, which consists of various sessions developed to help 
marines positively transition back into their family life and 
communities. Through our Warrior Reintegration Program we help marines 
return to non-combat environments and home station communities. In this 
phase of support, units conduct a second decompression period and are 
briefed on standards of conduct, safety, alcohol and substance abuse, 
sexual harassment, suicide prevention, stress and anger management, and 
financial management. Our families also receive return and reunion 
information and support to ensure successful homecomings. These are but 
samples of our wide-ranging support of our deployment support continuum 
of care.

                      III. TRAINING AND EDUCATION

    Ensuring our marines are properly trained for the challenges they 
are likely to face is also one of our most important tasks. Deploying 
Marine units rotate through standardized pre-deployment training 
packages. Building on home station training in basic urban skills, 
ground units deploy to the Marine Air Ground Task Force Training Center 
at Twentynine Palms, California, for in-depth training in convoy 
operations, fire support, and small-unit coordinated assaults against 
defended positions, followed by a graduate-level training exercise in 
urban operations, including stability and support operations. In 
addition, ground units scheduled to deploy to Afghanistan train at the 
Marine Corps Mountain Warfare Training Center at Bridgeport, 
California. Here they focus on gaining the skills necessary to operate 
in demanding high-altitude environments similar to what they will 
experience in Afghanistan. Marine Corps aviation units continue to 
participate in standardized pre-deployment training in Yuma, Arizona.
    The Marine Corps continuously incorporates lessons learned from the 
global war on terror into all our training. Our schools are using 
lessons learned to improve pre-deployment and in-theater training. 
Because Improvised Explosive Devices (IED) generate the highest number 
of combat casualties, we have aggressively established robust training 
programs to counter this threat. This training continues through pre-
deployment training and into the theater of operation. The training 
focuses on the integration of tactics, techniques, and procedures as 
well as technologies. Lessons learned are quickly incorporated into 
training packages.
    Recognizing the importance of cultural training as a force 
multiplier, we have established a Center for Advanced Operational 
Culture Learning. This center will focus all of our efforts and ensure 
marines are equipped with the requisite, regional, culture, and 
language expertise to enable them to operate successfully in any region 
of the world.
    Because close combat will never be void of casualties, we place 
great emphasis on adapting changes to our first-aid training to ensure 
that marines can respond to the type of injuries they are most likely 
to face. We have improved our training in this area continually over 
the last few years, and we are now completing final improvements on a 
uniform Combat Life Saver program that will standardize enhanced first-
aid skills of the average marine. This effort has ensured a greater 
density of personnel available to provide advanced life-saving 
techniques to injured marines in the highly dispersed operational 
environment that we face.

      IV. EQUIPMENT AND MATERIEL READINESS STATUS AND INITIATIVES

    Support and sustainment of our forward deployed forces remains our 
number one equipment and materiel readiness priority. Currently, the 
Marine Corps has 27 percent of our operating forces deployed in support 
of the global war on terror utilizing 30 percent of our ground 
equipment and 15 percent of our aviation assets. As the marine 
continues to engage in sustained combat operations, deployed forces in 
the field forces remain fully combat ready. This has not been without 
challenges that we are addressing in both the near and mid-terms to 
ensure that our high state of readiness is preserved. Challenges for 
continual reconstitution of the force to meet current operational 
requirements and contingencies include the accelerated wear on 
equipment due to both the harsh environment and the increased wartime 
demands, combat and other losses, and an overall need for greater 
density of equipment in our all units based on lessons learned.
Readiness Status
    Equipment readiness for deployed forces remains high, with 100 
percent equipment supply readiness and average material readiness of 95 
percent for ground equipment and 76 percent for aviation units. 
However, continued ground combat operations are starting to take a toll 
on equipment availability and unit readiness ratings. The corresponding 
ground equipment readiness rates for units in the United States average 
81 percent. The average readiness rate for aviation units remaining in 
garrison is currently 72 percent. We address our response to this issue 
in the Reconstitution and Ground Equipment Density and Mid-Term 
Readiness paragraphs below.
Theater Readiness Initiatives
    The Marine Corps has initiated several ongoing initiatives to 
improve support to deployed forces and ensure they remain at a high 
level of readiness, including: (1) establishment of a Forward In Stores 
(FIS) equipment pool in theater to reduce customer wait time; (2) 
outsourcing of preventative maintenance to reduce the burden on our 
mechanics and allow them to focus on corrective maintenance; (3) 
creation of a limited aircraft depot maintenance capability; (4) 
establishment of a robust equipment rotation plan; and (5) expanded 
partnering efforts with the Army to leverage capabilities already 
established in theater for maintenance on 25 different weapon systems. 
These actions will reduce the overall logistics footprint and the 
demand on the intra theater lift/distribution requirements.
Reconstitution and Ground Equipment Density
    Over 5,300 major pieces of equipment have been either destroyed or 
degraded to the point that they must be rebuilt resulting in a 
corresponding increase in maintenance work. As example of the effect of 
the harsh desert environment and the increased usage on our equipment, 
HMMWVs which have an estimated useful life of 13 years, need to be 
replaced after 2 years of operating in Iraq. This accelerated wear and 
tear requires increased maintenance actions and greater non-
availability of assets. In addition, the Marine Corps has deployed 
forces to Iraq and Afghanistan with the equipment necessary for the 
warfighter to carry out the mission. This has resulted in expanded 
equipment density lists for these units beyond what they are normally 
equipped and what we had planned and procured for them, particularly 
with respect to communications and electronics gear, motor transport 
support, and crew-served weapons. Consequently, non-deployed units, 
from whom we have filled out our deployed units, are experiencing 
shortages. We have validated that sustained operations over a widely 
dispersed geographic area require more materiel then we had 
anticipated. Based on these lessons learned and a rigorous assessment, 
we intend to equip all of our units with expanded equipment density 
lists, both to train as we intend to fight and to be ready for current 
and future operations.
    We have taken the following actions to sustain operations and 
ensure readiness of our deployed units in theater and those training to 
replace them: (1) we are cross-leveling and redistributing assets 
across the Marine Corps to ensure that all gear is effectively 
allocated, (2) we are employing our war Reserve and pre-positioned 
stocks including those in Norway and aboard our Maritime Prepositioning 
Ships, and (3) we are utilizing assets in our training equipment 
allowances. Through the recently approved fiscal year 2005 supplemental 
funding, we are currently initiating procurement of materiel and stocks 
to reset the force that will also assist in improving the readiness of 
our non-deployed units. We will fully utilize future funding 
initiatives to ensure constant reconstitution of our forces for 
sustained operations and our readiness for future contingencies, 
including expanding the equipment density of all our units based on 
lessons learned.
    Additional critical elements of our near-term readiness efforts in 
meeting operational requirements include:
Armor
    Since the beginning of this conflict and as the threat against our 
forces has evolved, improvements in armor to protect our marines and 
sailors have been an imperative in our readiness efforts. Our goal has 
been, and remains, to provide the best level of protection possible to 
100 percent of in-theater vehicles. Our efforts have evolved through 
various ``generations'' based primarily on lessons learned in theater 
and a more robust and sophisticated technology base at home.
    Vehicle Armor History
    Before I Marine Expeditionary Force (MEF) relieved the 82nd 
Airborne in the Al Anbar province in March 2004, the Marine Corps 
provided first generation armor components for 100 percent of the 
deploying force's 3,049 vehicles within 10 weeks of receipt of tasking. 
This ``Level 3'' armor protection consisted of commercial off-the-shelf 
combination of applique panels, 3/16 ``L'' shaped steel doors, and 
ballistic blankets.
    In response to a thinking, adaptive enemy that increased the 
lethality of Improvised Explosive Devices, we sought a more robust 
armoring solution for our HMMWVs and other tactical vehicles. We began 
fielding of ``zonal'' armor to upgrade all armor kits to a second 
generation consisting of the depot built 3/8 rolled homogeneous 
armor. In all, more than 4,100 vehicles have been equipped with 
upgraded ``Level 2'' 3/8 armored L shaped doors, flanks, underbody, 
tailgates, rear cab plates, ballistic glass, and gunner shields. 
Additionally in a joint effort with the Army, the Marine Corps received 
a Multi-National Corps-Iraq distribution of 200 Add-on Armor kits and 
529 up-armored HMMWV (M1114/M1116) from theater level assets, in 
addition to the 37 export model up-armored HMMWVs received earlier.
    As the threat continued to evolve and change, particularly with 
respect to IEDs, which became increasingly sophisticated and more 
powerful, it became clear that additional improvements to the ``zonal'' 
armor were necessary. For non-M1114 variant HMMWVs, this 3rd generation 
armor consists of integrated kits, known as Marine Armor Kits (MAK). 
The MAK system is a modular, bolt-on system that can be installed by 
marines at the unit level. MAK systems offer significantly improved 
protection against the most prevalent threats. Because the MAK is kit 
armor, it is classified as ``Level 2'' armor, however, it should be 
noted that it provides considerably greater protection than the second 
generation ``zonal'' armor, particularly when improved underbody armor 
is included.
    Vehicle Armor Installation
    Currently, installation of MAK systems on HMMWVs is occurring at 
Camp Al Taqaddum, Iraq. As of 19 June 2005, we have completed 
installation on 699 HMMWVs out of 1695 we have scheduled; the 
requirement will be completed by December 2005. Similarly, for our MTVR 
7-ton trucks, we have developed what is known as the MTVR Armor System 
(MAS). We have commenced the installation process for 900 MTVRs, but 
are not nearly as far along. The MTVR, with its current suite of armor, 
however, is very well suited for the current IED threat. Finally, we 
have just initiated a buy of ballistic glass inserts for use on 
vehicles that have passengers not entirely encased in armor. This 
initiative will also include eventual installation of ballistic glass 
deflective plates for turret gunners that are currently in the design 
and test stage.
    Future Armor Requirements
    The Marine Corps is conducting an expeditionary armored force 
capability needs assessment as well as developing a ground mobility 
integration plan to ensure the future Marine Air-Ground Task Force is 
able to perform mounted armored combat operations across the spectrum 
of military operations. We will continue to assess our armored vehicle 
requirements for those forces in theater and the entire Marine Corps.
IED Countermeasures
    Vehicle armor is only one of the aspects of countering this 
continually evolving, lethal threat; electronic countermeasures are 
another. We cannot address this topic to any degree of depth in an 
unclassified document, but we are constantly looking for innovations 
that will jam, detect, or pre-detonate these devices as they continue 
to evolve. We are also fully integrated into the Joint IED Task Force's 
efforts, and are engaged with them at every level. We are prepared to 
speak in closed session on this topic.
    The Office of Naval Research has established a parallel, but longer 
term effort, titled the ``Manhattan Project,'' into basic research to 
address the challenge presented by IEDs. This effort significantly 
expands understanding into the underlying basic phenomenology involved 
in the ability to detect, defeat, and destroy IEDs at range and speed. 
This includes explosives, triggering devices, and the kill chain 
associated with the IED threat. Long-term basic and applied research 
will be conducted to address the foundations of current and future IED 
problems. The ``Manhattan Project'' provides a sustained multi-
disciplinary investment in basic research. It is a deliberate effort 
that engages the entire academic and scientific research community as 
well.
Extremity Body Armor
    Over the past few months, the Marine Corps Warfighting Lab and 
Systems Command have been working with the Naval Research Lab to 
develop the next generation of body armor. Casualty data and feedback 
from medical personnel show that as much as 70 percent of shrapnel 
wounds are from small fragments traveling at subsonic speeds. We 
believe this information may lead to much lighter body armor. The 
biggest challenge with developing an effective body armor system in a 
desert environment is the heat. We are experimenting with different 
materials that can be worn under the armor that allow for better 
ventilation and cooling.
Cupola Protective Ensemble (CPE)
    In conjunction with the Joint IED Task Force, the Marine Corps is 
conducting an operational assessment of the Cupola Protective Ensemble 
(CPE). This bomb suit is modified for wear by turret gunners, who are 
more exposed to shrapnel and blast from IEDs and require additional 
protection. The suit is worn over the existing OTV and SAPI plates and 
weighs about 40 pounds. It comes with a vest that incorporates cooled 
water pumped through it from a chiller that runs off vehicle power.
Small Business Innovation Research (SBIR) Efforts
    In June 2004, the Navy conducted an out-of-cycle SBIR effort to 
seek innovative solutions from small businesses to address the threats 
presented by IEDs, RPGs, and Rocket/Mortars. The goal of this effort 
was to find ``out-of-the-box'' technologies for rapid development and 
deployment into theater. ONR funded eleven proposals as SBIR Phase I 
efforts. Two of the 11 IED Phase I efforts have been awarded additional 
funds for Phase II efforts. ONR is in the process of conducting 
technical reviews of the remaining efforts for additional Phase II 
funding.
Meeting Urgent Operational Requirements
    A critical factor for both Operations Enduring Freedom and Iraqi 
Freedom in ensuring our marines were as adequately equipped as possible 
is the Urgent Universal Needs Statement (UUNS) process that we 
initiated in 2002. This process has provided a way for the leaders and 
members of our operating forces to identify and forward new 
requirements for weapons and gear up the chain of command for quick 
review and approval--most in less than 90 days. Upon approval by the 
Marine Corps Requirements Oversight Council, the Marine Corps and the 
Department of the Navy have realigned funds as necessary within 
permitted reprogramming thresholds. When required by reprogramming 
authority rules, we have forwarded requests that exceed the established 
reprogramming thresholds to Congress for approval. The sources for 
these internal reprogramming actions have been our investment accounts. 
In many cases, the funding was made available by our decision to accept 
risk and defer the full execution of otherwise approved programs in 
order to address immediate warfighting needs. Through this process we 
have acquired more than 200,000 pieces of essential warfighting 
equipment that have been provided to the operational commanders. Some 
examples are:

        <bullet> Vehicle hardening initiatives and IED Jammers noted in 
        the armor section above.
        <bullet> Numerous types of weapons sights

                <bullet> Advanced Combat Optic Gunsights (ACOG)
                <bullet> Thermal Weapons Sights

        <bullet> Family of Explosive Ordnance Disposal (EOD) equipment 
        including unmanned robotics and blast suits
        <bullet> Unmanned Aerial Vehicles (UAV)--Dragon Eye and Scan 
        Eagle
        <bullet> Hardened Engineer Vehicles--13 Cougar vehicles 
        delivered with 14 pending
        <bullet> Radios: Personal Role Radios, PRC-148, PRC-117F, and 
        Tropo Satellite Support Radios
        <bullet> Unit Operations Centers
        <bullet> Night Vision Devices
        <bullet> Dust abatement chemicals and sprayer systems
        <bullet> Backscatter X-Ray machines
        <bullet> Blue Force Tracker

    As noted, reprogrammings deferred deliveries or delayed the 
execution of other approved procurement programs. Affected Marine Corps 
programs include personal gear and weaponry, vehicles, command and 
control systems, communications, and tactical computers. Marine Corps 
initiatives within the Navy budget affected by reprogramming included 
ships, naval weapons systems, and aircraft replacements/modifications 
that marines man or that directly support us.

                         V. MID-TERM READINESS

    In addition, key acquisition programs will ensure our readiness in 
the mid-term, including:
MV-22 Osprey
    Although event driven, we expect the MV-22 Operational Evaluation 
to finish late summer. The program is scheduled for a Full Rate 
Production decision this September. This aircraft will start to replace 
the 40-year-old CH-46 starting in fiscal year 2007. In addition to 
increasing the safety of air-transported forces, it will significantly 
increase our operational and tactical flexibility and adaptability. We 
thank Congress for its strong support of this critical capability. We 
ask for your continued support to ensure that production is maintained 
at an efficient and cost-effective rate to ensure the standup of MV-22 
squadrons without lapse in readiness and the tactical mobility of our 
forces.
Heavy Lift Replacement (HLR)
    As the MV-22 completes development and begins to be fielded, the 
replacement for our aging CH-53E aircraft is our next aviation 
acquisition priority. The lift capacity of our CH-53E helicopters has 
been diminishing with age, while the cost of maintaining them continues 
to climb. By 2011, we will be forced to start an expensive process of 
inducting our CH-53E helicopters into our depots for major repairs. A 
heavy lift capability is the linchpin for future joint naval 
operations, Seabasing, and expeditionary warfare. The process needs to 
start now if we are to have a suitable replacement and maintain our 
essential heavy lift capability. This replacement will provide required 
capabilities, not resident in any other platform, to insert and sustain 
a credible sea-based force. The HLR will transport 27,000 pounds to 
distances of 110 nautical miles, the equivalent of two armored High 
Mobility Multi-purpose Wheeled Vehicles per sortie or three independent 
sustainment loads. This reliable, cost-effective heavy lift replacement 
for the CH-53E will address critical challenges in maintainability, 
reliability, and affordability found in present-day operations 
supporting the global war on terror.
H-1 (AH-1Z/UH-1Y)
    The H-1 Upgrade Program is a key modernization effort designed to 
resolve existing safety deficiencies and enhance operational 
effectiveness of both the AH-1W and the UH-1N. Additionally, the 
commonality gained between the AH-1Z and UH-1Y (84 percent) will 
significantly reduce life-cycle costs and logistical footprint, while 
increasing the maintainability and deployability of both aircraft. In 
March 2005, the program entered low-rate initial production (LRIP) II. 
Due to aircraft attrition in operations supporting the global war on 
terror, funding was approved for a `build-new' strategy for the UH-1Y 
in April 2005 and is currently being pursued for the AH-1Z, in order to 
prevent inventory shortfalls. Operational test and evaluation is 
planned to begin in October 2005.

                            VIII. CONCLUSION

    In conclusion, let me emphasize that your marines are fully 
dedicated to whatever is required to protect this Nation. We will 
continue to ensure that we are an agile force, adapting and shaping 
ourselves to enhance our capabilities to win the global war on terror 
and respond to the 21st century environment. The Marine Corps fully 
understands that our greatest contribution to the Nation is our high-
level of readiness--across the spectrum of conflict. With your 
continued support, we will ensure that your marines, our equipment, our 
training, and our organization remain ready for any potential 
contingency. Marines and their families greatly appreciate the 
unwavering support of Congress and the solid backing of the American 
people that is critical to maintaining our high level of success.

    Chairman Warner. Thank you, General, and I thank all 
witnesses for their opening comments.
    We will start a 6-minute round of questioning. I am going 
to ask of our uniformed people each the same question, and I 
will ask General Myers to lead off in response to my question. 
I think all of us have in our minds the question what is at the 
root cause of the falloff in recruitment. You pointed out, 
General Hagee, recruiting was a challenge. I think the Chief of 
Staff of the Army was a little more specific. Secretaries Chu 
and Abell addressed it.
    I would like to hear and have on our record exactly what 
the uniformed people believe is the cause for the difficulty 
today that we are encountering, primarily in recruiting and 
secondarily, in other areas where there is a problem with 
retention. General Myers, would you lead off and just 
articulate it?
    General Myers. You bet. I would be pleased to do that, Mr. 
Chairman. In the area of retention, I am not aware that we have 
retention issues anywhere, essentially.
    Chairman Warner. The Guard and Reserve?
    General Myers. In the Reserve components, both Guard and 
Reserve, attrition is the lowest it has ever been, and the 
retention is very high, particularly for those that have been 
called, mobilized, and are in the field today. If you go to 
most Reserve units, the ones that are most disappointed are the 
ones that have not been called to the fight. That is just a 
fact.
    On recruiting, I do not think any of us have the answers. 
My understanding of it is that there is a little more hesitancy 
on the part of those who might recommend a military career, or 
serving some time in the military, from teachers and high 
school counselors, parents, aunts and uncles, probably due to 
what is going on in the world today and the fact that the 
military is on the front line of protecting this country. I 
think we need to work on those issues, as we have talked about. 
Actually a week ago we talked about this as well.
    I think what we need to remember is we are a Nation at war. 
As everybody on this panel, I think, has said, the stakes are 
extremely high. As we have seen every year since the 
declaration of our independence, there have been Americans that 
have come forward to defend that freedom and defend our 
freedoms, and we just need everybody's help to do that. I think 
all the panel members have said that.
    I think the economy probably has some effect. The 
robustness of the U.S. economy has some effect on recruiting as 
well, and with that, I think I will let the other panel members 
speak.
    Chairman Warner. General Schoomaker?
    General Schoomaker. Sir, first of all I agree with what the 
chairman has said. I believe that this generation wants to 
serve, and wants to join. I believe we have a challenge with 
the people that influence this generation--their parents, their 
teachers, their coaches, and others in their community. I 
believe that we require continued call to service by people 
that can influence those influencers about the importance of 
service.
    That is just my opinion. What I would like to do is cite a 
couple facts as they pertain to the Army. First of all, we are 
trying to grow our Army, because you have authorized us to grow 
an additional 30,000. We have set our goals higher. To put it 
in perspective, the United States Army, Active, Guard, and 
Reserve, is recruiting every year more than 165,000 new 
soldiers. That is more than the Air Force, the Navy, and the 
Marine Corps recruit together. Or, said another way, we are 
trying to recruit the entire enlisted force of the United 
States Marine Corps every year, not just what they are 
recruiting, but their entire force. It is a big goal and a big 
challenge.
    I agree with the chairman that, from the Army's 
perspective, it is a fact that we do not have a retention 
problem today. Right now, we are at 106 percent of our goal in 
the Active Force, 104 percent of our goal in the U.S. Army 
Reserve, and 104 percent of our goal in the Army National Guard 
in terms of retention. I think this is an indicator that those 
who have joined the Army find an institution with values, where 
they can trust the people on their right and left, where they 
are involved in something bigger than themselves, and where 
they find value in service.
    We do not have a division or organization in our Army today 
that is not making its retention goal, and I think that says a 
lot.
    The other fact that I will tell you: If you take a look at 
the demographics of our population, 17 to 24 years old, we are 
all competing with industry and everybody else for about 30 
percent of the males between 17 and 24. That is about the 
number who are eligible to meet the quality standards of our 
Armed Forces. That says something about our education system. 
It has to do with other areas of values that you can apply.
    I think we have work to do, and that is why I say this is 
just not the Armed Forces' challenge. This is the Nation's 
challenge, to provide this force.
    The last thing I will say: As you well know, those of us up 
here are old enough to have served in a time when this force 
was broken. That was in the early 1970s. We know what a broken 
force looks like, and this force is not broken. This force is 
the best force in my 36 years that I can ever remember. It 
certainly is better than in my father's 32 years of service in 
the Army, so I just stand on that.
    Chairman Warner. I share that view, General. I remember so 
well when you and I first met in the context of your being 
appointed and preparing for the advise and consent procedure of 
the Senate. You recounted your early years right there in the 
closing period of Vietnam and the struggles that we had with 
that force, which was largely a draft-produced force. I 
remember vividly your stories that you told me. You do have a 
corporate memory and a history that reaches well back into the 
draft era and into the All-Volunteer Force, and I respect 
greatly your views.
    General Hagee.
    General Hagee. Sir, I would like to align myself with the 
chairman and the Chief of Staff of the Army and say just a 
couple of words about the Marine Corps. Like the Army, our 
retention is very high. Not only is our retention high, but, as 
I mentioned in my opening statement, the quality of individual 
marine that we are retaining is higher than it was, higher than 
it has been, over the last couple of years. We are retaining 
families, marines who are married with families, at a higher 
rate, which all indicates to me that these marines feel very 
confident in what they are doing, how they are trained, how 
they are led, and the quality of life that we, including this 
committee, have been able to provide to them.
    As far as recruiting is concerned, I would like to add one 
other factor that I think is out there besides the influencers. 
We have noticed the same thing. A recruiter today spends about 
12 hours for each individual recruited. Before September 11, 
they were spending about 4 hours for each individual recruited, 
and that increase is from primarily talking with the 
influencers today.
    Even before September 11, the propensity for individuals to 
join the Armed Forces was headed down. I think that is 
primarily because parents, even grandparents today, are not 
that familiar with the Armed Forces. In many cases, young 
Americans do not even consider joining the armed services. It 
is really up to us, all of us, to talk about the ideal of 
service and the necessity to join the Armed Forces.
    Chairman Warner. Thank you, General. I want to quickly get 
in--yes, General Myers; you wished to make an additional point?
    General Myers. Yes, one quick anecdote. We talk about 
recruiting, and we are primarily talking, of course, about 
enlisted recruiting. I think that's what we normally have our 
statistics for. I had the privilege of being at West Point for 
the graduation ceremony this year and, like all academies, the 
classes that graduated this year are the September 11 classes. 
They came in before September 11. It happened a few months 
after they arrived, and then this Nation went to war. They have 
been at school while we are at war, and they have been reminded 
from time to time that some of their classmates have been 
wounded or lost their lives in this conflict.
    Yet they stayed, and they graduated. As you shake their 
hands as they come across the stage, 911 of them at West Point 
this year, what great men and women. If I were just to tag onto 
General Schoomaker's remarks, if you want to join an 
organization that is well led by those people we saw walk 
across that stage at West Point--and the same thing happened at 
Annapolis and the same thing happened at Colorado Springs--this 
is a well-led organization. When I say well-led, I am talking 
about people who actually do the leading in the field. It is 
well led. They are motivated. There is not a better profession 
or a more respected profession or a more noble cause.
    Chairman Warner. I thank you, General.
    I want to finish my time with this question to Dr. Chu and 
Mr. Abell. The uniformed side has identified, the word that the 
Commandant used, the ``influencers.'' The Chief of Staff of the 
Army said, it is that traditional infrastructure, the family, 
the counselors at high school and so forth. Therein rests the 
problem with regard to recruiting.
    What specifically are you planning to aim at that group to 
try and regain once again their confidence, so that confidence 
can be transmitted to that young person that they are working 
with? Dr. Chu?
    Dr. Chu. Thank you, Mr. Chairman. As General Hagee said, we 
have noticed this as a trend for some time. It antedates 
September 11. We have been working hard to explain through 
various media, including advertising, to influencers the value 
of military service. You may have seen some of these vignettes 
that are very compelling. They show parents, coaches, teachers, 
case histories, life stories of individuals who have chosen a 
period of military service, whether that is brief, or whether 
that is Active or Reserve, and their later civilian careers and 
how those civil careers have benefited from the period of 
military service.
    We think this is a very important message to give to the 
parents and the teachers and advisers of America: Your young 
person is going to return with stronger values, better 
preparation for life, after this period of military service, 
whether it is 3 years or 30 years.
    Our challenge is to get that word out and to make that case 
to the Nation's parents so they see this as a positive and 
attractive choice for the young people. As Mr. Abell said, I 
think we can sometimes be too much tuned to today's news story, 
not to the larger picture here.
    Chairman Warner. Thank you.
    Secretary Abell.
    Mr. Abell. Yes, sir. This is part of the challenge that we 
face that is really sort of less tangible. We have to get to 
these influencers and have them understand the nobility and the 
true nature of the service and the organizations that their 
young men and women will join. Like the President's speech the 
other night, in which he appealed to the American people. We 
need those kinds of things. We need you and your colleagues to 
appeal to the American people and have them understand that 
service is a good thing, and the benefits of it, and that the 
young men and women who do serve if they do not decide to stay 
with us, return to their communities better citizens than when 
they joined us.
    We looked at the Reserve Officers' Training Corps (ROTC) 
graduations this year and tried to make sure that we had 
influential speakers at those graduation ceremonies, again, to 
inspire the newly commissioned officers, but also to talk to 
the communities--they are on the college campuses, of course--
so that the graduation ceremony, the commissioning ceremony, 
the address was not delivered by the lieutenant colonel or 
colonel who had been their teacher and mentor for 4 years, but 
by someone who had just come from the fields of Afghanistan or 
Iraq and could talk to them about what they saw and what they 
experienced.
    Chairman Warner. Mr. Secretary, I am running over my time.
    Mr. Abell. Okay, sir.
    Chairman Warner. I thank you, and hopefully in the course 
of the dialogue you can finish up.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    General Schoomaker, in your testimony you indicated that 
one of the causes for the recruiting shortfalls that we have in 
the Army, despite extraordinary efforts, has been, I think in 
your words, the ``war-induced strain'' on our families and on 
our troops. Can you expand on that?
    General Schoomaker. I was trying to recognize two things. 
First of all, the fact that there is a strain because of the 
extraordinary pressures as a result of war, because war is a 
traumatic experience not only for those that are on the 
battlefield, but also for the families that are left behind, 
with the stresses and strains and worries and anxieties that 
exist and with the absence of that family member from normal 
life, from the children that are going to school, and from the 
spouse that is left behind to deal with all of the pressures 
that exist.
    Many a family has experienced it many times, and I have 
experienced it as a child with my father in World War II, 
Korea, and Vietnam, my senior year in high school with my 
father in Vietnam. This is a reality of military service--which 
by the way--there are other professions that also have these 
kinds of separations, but they do not have the pressures of the 
unknown and the dangers that exist when we are at war.
    That is primarily what I was talking about. I also was 
saying, though, that the Army is not the only one bearing this 
burden. We have other services that are bearing the burden. We 
have other aspects of government and civil society that are 
bearing the burdens of this war.
    Senator Levin. Thank you.
    We learned this morning that the Active-Duty Army exceeded 
its June recruiting goal by more than 500 enlistees, and that 
is good news. The Army recently began accepting more non-high 
school graduates and more recruits scoring in category IV on 
the standardized aptitude tests. Was there a larger percentage 
of non-high school graduates as a percentage in the June 
recruiting class than there was in previous ones?
    General Schoomaker. Sir, I do not know, and I will have to 
give you the specific answer for the record. But I would like 
to make clear that the DOD standard for recruiting is that less 
than 4 percent of the total can be in the lowest acceptable 
aptitude category. Greater than 60 percent have to be in the 
upper category and greater than 90 percent have to be high 
school graduates.
    We are far exceeding--our standard right now--our 
attainment right now is greater than 73 percent against that 60 
percent goal.
    [The information referred to follows:]

    During the month of June, the Army accessed 10.9 percent of its 
year-to-date non-prior service soldiers who were non-high school 
diploma graduates or 1.4 percent of the total year-to-date non-prior 
service accessions. These soldiers have a General Education Development 
(GED) certificate and are considered high school graduates. There was 
no ``surge'' in June for non-high school diploma accessions. Quality 
marks are an annual requirement and we continue to maintain the highest 
quality of soldiers possible.

    Senator Levin. There was a change, was there not, in terms 
of a larger percentage within that range of non-high school 
graduates being accepted?
    General Schoomaker. I will have to give you the answer for 
this month.
    Senator Levin. No, not for the month.
    General Schoomaker. But I must remind you that it is 
measured against an annual goal.
    Senator Levin. Right, I understand.
    General Schoomaker. So there may be months where you have a 
change in percentage, but we are not going to exceed it in 
terms of the year. I believe, quite frankly, that we have not 
broken any of those.
    Senator Levin. No, I am confident of that. I am sure you 
are still within the range. My question was, was there a change 
recently where you were accepting more non-high school 
graduates?
    General Schoomaker. We have not changed the standard.
    Senator Levin. Not the standard, but in terms of the 
percentage that had been accepted.
    General Schoomaker. I will have to give you that for the 
record.
    Senator Levin. All right.
    [The information referred to follows:]

    See response above.

    General Schoomaker, the press reports indicate that the 
Army is considering some unique recruiting incentives tailored 
to the current recruiting environment. Can you tell us what 
kind of new recruiting incentives that the Army is considering?
    General Schoomaker. We have asked for a variety of changes 
in authorization caps, for instance, in enlistment bonuses. We 
have raised the education dollar limits. We have targeted 
retention goals. We have some ideas in terms of home mortgage 
incentives for people, and for education incentives.
    Dr. Chu, I will have to defer to you.
    Senator Levin. Just briefly, if you would, do some of these 
proposals require legislative authorization?
    General Schoomaker. I believe they do.
    Senator Levin. Which ones would require legislative 
authorization? Just give us an example?
    General Schoomaker. Raising the cap for an enlistment 
bonus. I think we are capped now at $20,000.
    Dr. Chu. Yes, sir. The current cap on the enlistment bonus 
is $20,000. The House bill has raised it to $30,000. Some have 
talked about a higher number, which obviously would have its 
attractions.
    Senator Levin. We are already considering those. I am 
talking about new ones other than the ones already under 
consideration.
    General Schoomaker. The Secretary of the Army has a 
proposal that is up for consideration at the DOD on a home 
mortgage incentive, as an example.
    Senator Levin. We have increased the Army's and the 
Marines' end strength. Is it likely that we are going to be 
able to meet those new end strengths that we have authorized? I 
look to both of you, General Schoomaker first. The Army's new 
authorized end strength is 512,000. We have approved an 
increase to 522,000. Is it likely we will be able to meet that, 
given recruiting challenges?
    General Schoomaker. I do not believe you have approved 
522,000 yet. I think we have 502,000 for this year, 512,000 by 
next year, and then we have actually until 2009 for the 
additional increase.
    Senator Levin. Let us take the 512,000. Is it likely we can 
meet the 512,000?
    General Schoomaker. We have to meet these recruiting goals.
    Senator Levin. My time is up. I have one last question that 
has to do with retention issues and the high level of 
deployments we have seen--in the Army, sometimes two and three 
times soldiers being deployed, and some marines have completed 
their third combat tour in the last 4 years. In both the Army 
and Marine Corps, can we sustain the current OPTEMPO and still 
not have a problem in terms of reenlistments? Just give a quick 
answer. In your judgment does that threaten our good 
reenlistment numbers?
    General Schoomaker. The quick answer is from the Army's 
perspective, we have had one unit that we have turned around 
quickly with just less than a year to return to Iraq. So to the 
best of my knowledge we do not have one flag--I am talking 
about a unit now--that we have turned around for a third time.
    We now have two units for sure that we have turned around 
for their second tour, Third Infantry Division, Third Armored 
Cavalry Regiment. We have some, like the 82nd in small 
portions, that we have used for short periods of time in and 
out, during the elections for instance.
    Senator Levin. Do you see any challenge to reenlistments 
based on these high levels of deployments?
    General Schoomaker. Of course, over time that would be an 
increased challenge. That's why we came to you and why our 
transformation is so important, in order to increase the number 
of deployable units, because that is what increases the dwell 
time. We now are averaging almost 20 months dwell. That is only 
4 months short of our goal of 2 years dwell between 
deployments.
    Senator Levin. Okay, thank you.
    General Hagee, do you have a quick answer?
    General Hagee. In the short term, no, sir. In the mid-term, 
we could, and that is why we are working so aggressively to 
bring that turnaround time down.
    Senator Levin. Thank you all.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and I thank the 
witnesses. I share their view wholeheartedly about the 
outstanding quality and patriotism and work that the men and 
women in our military are performing and the pride that we all 
feel in them.
    Just as an aside, General Myers, you brought up these 
wonderful young men and women who just graduated from West 
Point in 2005. Do you know that applications for the service 
academies are down, to all three service academies, rather 
significantly?
    Dr. Chu. If I could address that, Senator.
    Senator McCain. I asked General Myers since he brought up 
the subject of West Point.
    General Myers. The only one I knew about was based on a 
comment I got from the Superintendent of West Point, but I 
thought he said that the applications remained very strong, 
higher than the year before.
    Senator McCain. You might check into it. The applications 
are down.
    I am sure that many of you, particularly General Hagee and 
General Schoomaker, know General Barry McCaffrey, who just 
returned from an extended trip to Iraq, where he received 
logistics and other assistance from DOD. I was very gratified 
by his overall assessment of the progress of the war and 
comforted to some degree, because he and others I have talked 
to have said, as he said, ``I believe President Bush showed 
great political and moral courage knocking down the sanctuaries 
of both Afghanistan and Iraq. Now we have the right forces in 
Iraq, superb leadership, growing traction of the ISF, a 
developing Iraqi-led political strategy, and an Iraqi economy 
that is struggling off its knees. I think that is all very good 
news.''
    He also says: ``We are also in a race against time. The 
U.S. Army and Marines are too undermanned and underresourced to 
sustain this security policy beyond next fall. They are 
starting to unravel. Congress is in denial and must act. In 
addition, the American people are losing faith in the 
statements of our Defense Department leadership. Support for 
the war is plummeting along with Active-Duty and National Guard 
recruiting.''
    General Hagee, do you disagree with General McCaffrey's 
assessment, ``The U.S. Army and Marines are too undermanned and 
too underresourced to sustain this security policy beyond next 
fall''?
    General Hagee. I strongly disagree that the--and I can only 
address the marines there in the Al-Anbar Province--that they 
are starting to unravel. I would say that in fact it is just 
the other way. When I go over there and I talk with those 
marines, they are very confident that they are accomplishing 
the mission.
    Senator McCain. That is not what he said, General Hagee. I 
will quote it again, and I commend this article for your 
reading. He said they are ``undermanned and underresourced to 
sustain this security policy beyond next fall,'' referring to 
the rotations and the strain on the military resources we have. 
He was specifically speaking of the Army and Marine Corps.
    Do you have sufficient forces indefinitely to maintain the 
kind of rotation with the size force you have?
    General Hagee. We have sufficient forces to go through next 
fall. I am not sure I would say indefinitely at this current 
OPSTEMPO, sir, but talking with the commander on the ground, 
which I did just this morning, he is very satisfied with the 
forces and the equipment that he has on the ground today.
    Senator McCain. Thank you. So there are no problems really?
    General Hagee. Sir, there are always challenges when we are 
at war, but as far as the number of troops and the equipment 
they have, he is satisfied with what he has today.
    Senator McCain. Then why is it, General, that after going 
into Fallujah in one of the toughest battles that the marines 
have ever fought, that now we are fighting again in Fallujah?
    General Hagee. Sir, we are not fighting in Fallujah the way 
we did.
    Senator McCain. No, we are not, but they are back there, 
and they are inflicting casualties on American forces, and we 
see a renewal of conflict there. My point is that we go in and 
we do a magnificent job, then we have to withdraw because there 
are responsibilities and challenges in other parts of Iraq, 
which goes back to the fundamental disagreement that many of us 
have about the ability to win and hold and expand, rather than 
strike, win, and leave. We are sustaining casualties in 
Fallujah as we speak.
    General Hagee. Sir, we are--true. We are fighting an 
insurgency, an adaptive enemy, it is not a squad versus squad, 
or a platoon versus platoon. There are marines, soldiers, and 
Iraqi security forces in Fallujah taking on that insurgency.
    Having visited Fallujah before the battle last November, 
and having visited it twice since, I can tell you that the 
security situation there is much better than it was in October 
and is constantly improving. Also, the economy is starting to 
grow there. The people who are living in Fallujah are starting 
to give us intelligence and information, because they do not 
want the insurgents to come back.
    Senator McCain. Dr. Chu, there are many of us that are very 
concerned about retention and recruiting, and I think again 
that we are hearing from too many people in the field, from too 
many recruiters, from too many people who are telling me that 
they are not staying because of the overstress on themselves 
and their families.
    We need input as to what Congress can do to provide further 
incentives for recruitment and retention both. The Department 
of Defense authorization bill will be on the floor within a 
couple of weeks. We would like to have some specific 
recommendations, or I would like to have some specific 
recommendations, between now and when the bill goes to the 
floor.
    If we have received enough recommendations to provide 
incentives and all of the options we are considering, home 
mortgages, whatever it is, and we do not need to do it, that is 
fine, then do not submit it. If you think we do, we would like 
to have some guidance from the DOD as to how we can best ensure 
that we retain and recruit the highest quality men and women.
    Do you have any specific proposals that you would be 
willing to send over in the next couple of weeks for us?
    Dr. Chu. I would be delighted to, sir. Let me take this 
opportunity----
    Senator McCain. I cannot hear you very well.
    Dr. Chu. Sorry. I would be delighted to, sir. Let me take 
this opportunity to reiterate our support for several things 
already on the table: a higher enlistment bonus, per the House 
mark, or perhaps even greater; second, which I believe you are 
acting on favorably, a critical skills retention bonus for the 
Reserves, which we do not have today; third, which I know you 
are supporting, an affiliation bonus when someone leaves Active 
service, to give them an incentive, which really does not exist 
in any meaningful way today, to consider joining a selected 
Reserve unit. Those are three very important changes that we 
would like to see.
    Fourth, an increase in the ceiling on hardship duty pay, 
which is in the President's original request. Fifth, as is in 
the House mark, a notion the Army has pioneered, which is used 
extensively in civil life, that when you refer successfully a 
candidate for service that you get some kind of modest reward. 
It is recognition as much as anything else, but there is also 
something tangible in there.
    We would be glad to submit that for you, sir, and add those 
things that have, as you implied with your question, come up 
since our original request.
    Senator McCain. Thank you, sir. I think it would be very 
helpful to us and I would be--I cannot ever speak for all of my 
colleagues, but I know I can reflect the sentiment of my 
colleagues. We would be eager to do whatever is necessary and 
it would be helpful to us to have your specific 
recommendations.
    I thank you, Mr. Chairman.
    General Schoomaker. Mr. Chairman, could I add? Sorry to 
interrupt. Could I add to that--first of all, you have been 
very helpful in the kinds of things that Dr. Chu has talked 
about in the past. I tried to make the point earlier, I think 
that it is very important that you and your colleagues use your 
considerable influence to explain to the American people and to 
those that are influencers out there how important it is for 
our young people to serve this Nation at a time like this.
    I know you have been doing that, and I would just encourage 
you to continue to help lead our people in that direction.
    Senator McCain. Some of us do that every day, General. 
Thank you very much. Thank you for the encouragement, and I was 
very pleased at the President's emphasis on that in his speech 
at Fort Bragg.
    Thank you, Mr. Chairman.
    Chairman Warner. I simply say that I have been privileged 
to know this fine Senator for many, many years, prior to and 
during his service in the Navy, and he has at every opportunity 
done precisely what you recommend. He is too modest to 
recognize it.
    Dr. Chu, have you had adequate time to respond to all the 
questions that have been asked here recently? I saw one time 
you wanted to add something?
    Dr. Chu. Yes, sir, thank you. I did want to add something 
on this issue of applications to the academies. What we had, 
sir, was a surge post-September 11, and a return to pre-
September 11 levels. There was no change, interestingly enough, 
in the number of applicants that the academy superintendents 
would call qualified. Now, that is a mix of several factors.
    I am pleased, again consistent with what General Myers 
reported, that there remains a strong desire of Americans, 
young Americans, to serve, and that continues in terms of 
applications to the academies.
    Chairman Warner. In follow-up on Senator McCain's request, 
it is important that your staff, and majority and minority 
staff of the committee, quickly determine whether our bill as 
it is going to be proposed on the floor has in it now, or would 
have by virtue of amendments, those matters that you have 
raised today and that we will continue to discuss here. We need 
to do that very promptly.
    Dr. Chu. Thank you, sir. We look forward to it.
    Chairman Warner. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. First let me welcome 
the young soldiers that are here, and thank them for their 
service and their sacrifice on behalf of the country and the 
Army. Thank you very much.
    General Schoomaker, what is your recruiting goal for next 
month?
    General Schoomaker. Can I give it to you for the record? I 
do not know it off the top of my head.
    [The information referred to follows:]

    In terms of achieving the annual recruiting goal of 80,000 
accessions, the Army would have to access 32,879 soldiers as of the end 
of June 2005.

    Senator Reed. Fine, sir.
    I guess, doing the math, though, it would be considerably 
larger than the recruiting goal you had this month, since, I 
think, to meet your annual goal you have to recruit about 
11,000 inductees a month from now until the end of the fiscal 
year.
    General Schoomaker. You are correct. The trend has to go 
up. We have to make up for what we failed to access during the 
spring. First of all, I think you know that this is seasonal 
and that the spring time frame has always been difficult. We 
did not meet the goals that we set in the spring, even though 
those goals were set lower than they would be set during the 
summer period. We will have to elevate our goals, and that is 
why I am not quite sure exactly.
    Chairman Warner. Let us take a moment, Senator. I think it 
is important. That answer must be here in the room. Have you 
got it now to his first question?
    General Schoomaker. The June goal was 7,450 Active-Duty.
    Senator Reed. What will be the July goal?
    General Schoomaker. What will the July goal be?
    I am sorry, this is the July goal, 7,450.
    Senator Reed. My rough math is even if you recruit 7,000 
soldiers, you will still be short since--and I might be wrong--
you need to recruit about 11,000 soldiers a month for the next 
3 months until the end of the fiscal year.
    General Schoomaker. This is Active. We have July, August, 
and September left in the year.
    Senator Reed. Let me ask it another way. How many soldiers 
do you need to recruit before the end of this year to meet your 
yearly goal?
    General Schoomaker. Let me give the specific numbers to you 
for the record.
    [The information referred to follows:]

    In terms of achieving the annual recruiting goal of 80,000 
accessions, the Army would have to access 32,879 soldiers as of the end 
of June 2005.

    Senator Reed. I appreciate that, sir.
    General Schoomaker. We are at about 84 percent of our goal 
right now.
    Senator Reed. Let me echo the chairman's, I think, 
instruction, which is that if we could get those numbers today 
or tomorrow it would be very useful.
    General Schoomaker. I will get them to you before the end 
of the hearing.
    Senator Reed. Thank you very much, sir. Thank you.
    Let me ask you another question, General Schoomaker. Just 
so I am accurate, how many brigades do you have in Iraq today, 
Active and Reserve component?
    General Schoomaker. A total of 17 brigades, 2 of which are 
Marine Corps, the remainder are Army.
    Senator Reed. I will just concentrate on the Army. You have 
15 Army brigades?
    General Schoomaker. That is correct, seven of which are 
National Guard.
    Senator Reed. Fifteen brigades. How many brigades have you 
designated for the next rotation?
    General Schoomaker. We are planning the same number.
    Senator Reed. Fifteen. That leaves how many brigades in 
your force, both Reserve and National Guard?
    General Schoomaker. The Guard brigades will be down. I 
think we are going down to two or three Guard brigades in the 
next rotation.
    Senator Reed. What I am trying to get at is, you have a 
certain number of brigades in country, you have a certain 
number of brigades that have been designated to go in country?
    General Schoomaker. Correct.
    Senator Reed. Then you have a remaining group of brigades 
that are scattered throughout the United States. How many 
brigades are those, roughly?
    General Schoomaker. We have 15 in there--there is not a 
clean break between this. It is a constant flow of brigades. So 
we are planning for the next, for subsequent rotations, exactly 
what we have in there today.
    Senator Reed. No, I understand that, sir.
    General Schoomaker. The dwell time between those brigades 
is roughly 19, 20 months. We have sufficient brigades to 
continue to do this.
    Senator Reed. I am just trying to get a handle--let me cut 
to the chase. Of those brigades that are not in Iraq, that are 
not scheduled to go to Iraq and training up for it, the 
remaining brigades, what is their readiness status in 
personnel, equipment, and training?
    General Schoomaker. I will have to give that to you for the 
record, because it is very complex, and it is different, and 
especially since we are transforming and changing the brigades 
that we have brought out into the Army modular force.
    [The information referred to follows:]

    The information to answer the question is sensitive in nature and 
can best be answered using the Army Force Generation (ARFORGEN) Model. 
The remaining brigades are in the reset/train phase. In order to meet 
the demands of the strategic context, the Army has implemented a new 
ARFORGEN Model. The ARFORGEN provides a structured progression of 
increased unit readiness over time resulting in recurring periods of 
availability of trained, ready, and cohesive units prepared for 
operational deployment in support of regional combatant commanders and 
civil authorities. Army units will be placed into one of three force 
pools as they progress through the ARFORGEN Operational Readiness 
Cycles. Units will progress through the Reset/Train, and Ready force 
pools, culminating in full mission readiness and availability to 
deploy. Units returning from deployment and in the reset/train phase 
will be considered unavailable for major combat operations in order to 
recover equipment, and receive and stabilize new personnel. All units 
will be prepared to conduct unit training and missions appropriate to 
their respective force pools.

    Senator Reed. I understand that modularization is going on, 
but there are repeated reports that units that are here, not 
getting ready to go to Iraq, are short of personnel, 
significantly short of equipment, and, because of the shortage 
of equipment, are not actively training as effectively as they 
could because they do not have the equipment. As a result, 
their readiness status is something below what we have seen 
over the last----
    General Schoomaker. I think in some cases that is a true 
statement. I think the units that we are breaking apart and 
resetting are not ready, and we knew that, and we planned for 
that, and that is exactly what we are doing. Others are more 
ready.
    Senator Reed. What percentage of this residual force 
constitutes those unready brigades? I am trying to get a feel 
for what our strategic reserve is really.
    General Schoomaker. I will have to give you the detail for 
the record, and I think it probably would also be better if we 
did not do it in open session.
    Senator Reed. I understand that, but I think one of the 
problems we face is that we have people come up and say there 
are no real problems, and then when we try to press for the 
real numbers and the real readiness status, we do run into 
issues.
    General Schoomaker. I do not think anybody is telling you 
there are no real problems. I am certainly not telling you 
there are no real problems. I think we have enormous 
challenges, and we are transforming an Army in the middle of a 
fight, a sustained fight. My belief is we are doing it quite 
well. My belief is we are building an Army for the future that 
is the kind of Army we are going to need for the future, and I 
do not know how to get from here to there without going through 
the ugliness that is required to make the transformation.
    Senator Reed. I think you are right in terms of the 
transformation, but I think we have to get a sense of the 
readiness of the forces overall, the readiness of the Reserve 
Forces, because frankly all of us have been told or have read 
where, particularly with the Reserve component, that these 
forces are breaking down because they do not have equipment, 
they do not have all their personnel, and the training is being 
affected.
    I know this is a transformation process, but I think we 
have to have that sense.
    General Schoomaker. Senator Reed, we will come and lay out 
everything, and I know you know that we have done this. In all 
fairness, we have been in constant dialogue, not only with 
members of this committee, but with both houses, any time that 
we have been asked to lay out everything that we need to lay 
out, and we will be glad to do it again.
    It is a moving shot group. You are right, there is a 
considerable amount of ugliness in here. We understood that. We 
planned it, and we have to do it, but I might remind you that 
we started this with the force that we came through the 1990s 
with. We started with the force that already had a considerable 
amount of hollowness in it. We started with a force that had 
less than 500 up-armored HMMWVs in it in the entire United 
States Army before this whole thing started. We are now at over 
38,000 up-armored vehicles, as an example.
    We started with a force that was short body armor, and if 
we had gone on the programmatic schedule that was there it 
would have taken us 49 years to equip the Army with body armor. 
We were short on crew-served weapons, night vision goggles, 
almost everything that you can imagine. It has everything to do 
with drawing down a force and taking a multi-billion dollar, 
almost a $100 billion, procurement holiday in the decade of the 
1990s.
    We are not only digging our way out of a hole from that, 
but we are also transforming to a force that is 30 percent 
larger and about 60 percent more ready.
    Senator Reed. Does not something have to do with our 
operations in Iraq? Frankly, the Army went into Iraq with a lot 
of up-armored HMMWVs and for months there was no change.
    General Schoomaker. We went into Iraq with less than 500.
    Senator Reed. That is right. If we were not in Iraq, we 
would probably have less than 500 up-armored HMMWVs, because 
the need would not have arisen.
    General Schoomaker. If your point is that the war has 
helped us transform more rapidly, you are correct, because 
Congress has provided resources we did not have before to 
transform.
    Senator Reed. I think my point, General, is that you have 
suggested that you inherited an Army that was in very bad 
shape, and you are trying to get it better. One of the major 
reasons why you have to acquire new up-armored HMMWVs and body 
armor, is because we have actively engaged in combat in Iraq, 
and frankly, the first impression of the Army was that this 
HMMWV problem was not a big problem, I will tell you that.
    General Schoomaker. We had an Army--and I would like to 
restate what you just said. I inherited an Army that was 
designed to do something different than we are doing today. It 
was designed for the Cold War kind of conflict. It was designed 
to be filled out once the--we took risks, because everybody 
thought there was going to be time----
    Senator Reed. General, you used the term ``the hollow 
Army'' before you took charge.
    General Schoomaker. It was certainly more hollow than it is 
today.
    Senator Reed. General, you are switching from a hollow Army 
to a Cold War Army to everything else. What I asked simply was 
to tell me how ready your Army is for contingencies other than 
what we are in.
    General Schoomaker. Our Army is much readier than it was. 
There is considerable turbulence in it because we are 
transforming it. I will tell you, we have a combat-experienced 
Army, and we have an Army that is rapidly, every day becoming 
more capable to do what we are going to have to do for the 21st 
century. I know no way to pole-vault over all of this that we 
have to do to get there.
    Senator Reed. General, I look forward to your specifics 
about the readiness of the forces that you have.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    General Myers. Mr. Chairman, just to answer Senator Reed. 
One part of that question, which is on readiness. Title 10 
requires the Chairman to submit a strategic risk assessment 
every year, and that was submitted, I think in April, to 
Congress. I might be off on the month, but it was submitted. It 
contains a lot of that information. I assume you have read 
that. It is classified, of course. It was a product of the 
Joint Chiefs of Staff. It is the Chairman's assessment. Of 
course, you rely on the Service Chiefs for their input, and the 
combatant commands, for that matter.
    That goes a long way to explaining what we can do, and it 
is the backdrop and the foundation for the statements I make 
about our readiness to take on other challenges. If you want to 
break it down by Service in more detail, you would have to go 
to the Army to do that.
    Senator Reed. Mr. Chairman, if I may.
    I understand from the public reports of your report that 
for the first time--and you have issued the reports over the 
last several years--you indicated some concern about our 
ability to respond in a timely fashion. If that is correct, 
then how do you square it with General Schoomaker's remarks 
that the forces are better now than they were several years 
ago?
    Chairman Warner. Let me say, Senator, it is an important 
question, and I would like to have the Chief respond to it for 
the record. We have quite a few members waiting for their 
question period.
    Senator Roberts. You're not kidding?
    Chairman Warner. Thank you for the echo chamber. Anyway, 
Senator Inhofe, we are doing the best we can here to operate a 
hearing.
    General Myers. I will do that, Mr. Chairman.
    [The information referred to follows:]

    The report referred to by Senator Reed is the 2005 Chairman's Risk 
Assessment Report, provided in accordance with title 10, United States 
Code, section 153(b). This report provides the CJCS assessment of the 
military and strategic risks associated with executing missions called 
for under the current National Military Strategy over the next 12 
months. The report addresses several issues with respect to response 
timelines.
    [Deleted.]

    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    General Schoomaker, following along this transformation 
thing, we have been living through this. I think when Senator 
Akaka and I started the Army Caucus that was our main thrust 
and the thing that we talked about. You and I have talked about 
it, and General Shinseki. It goes back to two of your 
predecessors.
    The Army is trying to modularize, modernize, recapitalize, 
reorganize, and all of this, at the same time we are in the 
middle of prosecuting a war. I have a concern that as we focus 
on our current force, we lose focus on the future. The Army has 
already cancelled over 29 systems in the last 4 or 5 years, 
leaving them with only one major system for the future, the 
Future Combat System (FCS). We are all very excited about the 
FCS. We want to see it coming. We know it is lighter and 
faster. We know it meets the needs as we think they are going 
to be needed in the future.
    But what is your level of confidence right now in the 
Army's ability to deliver the FCS and the set of manned ground 
vehicles on schedule and to put us and the Army in a position 
to be able to handle these contingencies as they come up?
    General Schoomaker. Senator, you are exactly right. This is 
our future. The FCS of the Army is not just one system; it is a 
system of systems, and it is very complex and technologically 
advanced.
    I have a high degree of confidence that if we can stay on 
the current plan that we will be able to bring FCS in as we 
need to. I am concerned that there may be language in the 
authorization bill that would move our manned ground systems 
and other things back into science and technology (S&T). If 
that occurs we will not be able to afford FCS nor will we be 
able to complete it, because we are modernizing our force and 
transforming it with the spinouts from FCS into the current 
force.
    I think we have to keep it on track as we have restructured 
it, both from the standpoint of the way I reprogrammed and 
restructured it last year and the way the Secretary of the Army 
has taken the business side of it and worked the contractual 
side. If we can do that, I have a high degree of confidence.
    Senator Inhofe. Those comments will come in handy as we go 
through our reauthorization process. I agree, that we have to 
stay on schedule. We would have never guessed 10 years ago what 
our needs would be today, but we have a pretty good idea where 
we are going and I think there is general agreement. I worry 
that we are going to slide on this thing, so I appreciate your 
comments.
    Let me, while we are talking, compliment you on your 
courage to admit that we started off with a real serious 
problem after the 1990s. There were two problems in the 1990s. 
One was the deterioration in the military. The other was what 
happened to our modernization program. I remember when General 
Jumper, back in 1997, 1998, stood up and said: ``Now, our 
potential enemies have a better strike vehicle than our F-15 or 
F-16,'' talking about the Su-30s that are being sold, were 
being sold at that time, to China and other countries.
    I am glad that you are stating that this came along at a 
time when there was hollowness in the force. We know that. We 
know it is true. Nobody says it. So I compliment you on saying 
it.
    Now let me get into something else. Admiral Tom Hall, who 
is the Assistant Secretary of Defense for Reserve Affairs, and 
from Oklahoma, and he is now running the Guard and Reserve, he 
was in my office this week, and we talked about how things have 
changed. He said, and this is his quote now: ``You recruit a 
soldier and you retain a family.'' He talked about the big 
problem that they are having right now Guard and Reserve 
recruiting. I do not want you folks to imply there is no 
problem in recruiting when we are having a problem.
    His estimation is something that I have believed for a long 
time. One of the problems you are having is the family is 
involved in not encouraging their young people to get into the 
military because of all the negative media that is out there.
    I applaud a guy that I went over to see. I was so impressed 
with Lieutenant Colonel Tim Ryan and his courage to stand up 
and tell the truth that I went over to Iraq just to talk to 
him. He said--now listen to this: ``All right, I have had 
enough. I am tired of reading distorted and glossy exaggerated 
stories from major news organizations about the failures in the 
war in Iraq. The inaccurate picture they paint has distorted 
the world view of the daily realities in Iraq. The result is a 
further erosion of international support for the United States 
efforts there and a strengthening of the insurgents' resolve 
and recruiting efforts while weakening our own. Through their 
incomplete, uninformed, and unbalanced reporting, many members 
of the media covering the war in Iraq are aiding and abetting 
the enemy.''
    He finished this one statement by saying--and this is 
really important: ``The key to the enemy's success is use of 
his limited assets to gain the greatest influence over the 
masses. The media serves as a glass through which a relatively 
small event can be magnified to international proportions, and 
the enemy is exploiting this with incredible ease. There is not 
good news to counteract the bad, so the enemy scores a victory 
almost every day.''
    I was very proud of him. As I go over there--and I have 
been over there many times now--the first thing that is said to 
me by the troops--these are marines and soldiers--is: ``Why is 
it that they do not like us?'' They are talking about the 
media. ``Why is it that people back home do not have a clear 
picture of our successes?'' If we could just have the picture 
of these guys in Fallujah, General Madhi, who was actually a 
brigade commander for Saddam Hussein, who is now the brigade 
commander for the Iraqi security forces, he was so impressed 
with what the marines were doing there that he changed the name 
to the ``Fallujah Marines.'' Here is a guy who hated Americans 
before then. It was all because of the embedded training with 
the marines.
    The same thing is true in Tikrit. We went to Tikrit. Those 
kids had the same response. So this I know is having a negative 
effect on our ability to recruit. If any of the three of you 
uniformed officers would respond to that, I would appreciate 
it.
    General Schoomaker. I will respond first because I 
personally second what Colonel Ryan is saying. I think that 
those views are broadly held across our Army, and it is 
routinely stated by those that come home, on leave or 
otherwise, that they cannot believe the difference in what they 
know is going on over there and what people here are being 
told.
    Senator Inhofe. Thank you.
    General Hagee. I align myself with the Chief of Staff of 
the Army on that, sir; absolutely correct.
    Senator Inhofe. Thank you very much, General.
    General Myers. Senator Inhofe?
    Senator Inhofe. Yes, General Myers.
    General Myers. Of course I align myself with the two 
Service Chiefs. I think all of us that occupy senior leadership 
positions, no matter where it is in this country, have to be 
very careful about what we say because it is, as you said--our 
adversary is much better at what I would call strategic 
communications than we are. It will comfort them if we say 
wrong things or intemperate things, and it certainly confuses 
our troops.
    You hear it all the time, and it is demoralizing to folks 
that have been sent over to do a job, are doing a job, doing a 
darn good job, and to hear comments that somehow besmirch 
either their integrity or the nobility of what they are doing. 
It is not helpful. It is very harmful.
    Senator Inhofe. It is very harmful also when we have 
members of the United States Senate saying things that are 
critical, because that is used in their propaganda machine.
    I would just like to have you keep that in mind, because 
the story that needs to be told is the true story, the story of 
the soldier helping someone repair a roof after a problem and 
helping the kids. As I was flying over the Sunni Triangle, our 
kids, our troops, were throwing out candy and cookies, little 
kids in these villages waving American flags. I can remember on 
the first freedom flight in 1991 going back to Kuwait when a 
little boy, a 9 year old boy, who had both of his ears cut off 
only because he was holding an American flag, and they are 
waving them now. That story has to be told.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today and for your 
service to the country. Your dedication is appreciated. To our 
warfighters that you have introduced, General Schoomaker: Bless 
your hearts and thank you very much for your service.
    Return with me now to those not so thrilling days of 
yesteryear of about 5 years ago, to the issue of hollowness. I 
can remember very well at that particular time that this 
committee was holding a hearing and we had the Joint Chiefs 
here. I asked the question, do you have the funding necessary, 
the wherewithal necessary to accomplish your mission, because 
there had been a lot of talk about our military being thin and 
stretched and hollow. Every one of the chiefs answered: Yes, 
sir, we can do our mission with the current funding, with the 
exception of General Krulak, bless his heart. He said: No, sir, 
I cannot do the mission that I am assigned to do the way that 
we should do it. Now, the United States Marine Corps can put 
cold steel on the enemy any place, any time, that the President 
wants, but we could do it better if we had additional funding.
    General Krulak's phone number was on speed dial in regards 
from the White House, but he had the courage to say what was on 
his mind. Now, that was in the spring. In the fall everybody 
said: Okay, it's Chicken Little time and we have to have more 
money, and we passed a supplemental. So the Army and the Navy 
and the Air Force and the Marine Corps that you inherited, all 
of you, was at that time stretched and thin and hollow.
    Then we got ourselves in a situation with Kosovo and also a 
situation with Afghanistan, and then we got into a situation 
with Iraq and the global war on terrorism, plus transformation. 
Why would you not have a problem? Then in the theater in which 
we have the war that is being conducted, it is the most 
obtrusive in regards to conditions for equipment that you can 
imagine. Why would you not have a problem?
    So I really empathize with your statements. It is not that 
we cannot fix it, cannot do it, but Congress should stand up to 
that and admit to the situation that you inherited and the new 
challenges that you have had.
    Having got that out of my system, General Schoomaker, you 
enlisted 6,157 new soldiers, 507 more than the monthly goal, in 
the finest Army in the world. I want to congratulate you for 
that. I know we have problems. You also said that our retention 
numbers also remain high. General Hagee, you said the same 
thing on that. That does not mean that we do not have problems 
on down the road.
    But basically, I agree with Senator Inhofe. With the deluge 
of negative news that we get daily, it is just amazing to me 
that anybody would want to sign up. Now, I can recount back in 
the dark ages when I joined the Marine Corps, the reason I 
joined is because some lieutenant colonel with a sty in his 
eye, who was not happy being a recruiter to begin with, asked 
me what in the hell I could do for the Marine Corps, instead of 
what the Marine Corps could do for me, and said that if I got 
in trouble, why, a squad would come after me. If the squad 
could not do it, a platoon would come after me; if they could 
not do it, a company; and then a battalion, and then we went 
right up to the entire Marine Corps, and he said: Son, we have 
not been stopped yet. I raised my right hand.
    I think there is still that kind of service-induced 
patriotism that exists out there, and I think as we stabilize 
Iraq that will take care of itself.
    I was out at Fort Riley this past weekend when a battalion 
came back, and there were 12 Purple Hearts, 3 Bronze Stars 
awarded. I went over, shook their hands. I said: ``Thank you 
very much on behalf of the Senate Armed Services Committee,'' 
and I mentioned your name, Mr. Chairman, and those of us on the 
committee, and I said, ``and the Congress of the United 
States.''
    The last gentleman, who had two Purple Hearts, looked at me 
and he said: ``What in the Lord's name is going on in Congress 
with all these negative comments?'' Everything that we say has 
a bearing in regards to our adversaries and also on the morale 
of our troops. I think we have to be very careful in regards to 
what we say.
    Now, I have made a speech, and so I will probably run out 
of time for my question. Yesterday General Pace said during his 
nomination hearing--and by the way, he did a great job; and by 
the way, he does happen to be the first Marine to be the 
Chairman of the Joint Chiefs and follows an outstanding 
Chairman of the Joint Chiefs who just happens to be a Kansan.
    At any rate, General Pace said this: ``It is going to take 
us 2 years, 2 years, in depot repair and maintenance to get 
back to the place that we should be if, in fact, we faced a 
threat, a serious threat someplace else around the world.'' 
That is, I think, what worries this committee, that we are 
wearing out our equipment. I am not sure we are wearing out our 
troops. They still remain committed, although I know it is a 
very tough challenge.
    Is that about your estimate of where we are--I would ask 
probably Secretary Chu and also General Myers to comment on 
that--in regards to the time it will take to repair and 
basically get regeared, if that is the proper word for it, to 
fight another major battle if we have to once we are successful 
in regards to the Mideast?
    Dr. Chu. It is, sir, a matter given constant attention. It 
does take time. Some of the time is the physical limit required 
to effect the repairs, but there is another element that ties 
in with General Schoomaker's comments on transformation. We are 
changing the equipment that units have, so in many cases we 
have decided we would rather wait for the new equipment and 
structure the unit along the new lines rather than expend 
taxpayers' resources on something we are not going to keep for 
the long run.
    There are some risks taken there. There is a balance. There 
is an issue of how best to do that. It will take time. It does 
not mean that the United States cannot meet its military needs. 
We can.
    General Myers.
    General Myers. Senator Roberts, you are right. The 
equipment is under--we are wearing out our equipment pretty 
fast. As Secretary Chu said, there is a big lag time, whether 
it is depot repair or whether it is new production. The 
supplemental funding that we got this year, in 2005, is 
absolutely essential, and it started to right this problem, but 
a lot of that we are not going to see for a year, or in some 
cases, 2 years. So General Pace is absolutely right.
    The fact remains that, as I said in my strategic risk 
assessment earlier, that we have the equipment to do what we 
are doing and fulfill our national security strategy, which is 
to conduct another operation. We can do what we need to do with 
the equipment we have, but we have to stay at this procurement 
and this repair cycle. If I were going to focus somewhere, that 
is where I would focus. That is very important.
    We have already talked about the procurement holiday that 
we all know we took in the last century. We are coming out of 
that holiday, but the accounts that are first to support other 
needs are the procurement accounts. It is always where we go in 
the DOD when we need to do other things like operations. We put 
operations first, we put future procurement a little lower 
priority, and that is where we go. We overdid it in the 1990s. 
We are coming out of that now. We are in my estimation almost 
well, but not quite well.
    Senator Roberts. I thank you all. My time is up and I thank 
you for yours.
    Chairman Warner. We thank the distinguished chairman of the 
Intelligence Committee for his participation this morning, as 
always.
    Senator Dole.
    Senator Dole. Gentlemen, I am concerned about post-
traumatic stress disorder in our servicemembers and the stress 
on families associated with the long deployments. In the Red 
Cross we stood up a program with regard to mental health 
counseling for those who have experienced emotional trauma 
because of disasters. Of course, through our Armed Forces 
Emergency Services the Red Cross has provided counseling for 
families since World War II.
    General Hagee, in your submitted opening statement you 
mentioned your operational stress program where you have mental 
health professionals at aid stations. I would be interested in 
hearing how you think that program is working, how effective 
you feel it has been, and, General Schoomaker, whether the Army 
has a similar program.
    Let me also mention that the Department of Veterans' 
Affairs published a study--this was March 31, the New England 
Journal of Medicine--and it reported that 17 percent of marines 
and soldiers reported early symptoms of depression, anxiety, or 
post-traumatic stress disorder. But of those servicemembers, 
only 40 percent sought any sort of mental health care.
    So I would also be interested in hearing from all of you 
what is being done to get these troops to seek and to receive 
the kind of mental care that they need. A lot of questions in 
one here. But General Hagee, if you could begin; and General 
Schoomaker; and then I would like to hear from all of you on 
that second part.
    General Hagee. Yes, Senator. Thank you very much for that 
very important question. I do not believe that there is any one 
program that will solve this particular issue. First, I believe 
that every single individual is affected by combat in one way 
or the other. Some are affected more than others. The 
operational stress control and readiness program that you 
talked about, where we put a trained individual with a 
psychiatrist down at the battalion level, is just one part of 
an overarching program that we have.
    We spend a great deal of time before the unit leaves 
talking about the stress that they will realize when they are 
overseas, when they are in combat. We have programs while they 
are there. For the first time that I can think of, we actually 
rotate individuals out of the ``front lines''--I use that in 
quotes because, of course, there are no front lines over 
there--but back to areas of relative stability and safety, to 
where they can recoup. We do that as a unit.
    We stress the fact that everyone is affected by combat and 
that if you feel stress that you should come forward and look 
for help. As the unit gets ready to come home, we spend time 
with the individual marine talking about what he has seen, or 
what she has seen there, and what the reunion is going to be 
like. On the other end, we spend a great deal of time with the 
families talking about the same thing before they come back. 
Then after the reunion, we actually have standdowns by 
battalion, where everyone has to participate in the program, 
once again underlining the fact that there's nothing wrong with 
feeling this stress and, most importantly, providing points of 
contact and references where they can go, people with whom they 
can talk if they feel this stress.
    The plan is is to continue that, not just after they come 
back, but this has to be an ongoing process, because you never 
know when these symptoms might develop.
    Senator Dole. General Schoomaker.
    General Schoomaker. I align myself totally with the 
Commandant and what he said. I just add, to maybe put a little 
perspective on it from the standpoint of the Army. We deal with 
it. First of all, everybody is affected by combat. Anybody that 
denies that is truly in denial. So we are trying to deal with 
it before the fact, during now workups and our training in 
terms of heightening people's awareness to the fact that they 
will be dealing with things and that it is important to deal 
with them realistically and directly.
    Second, while in theater, we have formal combat stress 
teams that every time that, let us say, a unit experiences a 
traumatic situation, where we can directly intervene and start 
that process there. Upon return, during the reintegration 
process, we have a formal reintegration process. I am 
personally encouraged by the fact that we are having more and 
more people that are willing to come forward and get help and 
treatment, regardless of rank, and we are seeing some 
considerable success in the people that do participate, whether 
it be in personal counseling through the variety of resources 
that are available or in marriage counseling, for instance, on 
reintegrating with the family or with the spouse when they 
return. Then of course we are having, with those who do have 
continuing problems, continued contact and follow-up.
    I think we are approaching this very comprehensively. It 
would be fair to say that we continue to learn as we go on 
this, and we continue to adapt as we find necessary, but I 
think it is a good news story.
    Dr. Chu. Senator Dole, if I might add----
    Senator Dole. Yes.
    Dr. Chu.--I would like to pick up on a point that General 
Schoomaker touched on, which is leadership of the units. What 
is given a little less attention in that New England Journal 
article is the reality that there is a background level of some 
of these issues in any community of individuals. What is 
striking to me is how little these stress indicators change. 
They do go up post-deployment, but, given what these troops 
have sustained, I think it is a great tribute to the leadership 
of the noncommissioned officers and the commissioned officers 
of our forces, that we have seen such a modest rise.
    Nonetheless, every returning individual, as General Hagee 
and General Schoomaker have described, receives an evaluation 
on this issue and other health issues. We recognize that post-
traumatic stress disorder often does not show up right away, 
and so we have inaugurated an effort to reach out to every 
returning individual at roughly the 3 to 6-month point, 
including those who have been discharged, to reevaluate their 
situation and reinforce the message that General Schoomaker and 
General Hagee offered, that we do offer you assistance, it is 
just fine to ask for it, do not be shy. There is that issue in 
our society, as you have underscored.
    I have worked personally with Gordon Mansfield, the 
Department of Veterans Affairs (VA) Deputy Secretary, on this 
issue. He is adding the capacity of the VA, which has been a 
leader in this field for many years, as I know you are aware. 
We are very much dedicated to offering our people the support 
that they deserve.
    Senator Dole. Thank you very much.
    Mr. Chairman, I will submit some additional questions for 
the record. My time has expired.
    Chairman Warner. Thank you, Senator. I wish to point out 
because of your interest and work on the committee, our bill, 
which hopefully will be going to the floor here in a week or 
two, contains provisions on this.
    Senator Dole. Yes.
    Chairman Warner. We thank you for your interest in this 
subject.
    Senator Dole. Yes, indeed. Thank you.
    Chairman Warner. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today, and thank you 
for your extraordinary service to our country and the soldiers 
you brought with you today. I cannot tell you how much we all 
appreciate, despite sometimes the random statements that come 
out of this place--those are not reflective of the enormous 
support that we have here in Congress for the good work the 
troops are doing, and I would say around the country as well. I 
know, certainly in my home State of South Dakota, that we are 
extremely appreciative of the way that you are taking the fight 
to the terrorists so that we do not have to deal with many of 
those threats here at home. So thank you.
    I want to explore a question here and come back a little 
bit to what Senator Roberts was referring to earlier. Clearly, 
the war in Iraq and Afghanistan has involved one of the largest 
operations probably since World War II in terms of logistics, 
lift requirements, and repeated rotational deployments of major 
units to those theaters. In fact, some units and personnel are 
rotating in theater for their third tour.
    As was alluded to earlier by Senator Roberts, yesterday at 
his confirmation hearing, General Pace stated that it would 
take 2 years to put the deployed equipment through maintenance 
depots and to get them back into shape. Following up on that, 
Secretary Chu, General Myers, perhaps you could describe more 
broadly--what impact and strain the repeated rotational 
deployments of ground units and air squadrons to Iraq and 
Afghanistan have had on yearly training cycles, readiness 
ratings, maintenance cycles, and, of course, on the home base 
infrastructure that support these units?
    Dr. Chu. Thank you, Senator. A very important question. Let 
me pick up on something General Schoomaker mentioned in 
response to Senator Reed's questions about readiness of Army 
units. One of the by-products of the extraordinary times in 
which we find ourselves is that, indeed, the experience level 
of our force has increased. This is a battle-tested force. It 
knows what it is doing. It is extremely professional. I think 
the great news in terms of the state of this force is the high 
retention rates that we have been privileged to enjoy.
    Those retention rates are not an accident. They are a 
result of your willingness to give us the tools necessary to 
persuade people to continue with us. They are a reflection of 
the extraordinary leadership of the military units.
    But in my judgment, in any organization, while equipment is 
important, ultimately its performance comes down to the quality 
of its people and their motivation. I want to associate myself 
with the views of these two service chiefs and the chairman 
about the high quality of both attributes in our military force 
today.
    There certainly are issues about equipment repair, 
resetting the force, as people like to describe it. It does 
take time. It takes funds, and we are grateful for the funds 
that Congress provides in that regard.
    We are also beginning to move, particularly the Reserve 
Forces, to a different paradigm. To ensure that the deploying 
units have the most up-to-date equipment, we are concentrating 
that equipment on those units, often leaving the equipment in 
theater. This is not the way traditionally the American 
military did it--leaving the equipment in theater, so the unit 
comes to the equipment, rather than bringing everything with it 
and then shipping everything back home.
    The corollary may be that for the units at home, if they 
are not intended to be next in line, they will have a smaller 
allocation of the most modern gear. That is deliberate. We try 
to ensure they have enough to train on realistically and be 
prepared, but not necessarily--and this is a change I think the 
Army is trying to make in how it thinks about units and their 
equipping, especially Reserve units--not necessarily have every 
unit have every item of the most modern gear.
    We can never have as much of the most modern gear as we 
like, because by definition, it is the item just off the 
assembly line. So the strategy is to concentrate that gear at 
the point where it will make the most difference, which is 
disproportionately in the deployed theater.
    General Schoomaker. If I could add, the reason I was having 
difficulty with Senator Reed in answering his questions, is 
that we are consuming equipment in Iraq, depending upon which 
equipment we are talking about, from three to ten times what we 
would normally experience. This is why we have gone to a 
strategy where we leave equipment in Iraq and rotate soldiers 
on the equipment, because that gives us an opportunity to reset 
those units when they return on top of equipment we have been 
working on during their absence.
    If you were to go to the 101st Air Assault Division today 
or the 82nd Airborne Division, 10th Mountain Division, 4th 
Infantry Division, you would find a considerable amount of 
sparks and dust flying down there building a far more capable 
organization than left going to Iraq. That is why this whole 
issue of readiness is, it truly is, a moving train.
    Now, the idea of reset. I have testified now for 2 years as 
we have been talking about the supplemental funding required to 
reset this force. It will take us at least 2 years to reset 
this force from what we are consuming in this war. There is no 
doubt in my mind. We have historical precedents for this. If 
you look at Operations Desert Shield and Desert Storm, that is 
exactly what it took us, about 2 years to do it just for that. 
This conflict has far greater consumption than that one did. I 
am very confident it will take us 2 years and that is why we 
have been testifying to that effect.
    I am most concerned that we will lose interest at the end 
of this conflict and forget the fact that we are going to have 
to reset this force, and we will start out again with the kind 
of challenges we had when we went into this particular 
conflict.
    Senator Thune. If I could just follow up on that. Obviously 
these challenges that you have noted and the fact that it is 
going to take time to reset, and the likelihood, obviously, 
that we are going to be in Iraq for several more years in 
significant numbers, it seems intuitive that by beginning this 
massive process of relocating and consolidating units and 
missions at bases throughout the United States, that the Base 
Realignment and Closure (BRAC) process is only going to add to 
that strain.
    We obviously did not envision this situation in 2001 when 
Congress envisioned this current round of BRAC. I guess 
layering that on top of all the challenges that we now face in 
light of the issues that were addressed yesterday by General 
Pace, and which you have responded to here this morning, how do 
you plan to adapt to yet another major mission involving major 
realignments and consolidations at the same time we are 
rotating units into and out of Iraq and Afghanistan without 
adding further burdens to our military at the worst possible 
time?
    General Schoomaker. From the standpoint of the Army, our 
transformation really is like a rope. It has BRAC involved in 
it, it has the Quadrennial Defense Review (QDR) involved, it 
has the overseas realignments, the global force posturing. It 
has our transformation to a modular force in there. All of this 
comes together in a momentum and gives us opportunity we did 
not have before as we fight this war.
    One of the few silver linings in the cloud of having to be 
at war is the fact that it gives us opportunity to take 
advantage of the velocity and the momentum you gain as you 
reset the force to reset it the way you want it to be in the 
future. That is what we are doing. Part of the ugliness that we 
have been discussing here is the fact that we started with 
three armies. We had the Army of the Cold War that we were 
organizing to go fight the war in Iraq and Afghanistan, that we 
come back and reset to the Army of the future. So there are 
three different armies going on at the same time, and when this 
is over we should all be reset forward to the kind of Army that 
is more relevant to the 21st century.
    I will just give you a real quick example. The 507th 
Maintenance Company that everybody remembers, Jessica Lynch was 
assigned to, was not trained to be in the situation they were 
in, was not equipped to be there--no Global Positioning System 
(GPS), no radios, no training on crew-served weapons, only one 
crew-served weapon in there, no night vision goggles.
    Chairman Warner. We are losing your voice, General. You are 
not into the mike.
    General Schoomaker. I am sorry.
    The 507th Maintenance Company found itself in contact with 
the enemy; no radios, no night vision goggles, one crew-served 
weapon, no training on the kinds of situation they found 
themselves in, because they were organized for a Cold War 
battlefield that was echeloned and they were not supposed to be 
placed in that position.
    That is what I was trying to say here. It is not that the 
Army was hollow to the total extent. It was because it was 
organized for a different kind of fight, and it was hollow at 
the same time. Now we are trying to overcome both the 
hollowness and the transformation for the kind of world that we 
have now in the 21st century--realigning, global force 
reposturing, transforming, and fighting a war. We are doing 
this very well. It is extraordinary, and it is because of these 
soldiers and because of the support that Congress has given us. 
We ought to be damn happy about the way things are going.
    Senator Thune. I think that the resources Congress has 
provided have certainly helped, and we are doing a masterful 
job of fighting the war, but as we project out and we start 
looking at the length of this conflict and these deployments, I 
am worried about personnel, manpower, everything else. It seems 
like a complication, because we do not know what some of the 
overseas basing requirements are going to be, and we do not 
have yet a good feel for--I know you are in the process of 
modernizing----
    General Schoomaker. Senator, if we do not transform, we 
will be in trouble for the long term. We have to transform to 
increase the capacity and to make ourselves more relevant. We 
are talking about building an Army that has 30 percent more 
capability and about 60 percent increase in availability. We 
are talking about bringing a National Guard that was terribly 
hollow, disorganized, overstructured, the same with the 
Reserves, the same with the regular force, and bringing it into 
a context that is a total Army.
    The difference in the three components is availability, and 
we have a force generation model now that will generate. The 
chiefs of both the Guard and Reserve are back here, and they 
will tell you that we could do this indefinitely when we get 
into the formation that we are going to. By 2006 we will have 
80 percent of that done.
    Chairman Warner. Thank you, Senator. That was a very 
important colloquy that you had.
    General Myers. Mr. Chairman, let me just, first of all, 
support everything that General Schoomaker said. We had a 
choice when September 11 happened, as we got into conflict, 
that was: do we fight the war and put transformation on hold, 
or do we transform? For all the reasons that General Schoomaker 
said, the Joint Chiefs of Staff and the senior leadership of 
the Department said we have to transform.
    I would only add that I think BRAC is an important part of 
that transformation. Depending on what the administration and 
what Congress does with the BRAC recommendations, we have 5 
years to implement them. That should give us plenty of time to 
smooth-flow any big issues that we have. The Joint Chiefs of 
Staff are fully behind the BRAC recommendations. We have stated 
that before in hearings. This is an important piece of our 
transformation.
    If you take one piece out, then we are, as General 
Schoomaker said, left without a full bucket, and it would make 
life a lot more difficult.
    Chairman Warner. I thank the panel. We will have to move 
on.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Welcome. One thing, General Schoomaker. I find that those 
in the National Guard in Massachusetts who have left their 
equipment over there find that they are not able to keep up the 
training here back home, and they do not feel that they can 
fulfill their Guard responsibilities. That is something that I 
have heard. I am sure you have heard it, and you are going to 
have to address it. I can understand your earlier answer, but 
that is certainly something that we picked up.
    The President spoke on Tuesday night about the hard work of 
our troops, and he urged Americans to send them letters, raise 
flags in their honor, and to help the military family down the 
street, but he did not assure them that they would have the 
equipment they need to fight the war, and I believe he should 
have.
    More than 400 of our troops in Iraq have died in military 
vehicles hit by roadside bombs, grenades, and the so-called 
improvised explosive devices. Yet our troops do not have the 
protective equipment they need. The marines are still waiting 
for the 495 armored HMMWVs they ordered last year. There is no 
excuse, absolutely no excuse, to send the military into battle 
unprotected.
    General Schoomaker, I raised this issue with you in 
November 2003 and again with you and General Hagee at a hearing 
in February 2004. General Myers, I raised this issue last April 
before one of our hearings. In December, Secretary Rumsfeld was 
confronted by soldiers so desperate for armor that they had 
been forced to dig through the trash for scrap metal.
    This April, General Hagee's deputy testified at a Seapower 
Subcommittee hearing that the marines had all the funding they 
needed for the up-armored HMMWVs. Yet last week General Nyland 
and General Cato testified before the House about the lack of 
urgency in solving the problem.
    When the Department refuses to speak up for our troops, it 
is hard to convince Congress to act. Over a year ago, Senator 
Bayh and I offered an amendment to the defense authorization 
bill to include an additional $600 million for armored vehicles 
and we faced resistance.
    This year we tried to add the funds for the armored 
vehicles to the Iraqi supplemental. We knew there would be a 
production gap if we did not act, but we were told that the 
military had all the money it needed. Senator Stevens said on 
the floor: ``We have met these requirements. We do not need 
additional money from the emergency bill to be spent on up-
armored HMMWVs.'' But we succeeded in adding $213 million 
anyway. This was resisted by even members of our committee 
here.
    Again and again we have been reassured that we have enough 
armored vehicles for our troops. Now we learn that the Marine 
Corps requirement for up-armored HMMWVs has gone from 498 to 
2,400. That is a fivefold increase. Why can we not get it 
straight? Should not the safety of the troops be your, the 
President's, and our highest priority?
    I hope you will work with us to see that this new 
requirement is fully funded so we do not have to keep repeating 
the mistakes of the past while our soldiers are dying in the 
roadside blasts.
    General Myers or General Hagee?
    General Myers. Senator Kennedy, you are absolutely right, 
safety and the force protection of our troops is absolutely the 
first priority. As was covered just a little bit earlier in the 
hearing, we have a thinking adversary, which changes sometimes 
the requirements. We have tried to keep pace with those 
requirements, and I think we have done a fairly good job of 
that. I will not say it was a perfect job, but a fairly good 
job of trying to provide the equipment that our men and women 
need as they go into battle.
    I think in terms of whether it is the protective vest and 
then upgrading those to meet the different threats or some of 
the other equipment that I would rather not talk about in an 
open hearing--the vehicles certainly we can talk about and the 
standard--the Secretary of Defense said that by February 15 of 
this year we would not have any vehicles off compounds that did 
not have armor protection. We have done all that, and we will 
continue to do that, and we will continue to try to look around 
corners to try to predict what it is this adversary will throw 
our way so we can continue to provide the protection that our 
folks need.
    One of the things that we forget very often when we talk 
about protecting our forces is that while equipment is a big 
piece of it, another big piece of it is their training. Another 
big piece of it is their leadership. I think on those counts we 
do very well in most cases. We work that piece very hard, and 
that in many cases is as important as the equipment that we 
provide.
    Senator Kennedy. General Hagee, would you respond? You 
might have had an opportunity to read that New York Times 
article in the last week, which was all related to the Marine 
Corps' request and the marines. If not, I suggest that you get 
a hold of it. They are talking about that they did not get the 
money for the 498 HMMWVs until February, and now they are going 
to have a request for 2,600 additional HMMWVs for Iraq.
    General Hagee. I have read the article, Senator, and I 
would like to align myself with the Chairman. When we went back 
into Iraq in February, when we were told that we were going to 
go back into Iraq in September 2003, we had about 30 armored 
vehicles. By the time that we put the marines on the ground in 
February 2004, every single vehicle that went in harm's way was 
armored. Was it an up-armored HMMWV? No, sir. It was not. But 
it was the best steel that we could find, using the best 
engineers that we could find, to armor those vehicles.
    Since that time, we have continued to spiral development 
that armor, providing the very best that we can to the marines 
and soldiers that are there. As the Chairman said, the force 
protection of our troops is absolutely priority number one.
    We have also testified that this is an adaptive, thinking 
enemy, and we are responding very aggressively as he changes 
his tactics. Right now we have 1,000 of the Marine Armor Kits 
(MAK), the so-called MAK vehicles. This is add-on armor that we 
put on the A-2s, in country. We are ahead of schedule on 
producing those vehicles. We hope to have here in just the next 
few months about 1,700 of those particular vehicles done. Then 
we want to replace the remainder of our vehicles that are in 
harm's way, not only in Iraq but in Afghanistan, in the Horn of 
Africa, on our Marine Expeditionary Units. We want to replace 
those that have armor on them with the up-armored HMMWV, and 
that is the reason for the request for the 2,600.
    Senator Kennedy. My time is just about up. But your 
testimony here is that no marine goes out on patrol now in any 
vehicle that does not have the up-armored----
    General Hagee. No, sir.
    Senator Kennedy. --or the armor plating?
    General Hagee. No vehicle leaves the compound without 
armor, not the up-armored HMMWV. We do not have sufficient 
quantities of those, but right now, we have either the up-
armored HMMWV, which is designated level one, or the level two 
up-armored.
    Senator Kennedy. My time is up, but you will give me a 
breakdown of, if they go out on patrol, what is armored, what 
is up-armored?
    General Hagee. Yes, sir, I would be happy to.
    Chairman Warner. I think you raise an important question. 
Let us take a minute to try and get the terms correct. An up-
armored vehicle, I think in the dictionary version of it would 
simply be something that has a measure of increased armor. But 
if I understand you, ``up-armored'' has a specific designation 
in the Pentagon now?
    General Hagee. Yes, sir. We really talk about three levels. 
When I use, and I think when most individuals in the military 
talk about it, ``up-armored HMMWV,'' they are specifically 
talking about the M-1114. That vehicle is put together at the 
factory where the armor is integrated into the vehicle. That is 
level one, and only if the armor is integrated into the vehicle 
can it be classified as level one.
    Chairman Warner. Up-armored.
    General Hagee. Up-armored.
    Chairman Warner. Now, what is the next level?
    General Hagee. Level two, which for us is an A-2 HMMWV with 
bolt-on armor, actually has on the sides the same protection as 
an up-armored HMMWV, that one built at the factory. But because 
it was not built at the factory, it is defined as level two.
    General Myers. There are factory kits. Level two is factory 
kits.
    General Hagee. That is correct.
    Chairman Warner. I presume it provides somewhat less 
protection than the fully up-armored HMMWV, number one?
    General Hagee. On the MAK, it provides less protection on 
the undercarriage. The up-armored HMMWV will provide protection 
for a 12-pound blast, undercarriage. The MAK provides 4 pounds.
    Chairman Warner. So level two is somewhat less. Now let us 
go to level three.
    General Hagee. Level three is less than that. Level three 
is the homogeneous rolled steel that has been applied to the 
vehicle. Even though it comes in a kit, it is less than the 
protection provided by the MAK or the level two.
    I can provide exactly what those protection levels are, 
sir.
    Chairman Warner. In today's operation with the marines, 
what is the level of equipment that those marines have?
    General Hagee. Level two or level one.
    Chairman Warner. General Schoomaker, your troops?
    General Schoomaker. Sir, we go by exactly the same 
definitions, level one, two, and three. Our goal is to have 
every vehicle at level one or two, factory-configured, either 
the integral in the factory or the factory-added armor.
    Chairman Warner. You said ``goal.'' Let me get that down. 
You said that is a goal, implying that it is not that way 
today, with your operating forces in Iraq and Afghanistan?
    General Schoomaker. We have some level of vehicles that are 
still in level three, but this is satisfactory steel that has 
been applied in the field locations to the vehicles. But level 
one, level two, just like what the Commandant says, is the 
goal.
    Chairman Warner. I understand the goal. We are trying to 
establish what is in use today as the troops at this very hour 
are operating.
    General Schoomaker. All three and I believe that is the 
same in the Marine Corps.
    Chairman Warner. No, he claims one and two.
    Senator Levin. What percentage are at level three in the 
Army?
    General Schoomaker. About roughly 20, 20 to 24, 25 percent, 
something like that, are at level three.
    Chairman Warner. Does that answer your question, Senator 
Kennedy?
    Senator Kennedy. This is, I guess they call it the 
``hillbilly armor,'' level three, is what I understand is the 
term there?
    General Schoomaker. We are not using hillbilly armor.
    Senator Kennedy. You do not use the term any more.
    General Schoomaker. I might add that this is more than just 
HMMWVs, and that is the important thing, because we are talking 
about trucks, Heavy Expanded Mobility Tactical Trucks (HEMTTs), 
everything.
    Chairman Warner. I know.
    Senator Kennedy. Just a final question----
    General Myers. Let me, before you finish this discussion--
--
    Chairman Warner. Excuse me, Mr. Chairman. Let us start from 
the top so we can listen.
    General Myers. For level one, two, and three, the goal is 
that we will only have level one and two--and we are going to 
make our goal--by September.
    Chairman Warner. By September of this year?
    General Myers. This year, we will only have level one and 
level two. We will no longer have a level three in the field.
    Chairman Warner. That is Marine Corps and Army?
    General Myers. That is all forces. Remember, we have Navy 
and Air Force over there as well on the roads, actually.
    Chairman Warner. I understand. When I used ``Army'' I meant 
those operations.
    General Myers. Right.
    General Schoomaker. Could I add something here very 
quickly? I am sorry.
    Chairman Warner. Yes.
    General Schoomaker. Senator Kennedy, when we talked in 
November 2003, the requirement in theater was less than 2,000 
of these vehicles.
    Senator Kennedy. So the requirement has gone up to 9,000 or 
even more, 10,000 or 12,000. Someone has to be responsible for 
not understanding last fall why we were not going to--you need 
400 times more of these. That is what parents ask me. That is 
what the Hart family is asking me.
    General Schoomaker. I am trying to reinforce your point. We 
have funding from you now for 42,000 of these vehicles, and we 
are right now at a level of about 38,000. So we have gone from 
less than 500 to 38,000 vehicles--I am talking about Army 
figures now--in the last 22 months. So I think we have gotten 
considerable support out of Congress to do this, and it is an 
enormous undertaking. As far as I can tell, the requirement 
will continue to grow.
    Again, the tactics, techniques, and procedures, and the 
ability of an adaptive enemy to attack these are going to 
continue to be a challenge.
    Chairman Warner. Has everyone had the full opportunity to 
testify on that series of questions?
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I will try to get back to recruiting and retention. That 
was a very good exchange, to talk about how enormous and what 
the enormous tasks are of this war. It is ever-changing. It is 
costly in terms of money and lives, and we are doing the best 
we can. Sometimes we make mistakes, but that is part of the 
war.
    I want to congratulate all of you for coming today and 
accepting critiques, criticism, and praise, because that is 
democracy. No one is going to be able to change how the media 
reports the war. I wish it would be more balanced. With freedom 
comes responsibility. So it is not just about money when it 
comes to recruiting. It is about message.
    If you want to defend your country, if you want to play a 
part in your country's future, join the military, because we 
need you right now. What happens in Iraq really determines 
their own freedom.
    Now let us talk a little bit about what we are trying to do 
to address the problem of recruiting and retention. One, I 
think it is a chronic problem in the area of recruiting, that 
it has been building, and we need to stay ahead of it.
    General Myers, you are a fighter pilot, is that correct?
    General Myers. That is correct, Senator.
    Senator Graham. You do not let the plane fly you; you fly 
the plane, right?
    General Myers. You got it, sir.
    Senator Graham. You stay ahead of it. I can tell you, 
working with Chairman Warner and Senator Ben Nelson, my 
Democratic colleague, that we have one of the most robust 
recruiting and retention packages possible in the Personnel 
Subcommittee.
    Dr. Chu, thank you for coming to our committee. I want 
Americans to know there is more money on the table than there 
has ever been to keep qualified people in. There is more money 
on the table than there has ever been to get people to join. 
There is a real good package for quality of life issues for 
people under psychological stress. This committee, in 
collaboration with the Department of Defense, is addressing the 
problem of recruiting and retention.
    Dr. Chu. Yes, sir.
    Senator Graham. I am pleased to be part of that process.
    Now, my concern is where are we going to be in the future? 
We know how the HMMWV situation is ever-changing. The 
likelihood of a major military footprint being in existence in 
Iraq a year or 2 from now I think is great, because you have 
just discussed the enormity of adapting to the war in terms of 
procurement practices. Look what we are asking of the Iraqi 
people and the coalition forces, to build an army from scratch. 
The army in the past was loyal to the dictator, not to the 
people. Buying into civilian control of the military is 
something not known in the Mideast and we are trying to 
institute it.
    You get paid in cash in the Iraqi army, so you have to take 
your money and go home and pay your bills. We do not have Sure-
Pay. There is no bureaucratic infrastructure to support the 
military. You are having Sunnis and Shias work together for the 
first time in a coordinated fashion, maybe in the Kurdish 
north.
    The political task ahead to bring this country together 
under a written constitution, setting aside a 1,400 year-old 
religious split between the Sunni and Shia Muslims is an 
enormous task.
    Why is it taking so long? The same reason it took us a long 
time: It is hard to get people with different views of life to 
live together. It is hard to get a military to work as a 
national military, not a group of militia. We are making 
progress. But if we are there a year or 2 from now, which I 
think we will be, with a large number of troops suffering 
casualties, we have to turn this around on message, and we have 
to do more in terms of recruiting.
    General McCaffrey has just gotten back. He has made an 
observation that we are in a race against time in terms of 
getting it right in Iraq with our force, that he sees stress on 
the force, and that time is not on our side. General Myers, 
what would your answer be to that observation?
    General Myers. I actually outbriefed General McCaffrey 
after he came back, I asked to see him. He said several 
interesting things, and I think some of them seemed to be 
misperceived a little bit. One of the things he said that I 
thought was good is that morale is terrific. Talking about a 
``broken Army'' that we hear from time to time--this is a great 
Army. This is the best Army, the best Armed Forces this planet 
has ever seen.
    General McCaffrey through his visit at least, that was his 
observation as well.
    He does worry and he has worried from right after September 
11, I think, when we first went into Afghanistan, that to 
sustain this war we need larger ground forces. I think the way 
that the Joint Chiefs and the Department have addressed this is 
increase the size of the Army by 30,000--and increase modestly 
the size of the Marine Corps--but also addressed all sorts of 
other internal efficiencies that could make our forces more 
accessible. That is what Army modularity is all about.
    I do not know that folks that are not actively involved in 
these processes understand them fully or understand what they 
are going to bring to the table, but I think that it is really, 
really important that we continue our transformation across all 
our Services, so we have the availability of these terrific 
forces for contingencies either current or potential.
    Senator Graham. Transformation helps recruiting, retention, 
and capacity to fight, is that correct?
    General Myers. Absolutely, I think everything we do in that 
regard is part of it. It relates back to Senator Thune. I think 
BRAC is part of it; our overseas posture is part of it. It all 
goes hand in hand. Overseas posture, for instance, one of the 
tenets that the United States Army had when it thought about 
its overseas posture and its stateside posture was if we can 
get more families back to the United States, where we can have 
more stability with spouses and children, that this is going to 
increase retention.
    So it all goes hand in glove.
    Senator Graham. One last question. Is there anything that 
we are not doing on the Hill to help you win this war that we 
could be doing?
    Dr. Chu. If I might, Senator, it is not that you are not 
doing it, but I would like to join my colleagues in advocating 
your continuing to speak out, just as you have done in these 
last few minutes, about the value of military service, about 
the importance of military service. As the President said in 
his speech, it is the highest form of public service. Just 
continuing to offer that message to the American people is one 
of our most powerful and most effective recruiting tools.
    Chairman Warner. Senator, do you want another question?
    Senator Graham. No, thank you.
    Chairman Warner. We will now go into another round of 
questions. It looks like the distinguished ranking member and 
myself are here together. This has been a good hearing. We have 
had a very valuable exchange of information, and I just want to 
dwell for a minute on this issue of transformation. I am among 
the strongest of the proponents to have this transformation, 
but we must not take on that difficult task at a rate that in 
any way would impede our effort to finish achieving the goals 
in both Iraq and Afghanistan. Better that some aspects of it be 
stepped back in time to allow the full resources and energies 
of the Department to be devoted to bringing about the 
achievement of the goals, namely to establish a situation of 
security such that the new governments of Afghanistan and Iraq 
can have a footing to establish for their people a measure of 
freedom and democracy. I hope that those that are pacing this 
keep that in mind.
    Second, General, the first Gulf War was a remarkable feat 
of arms and strategy. We repelled the Iraqi forces in 100 
hours, 100 hours, through the extraordinary professionalism of 
a coalition of forces, primarily led by the United States, and 
utilizing the equipment that we had at hand at that time of an 
unexpected event, namely Iraq invading Kuwait.
    I think it left us all with a sense of enormous pride, but 
maybe a bit overconfident as we undertook the second phase of 
conflict with Iraqi forces. I will leave that to history.
    My recollection is that the HMMWV was in the inventory at 
the time of the first Gulf War, but I am not sure to the extent 
any of those units were employed in that battle.
    General Schoomaker. Sir, the HMMWV was there. We did not 
even have a term of ``up-armored HMMWVs'' in those days. They 
were all unarmored, and there were scores of them involved.
    Chairman Warner. In that operation?
    General Schoomaker. Yes, sir.
    Chairman Warner. That is the point I wished to make. You 
talk about the Army that you took to this battlefield and the 
shortage of the up-armored HMMWVs and the dramatic pace with 
which we armored them. Now, presumably the QDR will begin to 
look at this inventory of weapons today and try and project 
beyond the conflict in both Iraq and Afghanistan what the 
threats are in the world that could call upon our forces to be 
involved somewhere else, in a different battle at a different 
time. We might have to revert to the fact that the up-armored 
HMMWV, which loses a degree of mobility, which is an important 
factor in any warfare, and suddenly we have to revert to the 
HMMWV as it was originally designed.
    I have to assume that at the time that the HMMWV was 
designed the best minds were put to work on it and the best 
minds looked at the projected scenarios of battle and, as you 
say now, it was used and used successfully in its original 
configuration in the first Gulf War. Now that we have been 
faced with the second Gulf War, and we had to make a dramatic 
right turn in terms of trying to rework this vehicle, first 
using whatever armor we could put together, I suppose, to 
create the category threes, then slowly category two, and now 
we have the evolution of this fully armored HMMWV from the 
ground-up in design and manufacture.
    General Schoomaker. Sir, if I could add. That is why we 
have the strategy that we do. We are now building only the 
heaviest HMMWVs, in other words the 1151s, 1152s, which are the 
heaviest version, strongest engine, strongest transmission, 
strongest suspension. That is what we are going to do as we go 
forward.
    Second, only a portion of these HMMWVs will be manufactured 
to the level one specification, because those are the ones that 
you cannot remove the armor from. Most of our HMMWVs in the 
future we will build to the level two. The reason is because 
you can remove that armor and put it back into the 
configuration that you are describing, so that we can extend 
the life of these suspensions, engines, and transmissions, and 
then put that armor on so that--it is basically snap-on, snap-
off--providing the same degree of protection where that armor 
is that a level one HMMWV would provide.
    Chairman Warner. That is something we have to focus on, 
because I do not want to sit here, if I am privileged to be 
here many years hence, and be confronted with an entirely new 
panel of witnesses--the same Senators, a new panel of 
witnesses--and we are going back through how the equipment for 
that conflict, whatever it may be--hopefully we will not have 
one, but if we do--and testimony to the effect that we just 
simply did not have the right equipment to meet that 
contingency.
    General Schoomaker. Mr. Chairman, if I could add another 
thing about the first Gulf War. It is not having to do with 
HMMWVs, but you might remember that the 7th Corps of the United 
States Army was one of the major corps that was in that fight. 
That corps was being disbanded at the time the first Gulf War 
broke out, and it was saved by the first Gulf War and then 
disbanded after that fight.
    When we entered the first Gulf War, we had an Army of over 
700,000 soldiers, 200,000 more than we have today. It was 
during that process that we started bringing it down. There are 
many, many differences about what we went into that fight with 
and what we entered this fight with.
    Chairman Warner. On a totally different matter, but one 
that is of great importance to this committee, we had last 
week, a series of briefings and hearings really on the status 
of forces of the Iraqi training program. General Petraeus--
chief, you were here. The committee desires to ask the 
Department of Defense--we have done it in different ways, but I 
am going to formalize a letter to the Department, that I will 
acquaint you with Dr. Chu and General Myers. We feel very 
strongly that we need to declassify to the extent we can, the 
status of forces of the Iraqi trained force today. What is its 
readiness, comparable to whichever benchmarks you wish to make, 
because the American taxpayer put a tremendous investment in 
that retraining and equipping. I think they are entitled to 
understand, because from that base of facts as to their degree 
of readiness we can better translate where we are in terms of 
hopefully providing them with trained individuals and the 
equipment to eventually replace our forces.
    I think that information should be in the public domain. 
There is a great deal of discussion about when we can achieve 
the goals that our President, I think courageously, has 
established. But that is an integral set of facts needed for 
any reasonable translation of how we can achieve those goals.
    I would like to now go to the question of the improvised 
explosive devices (IEDs). We continually monitor this very 
important issue here in the committee. I would like to start 
with you, General Hagee. We have through the past 2 years 
really followed the progression, first of the procedures 
adopted by the Department of Defense--they now go to the Joint 
Task Force. General Votel is the head of it.
    I want you to describe what has been the structure of the 
Marine Corps addressing this issue, which I think you have done 
very effectively. Is that structure still performing as you 
intended it to perform, or is it to be more fully integrated 
into the Joint Task Force? I know that it chops to the Joint 
Task Force now, but it seems to me there is a measure of 
independence the Marine Corps has had, using their own 
initiatives and innovations, and I really want to hopefully 
protect that.
    General Hagee. I am sorry, Mr. Chairman. I did not 
understand the first part of the question regarding the 
structure.
    Chairman Warner. I am trying to look at the structure of 
the various entities within the Department of Defense 
addressing the serious issue of the IEDs, namely what are we 
doing by way of research and development; what is the private 
sector doing; how quickly are we getting the equipment into the 
field, because it is the IED which is the focal point, frankly, 
of so much of the concern among the American population with 
regard to their young people going into this series of 
conflicts in Iraq and Afghanistan.
    We understand General Votel's structure. We were briefed on 
it. He was before us. But the Marine Corps has been doing some 
independent, innovative work on their own in conjunction with 
the Joint Task Force, and I ask you, is that still functioning 
to your satisfaction?
    General Hagee. First off, Mr. Chairman, yes, sir. It is 
still functioning. We are working very closely with not only 
the Joint Task Force, but with the individual Services, because 
we are obviously all in this together. There in the Al-Anbar 
Province we have the 155th Brigade. So we are all concerned 
about the IEDs.
    At the same time, we are also using our engineering 
expertise to try to come to solutions, and when we do, just 
like with the Army, we share that with either the Service or 
the Joint Task Force or both.
    I can also say that we are working with several of our 
coalition partners who have had experience with IEDs to find 
out what they have learned, and they are sharing their 
information with us.
    So am I satisfied with the process? Yes, sir, I am. What I 
am not satisfied with is the speed at which our scientific and 
engineering community--and I know they are working hard--are 
coming up with new technologies to address this problem.
    Chairman Warner. That would be the private sector that you 
are concerned about--or the in-government entities? What is the 
community to which you refer?
    General Hagee. Sir, I would say all of the above. Not that 
they are not working hard, but we are just not coming up with, 
in my opinion, the technologies that we need rapidly enough, 
for example technologies that would allow us to locate the IED, 
some sort of sensor that would allow us to locate that IED 
rather than having to physically see it; technologies that 
would allow us to set that IED off before we even got there.
    The academic community is working on it. The scientific 
community is working on it. I know the Defense Advanced 
Research Projects Agency (DARPA) is working on it, but we have 
not had significant success yet, and I would just ask those 
communities, urge those communities, to continue to work on 
them.
    Chairman Warner. I just want to make sure that you are 
satisfied that the work being done in the Corps continues, and 
it can be done to the extent--working with everybody, but 
nevertheless you can come up with your own ideas and implement 
them; is that correct?
    General Hagee. Sir, I am very satisfied with that, and I 
have to say I am satisfied with the effort that the other 
communities are putting into it, too.
    Chairman Warner. I thank you. I just have to tell you from 
a little personal experience that during the Korean War someone 
in the Marine Corps had the foresight to develop what was 
called the ``Mickey Mouse boot.'' It was a thermal boot. It was 
an ugly-looking thing and it was tough to wear and difficult to 
handle, but it saved Marines from frostbite. The Army units 
next to the Marine units suffered four times the cases of 
frostbite as did the Marines because they did not have that 
boot; they still had the old World War II boot.
    I have always been very respectful of what the Corps can do 
on its own initiative sometimes, and I saw that firsthand.
    General Schoomaker, the National Guard and the Army Reserve 
rely on prior service soldiers to a great extent, who have the 
training and experience needed to fill the ranks. Increased 
reliance has been placed in recent years on non-prior service 
recruits. The failure or inability of these individuals to 
complete their enlistments seems to be of growing concern.
    How big a problem is attrition in the active Army, Army 
Reserve, and National Guard?
    General Schoomaker. Sir, it is a challenge. The Guard and 
Reserve have long relied upon soldiers that are leaving the 
Active service to fill their ranks, and of course we are 
growing the Active Force, retaining more, so that adds to their 
challenge.
    I would say across all of the Active, Guard, and Reserve 
that first-term attrition is something that we keep a very 
close eye on, and we remain very concerned about any spikes in 
that. We have seen a little rise in it, specifically in the 
initial entry training. Part of the reason for that in my 
opinion is we have ratcheted up, necessarily, the rigor in the 
initial entry training because of the things we have to 
introduce at that stage because of the war that we are in.
    But what we have seen is a corresponding decrease in 
attrition in their first units of assignment. We are hoping as 
we watch this trend a little bit longer that what we are going 
to see is a balancing and a maintenance of about what the 
traditional norms have been. I would like to see it go down, 
but you are right. Maybe Dr. Chu has a broader view of it.
    Chairman Warner. Do Dr. Chu or Secretary Abell have any 
comment on that?
    Dr. Chu. Attrition, sir, has long been an issue with the 
military forces. We lose about a third of an enlisted cohort 
before it completes its normal term of service. About half of 
that typically occurs in the initial training period. Each 
Service has advanced some innovative ideas of how to deal with 
this issue. We are all eager to see better outcomes here.
    Charlie, did you want to add a word or two here?
    Mr. Abell. Yes, sir, it is an enduring problem. We have 
searched for solutions. They are fleeting. We find one and then 
another pops up. I think the increased rigor is what accounts 
for the spike we are seeing right now.
    Chairman Warner. I thank you.
    On the subject of the Army and Marine Corps capabilities 
and acquisition programs, although the Army and Marine Corps 
have different missions and capabilities, there are shared 
concerns and competencies. We have seen, however, that the Army 
and the Marine Corps have divergent paths for acquiring 
equipment, such as helicopters and heavy wheeled vehicles. What 
are your views regarding the joint development and acquisition 
of Army and Marine Corps equipment? I will start with you, 
General Myers. Do you wish to address that? You are in charge 
of the jointness.
    General Myers. You bet. It is an issue of course that we 
look at. I think the forum for that, as it is in all of this, 
is our Joint Requirements Oversight Council (JROC) that looks 
at the requirements that the Services have and ensures to the 
maximum extent that is practical and reasonable that we share 
the same sort of equipment.
    The best example that is coming along right now is the 
Joint Strike Fighter (JSF), which is going to be shared by 
three Services. When this comes to fruition, it will be the 
first time we have had an aircraft of such commonality that it 
can operate off carriers, off land bases, and have a short 
field takeoff capability that would satisfy one of the 
components.
    Absolutely, it is something that is very important to us. 
We have recently looked at trucks, for instance, you may be 
referring to trucks. Trucks is one of the areas where the 
Marine Corps and the Army have had different procurement paths, 
but I will let them explain what they are doing to merge those.
    Chairman Warner. All right, then we will start with you, 
General Schoomaker.
    General Schoomaker. Sir, I will talk to it from two 
perspectives: one as Chief of Staff of the Army; and also as a 
former combatant commander of a joint command, U.S. Southern 
Command (SOUTHCOM). So I am quite familiar that we have to have 
both some separate views, because we have some separate 
realities. For instance, the Marine Corps has to operate its 
helicopters off of ships and so they have some very specific 
requirements to be able to operate off of those ships. For 
instance, rotor brakes to stop the rotor blades, and the 
ability to fold those rotor blades so that they can economize 
on the space on the deck. Those are not requirements in Army 
aircraft. Those are expensive additions that we do not require 
and therefore we do not build.
    So we have--going from that level of reality to the fact 
that the Marine Corps has a requirement for amphibious 
vehicles, and I am talking about amphibious vehicles that come 
out of a salt water environment, that we do not have. So there 
are some differences in how we build trucks, how we build our 
tracked vehicles, and those kinds of things.
    We do have commonality in things like HMMWVs we have 
commonality in artillery pieces. We have commonality in a 
variety of weapons systems that we share. Not only that, but 
the Marine Corps and Army soldiers train at Fort Knox together 
on tanks. We train together at Fort Leonard Wood, and I believe 
at Fort Sill, for instance, in artillery.
    I think that we have some pretty good economies going on 
here and we are working together.
    Chairman Warner. What you are saying is indigenous 
differences between the missions and the equipment have to 
reflect that. What I want to leave with is the assurance that 
you think the proper balance is being struck between the need 
to get as much commonality as we can for cost savings, spare 
parts, maintenance, training, and at the same time we are 
respecting those differences.
    General Schoomaker. I think that is a true statement. I 
will go back to the IED question. The IED task force was an 
Army initiative and we developed that to a point. After about a 
year, we went to the DOD and asked for them to provide kind of 
top cover so we could make it a joint program. It is a joint 
program. All of the Services participate, but the Army 
maintains the same degree of independence as what you just 
talked about in the Marine Corps to operate in our specific 
lane for things that are specific to our needs. Yet we share 
those in that forum with each other.
    Chairman Warner. Can you wrap up, Commandant?
    General Hagee. Sir, I would just align myself with both you 
and the Chairman.
    Chairman Warner. Understood.
    Senator Levin.
    Senator Levin. I want to go back to the HMMWV issue and the 
article in the New York Times last Sunday, which had a lot of 
allegations and statements which it seems to me need to be 
addressed. I want to insert that article into the record now.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Levin. ``The Army did not give up,'' it reads, ``on 
trying to speed production by involving more armor makers. 
Brigadier General Patrick O'Reilly said that several armor 
companies were eager to be part of a plan to produce armored 
HMMWVs entirely on the AM General's assembly line. In January, 
when it asked O'Gara''--that is the manufacturer--``to name its 
price for the design rights for the armor, the company balked 
and suggested instead that the rights be placed in escrow for 
the Army to grab should the company ever fail to perform. 
`Let's try this again,' an Army major replied to the company in 
an e-mail message. `The question concerned the cost, not a 
request for an opinion.' ''
    Now, the cost that he was referring to there was what would 
be the cost of obtaining the design rights for the armor so 
that we could produce HMMWVs a lot more quickly. They never got 
the cost from the O'Gara company.
    Then the article reads: ``The Army has dropped the matter 
for now, General O'Reilly said, adding that he hoped to have 
other companies making armor by next April.''
    So, General Schoomaker, is that accurate?
    General Schoomaker. Sir, number one, I have not read the 
article. Number two, I have no direct knowledge of what you are 
talking about. I heard just before the hearing, and had an 
explanation, that there was some discussion about whether 
O'Gara-Hess would release the copyright or whatever the rights 
so that other people could produce the armor, but I could not 
comment on the accuracy of that.
    Senator Levin. Does anybody know the answer to that? 
General, do you know the answer?
    General Myers, have you read the article, the Sunday New 
York Times front page article?
    General Myers. Senator Levin, I have not read that article, 
no, sir.
    Senator Levin. I must tell you I am a little bit surprised. 
It is a major newspaper. It is a front page article that goes 
into massive detail about the armor failings. This is a huge 
article on the subject, and I would urge that you read the 
article and that you give us an answer for the record. I will 
address this to you, General Schoomaker, and ask that you give 
us an answer for the record as to whether or not it is true 
that the Army sought to purchase the design rights so that we 
could produce the up-armored HMMWVs a lot more quickly, so that 
we could protect our troops, and that the company balked. If 
that is true it would be very disturbing to me, that they would 
put profit ahead of patriotism. I say, if that is true. I do 
not want to judge it before we get the Army's answer and before 
we get the answer from the company.
    It is a very serious statement here. We are talking about 
life and death issues here, and I hope everybody that is either 
in this room or realizes what the motivation is here of these 
questions and questioners in trying to get to the bottom of 
what the shortfalls were in armor. There are a lot of changing 
needs and requirements. We understand that. There was not 
planning for a violent aftermath. We understand that. It is a 
moving train, we understand that.
    But, factoring all that in, you still have allegations in 
this article that a company refused to license someone else to 
produce the armor which would protect our troops. That is, if 
true, if true, simply not acceptable.
    General Schoomaker, we would rely on you and General Myers. 
I guess I will look mainly at General Schoomaker for this, 
although you may want to also give us an answer for the record.
    General Schoomaker. Sir, it is proper that Secretary 
Bolton, our acquisition executive, provide it for the record 
and we will get that, because we are the executive on this.
    [The information referred to follows:]

    On January 5, 2005, the Army requested O'Gara-Hess and Eisenhardt 
(OHE) to submit a cost proposal for procurement of the Up-Armored High 
Mobility Multi-purpose Wheeled Vehicle (HMMWV) Level III Technical Data 
Package (TDP) with unlimited data rights. OHE was advised that this 
request was being made for informational purposes only; however, that 
the government's intent was to obtain a price for a TDP complete enough 
for any firm to manufacture the current M1114. In addition, OHE was 
requested to provide, along with the cost proposal, a timeline for 
providing a complete competitive TDP.
    On January 14, 2005, Anthony Crayden, OHE, provided an informal 
response to the government's request for a Level III TDP cost proposal. 
In their response, OHE voiced their concern about proprietary rights, 
but did propose an escrow arrangement for the government to acquire the 
TDP data. The government response requested a cost proposal; however, a 
formal cost estimate was never received from OHE.
    The Army is no longer pursuing the purchase of the M1114 TDP as our 
production of the M1114 will end in the February 2006 timeframe as we 
transition to a long-term armor strategy for the M1151 and M1152.

    Senator Levin. All right. Let me ask you, General Hagee, 
did you read the article?
    General Hagee. I have read the article, sir.
    Senator Levin. Here is what the article says about the 
Marine Corps. It says: ``Asked why the Marine Corps is still 
waiting for the 498 HMMWVs that it ordered last year, O'Gara 
acknowledged that it told the Marines that it was backed up 
with Army orders and has only begun filling the Marines' 
request this month. But the company says the Marine Corps never 
asked it to rush. The Marine Corps denies this.''
    Did you ever ask O'Gara to rush this order?
    General Hagee. Sir, when we requested those 498 vehicles we 
knew that the company was producing vehicles for the Army. The 
United States Army gave us 498 vehicles with the proviso that 
once we got our vehicles that we would return those vehicles to 
them.
    Senator Levin. But the question is, did you ask O'Gara to 
rush production?
    General Hagee. I will have to take that for the record, 
sir. I do not know.
    Senator Levin. Would you do that?
    [The information referred to follows:]

    The Marine Corps Systems Command has made multiple requests of 
O'Gara-Hess to expedite production of M1114s. More specifically, during 
September/October 2004, Barry Dillon, Deputy Commander, Marine Corps 
Systems Command spoke with John Mayles, O'Gara-Hess Vice President for 
Business Development regarding this matter. Mr. Dillon contacted Mr. 
Mayles for confirmation of production levels and for available 
forecasts of first available delivery for the Marine Corps of the 
M1114s. Mr. Mayles confirmed first deliveries would be June/July 2005.

    Chairman Warner. Excuse me, Senator. On that point, the 
Senator and I will be forwarding a letter to the Secretary of 
Defense that we would like to have the Secretary review this 
article and make comments on it as to its accuracy for the 
committee. So we will be formally requesting it. The article 
struck us as being a very comprehensive review, and it took 
several positions which we would like to have the DOD have the 
opportunity to give its perspective.
    Senator Levin. It is a highly disturbing article. Let us 
leave it at that. We need to get the answers from the 
military's perspective and from the company if they want to 
comment on that. I would suggest that the letter that we write 
to the Secretary of Defense, that we send a copy of that letter 
to the company so that they can also comment on that, because I 
must tell you, when we have defense contractors we expect that 
they will put patriotism ahead of profit. They can license 
others to produce these vehicles and to armor them, and if they 
were asked to do that and refused to do that then I think they 
have a lot of explanation, as far as I am concerned, to a lot 
of families in this country.
    I am going to leave it at that because I want to hear from 
them and give them a chance to respond.
    Now, General Schoomaker, I want to ask you about the 
readiness numbers. We have testimony this morning from General 
Hagee relative to the Marine Corps. I do not know if this was 
in his prepared statement, and I do not think that these 
numbers were used in your oral testimony, but if they were I 
will repeat them here so you can give us your comparable 
numbers.
    This is on the bottom of page 3--``Current operational 
tempo has had an impact on unit readiness. Since the beginning 
of Operation Iraqi Freedom, overall unit readiness for 
battalion and squadron sized units has dropped by 40 percent. 
Our readiness priority remains support and sustainment of our 
forward-deployed forces, at the immediate expense of those 
units who have rotated out of Iraqi Freedom. As a consequence, 
the readiness of the force not deployed has decreased.''
    Is that true also in the Army?
    General Schoomaker. I would say yes, sir. I think that is 
an accurate statement. I do not know--I cannot sign up to the 
percentage. That is the Marine Corps's percentage. But I will 
be glad to give it to you for the record.
    Senator Levin. I think it would be very important that we 
have that in the record. It seems to me that is--I was not here 
when Senator Reed was asking questions, but I think that is 
clearly the point here, that the unit readiness has dropped 
because of the reasons which were given here. But nonetheless, 
they have dropped.
    So my question to you, General Schoomaker, is this: Has the 
percentage, without giving me the specific percentage because 
you do not know, of the units in the Army at the highest 
readiness level decreased overall?
    General Schoomaker. I will have to give you that for the 
record, but my belief is our Army is more ready than it was 
before.
    Senator Levin. I understand that, but I want to know in 
terms of these----
    General Schoomaker. I will have to give it to you for the 
record.
    [The information referred to follows:]

    A temporary decline in measured resource levels after redeployment 
is normal and expected. Declines are primarily due to equipment losses, 
the unavailability of equipment undergoing maintenance, and personnel 
transitions. Along with resetting returned units, the Army is also 
transforming units into brigade-based modular, combined arms teams that 
increase Army capabilities for full spectrum operations. The increased 
number and conversion of brigades to more capable Army modular force 
designs is placing additional demands on the Service for both equipment 
and personnel. Units reporting against Army modular force 
organizational structure may initially report lower readiness levels 
(due to increases in ``denominators'' for equipment and personnel), but 
are as capable, or more capable, than they were before conversion.

    Senator Levin. We do keep readiness levels. We get them 
every quarter. We do it for a reason. We have gotten readiness 
information from the Army, from the Marine Corps, and the 
information that we have is that the overall readiness levels 
have dropped. That is the information we have. If that is not 
right, we have to know. That means the information that you 
have sent us is wrong.
    Now, the Marine Corps has given us a specific percentage. 
But the reports that we got from either the DOD or the Service 
is that the overall readiness of both the Army and the Marine 
Corps has declined over the past year. I am not asking you for 
the specific numbers. I am asking you whether the percentage of 
the highest ready units has dropped, and that is something you 
will give us for the record.
    General Schoomaker. Let me answer it this way and then we 
will give you the specific percentages. We have more units than 
we had 2 years ago, more brigades.
    Senator Levin. That is why I am asking percentage. That is 
why I am asking percentage.
    General Schoomaker. Of those brigades, we have taken some 
of them totally off line to reset them. So I would say the 
answer is yes, the readiness level has dropped that way, but we 
actually have more capacity and that capacity is far more ready 
than the capacity that we had previously.
    We will give you the numbers. I think it is a true 
statement to say that the war and transformation and everything 
else we are doing, the movements we are doing, have dropped the 
percentage of readiness. But what we have ready is very ready, 
and we can deal with what it is that we have been asked to deal 
with.
    Senator Levin. So the percentage that is ready is very 
ready, but overall the number of units that are very ready has 
dropped?
    General Schoomaker. Correct.
    Senator Levin. That is helpful. It is reassuring, but it is 
helpful to get a direct answer on that.
    Now, our staff was briefed last week about the 
prepositioned tanks and Bradley Fighting Vehicles that we would 
use in the event of combat in Korea that are fully mission-
capable. Apparently a significant percentage of the 
prepositioned tanks and fighting vehicles that we would use in 
such an event are not fully mission-capable; is that correct?
    General Schoomaker. First of all, we ought to talk about 
that in a different hearing or a closed session.
    Senator Levin. That is why I did not use the percentage.
    General Schoomaker. Let me say this generically. We are 
doubling the size of that prepositioned stock. We are taking 
what is there and putting it through depot level reset so that 
it is very ready.
    Senator Levin. I got that, I got that. But my question is 
whether or not a significant percentage of the prepositioned 
tanks and Bradley Fighting Vehicles that we would use in that 
event are not fully mission-capable. That is my question.
    General Schoomaker. Once again, it depends upon whether 
your baseline is what we are growing to or what we used to 
have. If you are talking about what we used to have, there is 
no change. If you are talking about what we are growing to, the 
percentage would be less because we are doubling the size of 
the stock.
    Senator Levin. Then we need to get both figures.
    General Schoomaker. Yes, sir.
    [The information referred to follows:]

    The information contained in this response is classified and was 
provided in a briefing on July 21, 2005, to committee staff.

    Senator Levin. Okay. General Myers, the President said the 
other night that as Iraqis stand up, we will stand down in 
Iraq. That was his statement. So irrespective of when troop 
reductions may occur, I would like to know what the decision 
criteria are, since he announced a very specific path relative 
to, as Iraqis grow in capability, we will stand down.
    Here is my specific question. How many Iraqi battalions, 
approximately, will need to be judged capable of operating 
independently of U.S. forces for the standing down to begin? 
There has been a statement in the press that 3 Iraqi battalions 
are fully capable out of I believe 80. Putting aside the 
accuracy of that--and that may be a classified number; that is 
why I quote a press statement--what percentage would you say of 
the Iraqi units will need to be capable of acting independently 
and operating independently in order for the standing down to 
begin? Give us a rough estimate, since the President laid out 
that path?
    General Myers. I think it is going to depend on where we 
are, in what part of the country. It goes back to General 
Casey's strategy, which I think he outlined partly in here, 
that as the Iraqis stand up and given the conditions in the 
part of the country you are talking about, it will enable some 
of this to happen faster than later. I am going to have to go 
back to General Casey and look at what his estimate would be, 
if there is a percentage we can put on that.
    The fact is we want to have 100 Iraqi security force army 
battalions ready. I do not have the chart in front of me, but 
it is somewhere over 30 that are ready to do that today. One of 
the problems we have with the chart you have seen before is 
that there is some ambiguity about what the various readiness 
ratings mean, and we are busy trying to make sure that it is 
sharp and clear, that it makes sense to you, and that it makes 
sense to the American public, if that is appropriate to 
declassify and get out to them.
    There is a lot of ambiguity about what those ratings mean. 
I have had long discussions with General Abizaid and General 
Casey about that. The plan is that we will stand up over time. 
Events will drive that, of course, but we will stand up over 
time as Iraqi units become more capable. It will depend on what 
part of the country they are in and the specific units. I have 
a pretty good sense of that, but to try to make a percentage 
out of it, we have not calculated it that way so I do not want 
to make a guess here.
    Senator Levin. I think it would be very important that we 
get some material that would support that kind of a policy, so 
that there is some meat on the bones. It is one thing to say as 
Iraqis stand up we are going to stand down. But I would assume 
that that is based on a military calculus that as the direction 
of the Iraqi units are standing up and there are more that are 
mission-capable, that we will be removing forces. I assume the 
President had some kind of a military basis for his statement. 
I would like to know what that basis is, what it is based on, 
and what those criteria are, if you could supply those for the 
record.
    General Myers. You bet. It is based on General Casey and 
General Abizaid's strategy and it is----
    Senator Levin. You can provide that for the record? Can you 
give us some detail?
    General Myers. We will try to do that, yes, sir.
    [The information referred to follows:]

    [Deleted.]
    MNF-I is now working with the Iraqi Prime Minister through a joint 
committee to transfer security responsibility. This ongoing process 
will refine the conditions necessary to transition security 
responsibility from coalition forces to the ISF.

    Senator Levin. Thank you very much. General Hagee, in terms 
of the HMMWVs and the Marine Corps, I think what you have said 
is your goal is that they all be ones and twos. The Army's 
position is that there is going to be a group of vehicles which 
are going to have the armor which is bolted on the sides, so 
that it can be unbolted in more routine environments.
    Are the Marines going to change to that strategy, which 
means there is going to be some threes.
    General Schoomaker. Sir, the vehicles that we will build at 
O'Gara-Hess, you cannot snap the armor off. That is solid.
    Senator Levin. You are going to make it so you can snap the 
armor off, but you are going to keep the underbody strong?
    General Schoomaker. That is correct.
    Senator Levin. Are the Marines going to shift to that 
strategy, or are you going to change to your making them all 
ones and twos?
    General Hagee. Sir, we are looking very closely at what the 
Army is doing with the 1151s. I personally believe that we need 
to go to a bolt-on, bolt-off type of configuration. I would 
like to see us go to some composite type of material in the 
future, rather than using the same type of armor we are using 
right now. But bolt-on, bolt-off I believe is the way to go.
    Senator Levin. Thank you.
    One last question, Mr. Chairman, with your indulgence here. 
Dr. Chu, what is the current Department policy about calling up 
members of the Guard and Reserve after they have been mobilized 
once?
    Dr. Chu. Let me emphasize the difference between units and 
individuals, because individuals change in units, so we may see 
units called up a second time even though individuals are not.
    Second, let me emphasize that every mobilization decision 
is carefully scrutinized by the military department involved, 
by the Secretary's staff, and by the Secretary himself to be 
sure we have the right balance of meeting the combatant 
commanders' needs in the appropriate way and ensuring we do it 
with the most thoughtfulness about our people.
    That all said, with one exception, the Secretary has not 
been prepared to approve the remobilization of any individual 
involuntarily who has already served his or her time in 
theater. He has on occasion, when there is a compelling case 
for that skill, approved the remobilization of individuals who 
have served briefly in the United States. This typically 
involves units that were called up right after September 11 or 
units called up, for example, to support the 4th Infantry 
Division that did not go into Iraq as planned, and those people 
were demobilized promptly thereafter.
    I should also emphasize that we are always delighted when 
people volunteer for additional mobilization. I am actually 
very proud of our Reserve Forces in all the Services about the 
number of volunteers that have, in fact, come forward in this 
process.
    Senator Levin. So as I understand your answer, then, with 
one exception, did you say? Did I hear you correctly, the 
report was one exception to the rule?
    Dr. Chu. There is, to the best of my recollection--and I 
will let Mr. Abell check my recollection--only one exception 
where the Secretary approved the remobilization of individuals 
who had already served their time in theater.
    Senator Levin. Where they did not volunteer?
    Dr. Chu. When they did not volunteer, that is right.
    Senator Levin. Was that a unit or was that individuals?
    Dr. Chu. That was a unit and it was composed of individuals 
who had already served.
    Senator Levin. One unit which was called up involuntarily. 
Other than that, unless people volunteered to be called up, 
after they have been mobilized once there is no involuntary 
mobilization a second or a third time?
    Dr. Chu. Let me be more precise, sir. The Secretary has 
approved remobilizations for units that were called up briefly, 
units and individuals called up briefly, served in the United 
States and demobilized. The one exception I am speaking to is 
people, a unit and individuals, who went to Central Command, 
served in Central Command, came back, were demobilized; that 
unit was remobilized.
    Senator Levin. So let me see if I understand this. The one 
exception you are talking about is where a unit had been--there 
is more than one exception for units that have been briefly 
mobilized in the United States; they have been remobilized 
involuntarily. But in one case where a unit served in theater, 
they also were remobilized. Have I stated that correctly?
    Dr. Chu. You did, sir. I would emphasize that the number of 
times that we have remobilized involuntarily individuals who 
served briefly is small.
    Chairman Warner. What is the parameters of ``small''?
    Dr. Chu. I would have to give the exact numbers for the 
record, sir, but it is a small proportion of the total, less 
than 10 percent.
    Senator Levin. Does that mean just a few times, a few 
units, or a small proportion?
    Dr. Chu. It is both a small number of units and it is not a 
large number of people, either.
    Chairman Warner. You will provide the specifics for the 
record, then.
    Senator Levin. That would be great. Thank you so much.
    [The information referred to follows:]

    To ensure judicious and prudent use of the Reserve components, the 
Department of Defense employs a very rigorous process to authorize 
remobilizations. Voluntary remobilizations are encouraged and approved 
by the Secretary. Fewer than 260 personnel from elements of the 4th 
Marine Division who previously served in Iraq were involuntarily 
remobilized to support continued combat operations. Additionally, 
involuntary remobilization of individuals have included only members 
who either previously served in the continental United States providing 
force protection or who served at the mobilization station, and that 
total represents less than 1 percent of the total forces mobilized.

    Chairman Warner. I say to the panel, we have had a very 
good hearing and we leave this hearing with the understanding 
that some of the solutions rest on Congress to help you in 
terms of your recruiting, and hopefully the American public. I 
commit to you, as I am sure all of us will, to give it our best 
effort, because I do not know who could say it better than the 
President: the highest public service is that of those who wear 
the uniform. I think he probably meant the first line of 
fighters also here, our fire and police and others, but 
certainly wearing the uniform is the highest form of public 
service.
    Anyone else have any comments that they feel they should 
like to make for this record? [No response.]
    If not, thank you very much, the hearing is adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                        NATIONAL CALL TO SERVICE

    1. Senator McCain. Secretary Abell, I agree with General Pace. Our 
military leadership must do more to encourage our young people of 
America to serve. The National Call to Service (NCS) is one way to 
attract 17-22 year olds for shorter periods of military service with a 
considerable lump-sum payment to pay college tuition costs. In addition 
the legislation allowed for transition incentives if the NCS enlistee 
stays for longer periods of military service. Secretary Abell, we 
worked together to craft the final legislation that was approved by the 
President. Current DOD statistics show that fewer than 3,000 people 
have been recruited under this program since it was authorized in the 
National Defense Authorization Act for Fiscal Year 2003. In addition, 
various college surveys still list as a major detractor for military 
service the long enlistment contracts--8-year enlistment contracts--for 
first term enlistments. Please update the committee on the NCS 
enlistment program and should we do more to encourage military service 
through this program--as General Pace and I believe?
    Mr. Abell. The Department of Defense initiated the NCS enlistment 
option on October 1, 2003, with all four Services participating. 
Although the program is new and it is too early for evaluation, we are 
pleased with its beginning and are enthusiastic about the program. It 
is offering young Americans an opportunity to serve in the military who 
would normally not serve due to the length of traditional enlistments. 
Additionally, NCS is helping the Reserve components by providing high 
quality servicemembers with current Active-Duty experience.
    The Department recruited 1,916 NCS participants in fiscal year 
2004. Through June 2005, the Department has recruited 2,435 young 
Americans under this enlistment option: 108 in the Army, 1,938 in the 
Navy, 145 in the Marine Corps, and 244 in the Air Force.
    The Army's relatively low number is mitigated by two factors. In an 
effort to study the impact of NCS on the enlistment of high-quality 
youth, the Army originally limited the program to 10 recruiting 
battalions. However, in May of this year they opened the program 
nationwide. Additionally, the Army is finding that most who meet with 
recruiters concerning NCS opt for a longer enlistment when they see the 
more lucrative incentives offered for such enlistments.
    As for doing more to encourage military service, we welcome any 
assistance in our efforts to explain the virtues and nobility of such 
service to the American public, regardless of whether it is under the 
NCS program or any other enlistment option.

                        RETENTION AND RECRUITING

    2. Senator McCain. General Schoomaker and General Hagee, as a total 
force, recruitment numbers have been down. Despite this month's 
figures, the Army has missed their recruitment goals by nearly 8,000. 
The Marines are still struggling. Guard and Reserve numbers are off by 
15,000. What are your Services' plans to try and rectify these 
recruiting difficulties?
    General Schoomaker. The Army developed and implemented a recruiting 
action plan in August 2004 that increases resources across all Army-
controlled recruiting ``levers.'' Those levers include the number of 
recruiters, incentives, and advertising funding. Resourcing has 
increased across all three components. We have also leveraged solid 
retention efforts to offset accessions shortfalls. Progress is 
continually monitored and adjustments are made accordingly. Recruiting 
difficulties are of national importance and not just an Army issue. The 
lower propensity to serve that we are currently challenged with, is a 
product of the improving economy and lower unemployment, in addition to 
possible public perceptions regarding the global war on terrorism. 
These factors induce negative feedback from influencers of potential 
recruits.
    General Hagee. The Marine Corps has thus far exceeded its accession 
requirement for fiscal year 2005, shipping 24,936 compared to a goal of 
24,491 as of the end of June 2005 (102 percent of the requirement). We 
have fallen short of our self-imposed contracting objective (those 
applicants that enter the Delayed Enlistment Program) 30,227 compared 
to a goal of 31,181 (97 percent of the objective). As we all know, this 
reflects a tougher environment. On a positive note, aside from meeting 
our accession requirement, quality has continued to be above our 
standards with 95.80 percent of our accessions being high school 
graduates and 70.70 percent falling within the Mental Group Category I-
IIIA. We continue to attract the highest caliber of individual.
    We have taken a series of measures to include increasing our 
advertising funding, addressing advertising efforts on key influencers, 
and reviewing our processes. We will meet our fiscal year 2005 
accession requirement, and foresee continued challenges in recruiting 
for fiscal year 2006.

                        JUNIOR OFFICER RETENTION

    3. Senator McCain. Secretary Abell, General Myers, General 
Schoomaker, and General Hagee, in a recent New York Times article, West 
Point graduate Lucian Truscott, the grandson of a World War II General, 
reported on the growing issue of junior officer retention. He found, 
time and again, that many had decided to resign from Active-Duty at the 
end of their commitment. One said: ``I'm getting out as soon as I 
can.'' Another young man who has seen duty in Bosnia, Afghanistan, and 
Iraq said: ``I know I'm going to be coming back here a year from now. I 
want to get married. I want to have a life. But I feel like if I get 
out when my commitment is up, who's going to be coming here in my 
place? I feel this obligation to see it through.'' These statements 
highlight some unique issues. Our constant deployments, many of which 
are a year in length, are beginning to wear on the force. I applaud 
this second young man's apparent desire to see this conflict through, 
but understand that he may still choose to leave the service. The first 
officer's statement though, if it is at all representative, greatly 
concerns me. I know that many servicemembers have spent more than 1 
year deployed as a result of this war on terror, and while I know it is 
difficult, if not impossible, to reduce the deployments at this time, I 
encourage you to consider what can be done to retain these combat 
experienced junior officers and would appreciate your comments on this 
issue.
    Mr. Abell. The Army is currently exceeding junior officer retention 
historical norms, and junior officer retention in the other Services is 
not experiencing any adverse effects. Nonetheless, the demand for 
forces to support operations in Iraq and Afghanistan makes reducing 
stress on the force one of the Department's highest priorities. We are 
employing a two-pronged strategy to attempt to reduce the requirement 
for forces, while at the same time increasing the efficiency in the 
supply of forces that are called upon to deploy.
    The strategy to reduce the requirement for forces--and reduce the 
stress on the force--includes efforts to develop the Iraqi capacity to 
conduct police and other security tasks; to seek increased 
international military participation in Iraq; and to increase 
actionable intelligence to disrupt attacks on coalition forces and 
other threats to security. The increasing efficiencies in the current 
force include such initiatives as increasing jointness to gain synergy 
and lethality, rebalancing the Reserve and Active component mix, 
realigning skill sets to meet higher demand areas, better management of 
mobilization and demobilization, more efficient use of contractors, 
better use of volunteers and incentives to extend deployments, and 
more.
    Through a combination of efforts to reduce demand, and increased 
efficiencies in the supply of forces, we seek to keep stress on the 
force within acceptable levels. We continue to monitor recruiting and 
retention metrics closely to ensure solid progress is achieved, and our 
focus will not be diminished as long as demand for forces remains high.
    General Myers. Current stresses on the force are significant and 
will remain so for the near term. Although we would like to retain 
every officer and enlisted member who has served our Nation proudly, 
reality is that some of our best and brightest will make a decision 
that they have performed their service and depart to become valued 
members of our civilian community. Right now, indications are that we 
do not have a retention problem with our junior officers--they remain 
within historical standards. However, we will never take this good news 
for granted and will continue our efforts to make the military a 
profession of choice. We also offer new accessions a compensation and 
benefits package that is competitive with the civilian sector. In the 
end we'll appeal to our junior officers that although we place heavy 
demands on them and their families, the stakes for our national 
security couldn't be higher and there has never been a more important 
time to serve. We will also continue to ensure that our junior officers 
receive the best education, training, and leadership opportunities 
available; provide them challenging jobs with opportunities to excel 
and advance; and ensure they know that their service to our Nation is 
valued and essential during this time of war.
    General Schoomaker. The Army has analyzed junior officer attrition 
behavior and is implementing programs to retain our highly motivated 
and combat experienced officers. Company grade attrition for fiscal 
year 2005 is projected to be 8.1 percent which is below the historical 
average of 8.4 percent. The Army is planning to offer a menu of 
multiple incentives to each officer upon promotion to captain. The top 
retention incentive for these officers, from our most recent officer 
survey, is full time attendance at graduate school. Based on this 
input, the Army is expanding graduate school opportunity from 400 to 
1,000 seats per year. This will help retain our young officers 
returning from combat, educate them in needed areas such as Middle 
Eastern Studies and provide an operational break. The second most 
desirable incentive is monetary. The Army is considering providing 
across the board continuation pay in return for an obligation to extend 
Active-Duty service. However, continuation pay for Army officers 
requires a legislative change in the National Defense Authorization Act 
for Fiscal Year 2007. The Navy is currently using continuation pay for 
surface warfare officers and the Army desires similar authority for its 
junior officers. The Army is also leveraging desirable items such as 
branch, posting and stabilization to increase retention. If available, 
the Army will match the officer's desires in return for an additional 
service obligation. These incentives are low cost and may increase 
satisfaction for both the soldier and their family. A commander's 
officer retention toolkit is also being developed to assist our leaders 
in providing information about benefits, incentives, and retirement. 
Officer retention is a leadership issue and all levels within the chain 
of command are energized to keep these superb officers, who have 
performed so magnificently, in our great Army. Additionally, increased 
promotion rates and changes in career management may decrease attrition 
of junior officers. An officer now will have the opportunity to change 
career fields after 4 or 7 years of service as opposed to the previous 
decision at 10 years. This may help retention by providing an 
opportunity to change career goals and will also spread these combat 
experienced officers among all career fields.
    General Hagee. The Marine Corps is not currently experiencing a 
retention problem in its officer corps, although manpower planners 
continue to look for any indicators that would show higher attrition in 
the future. Between fiscal year 1999 and fiscal year 2003, the Marine 
Corps' overall retention rose from 89 percent to 93.8 percent. In 
fiscal year 2003, officer retention was at a 19-year high. In fiscal 
year 2004, officer retention returned to the historical average of 90.8 
percent and the Marine Corps ended the fiscal year with a 91-percent 
retention rate (9.0 percent attrition rate). With 2 months remaining in 
fiscal year 2005, the officer retention rate is at the historical norm 
of 90.8 percent (9.2 percent attrition rate). Retention forecasts for 
fiscal year 2006 indicate that the current trend will continue. 
However, should fiscal year 2006 retention drop below the desired rate, 
the Marine Corps is prepared to target specific qualifications and 
skills through both monetary and non-monetary tools. Monetary tools 
already in place include aviation continuation pay, and law school 
education debt subsidy. The Marine Corps has developed a plan to offer 
a critical skills retention bonus should it be required. Nonmonetary 
tools include lateral moves from `over' MOSs to short MOSs, 
interservice transfers, and return to Active-Duty from the Marine Corps 
Reserves. These different tools provide incentives to officers for 
continued service even in the face of significant operational tempo, 
while allowing flexibility to manpower planners to meet requirements 
across the Marine Corps total force.
    The Marine Corps Reserve is similarly not experiencing officer 
retention problems in the Selected Reserve at this time. Officer 
retention in the Selected Reserve for the first 9 months of the fiscal 
year was 84 percent, well above the historic norm of 78.8 percent. 
Reserve manpower planners continue to monitor officer retention and are 
alert for any changes to the current trend. While officer retention in 
the Selected Reserve remains strong, the Marine Corps Reserve continues 
efforts to recruit company grade officers to meet vacancies in the 
combat arms specialties. The affiliation bonus passed in the National 
Defense Authorization Act for Fiscal Year 2005 remains a strong tool in 
assisting in this effort.

                      ARMY PERSONNEL END STRENGTH

    4. Senator McCain. General Schoomaker, in this year's submission of 
the Army budget, the total end strength proposed for the next several 
years is 482,400. Congress has approved and the President authorized an 
increase of 20,000 with temporary authority given last year to add 
another 10,000. What disturbs me and many members of this committee is 
the Army's apparent desire to fund only the 482,400 in the base budget. 
As we continue to debate the overall size of the Army, including 
another 20,000 we will vote on this year in the 2006 Defense 
Authorization Bill, when can we expect the Army to begin to budget for 
these increases in the base budget, rather than relying on 
supplementals?
    General Schoomaker. The Army programs its payroll budget to end 
strength guidance provided by OSD. The DOD is currently reevaluating 
force structure requirements for the Army and all Services as part of 
the QDR. At this time, the Army has not received instructions to budget 
for a base force beyond 482,400.

    5. Senator McCain. General Schoomaker, additionally, we have been 
briefed that the Army intends to keep as many as 10,000 on Active-Duty 
using Stop Loss. With this war continuing to impact both retention and 
recruitment, do you foresee a time in the near future when the Army can 
begin to reduce and potentially limit the use of Stop Loss?
    General Schoomaker. The focus of Army deployments is on trained and 
ready units, not individuals. Stop Loss is the policy that effectively 
sustains a force which has trained together, to remain a cohesive 
element throughout its deployment. Consequently, the commitment to 
pursue the global war on terrorism and provide our combatant commanders 
with the cohesive, trained, and ready forces necessary to decisively 
defeat the enemy, require us to continue the Active Army and Reserve 
Component Unit Stop Loss programs currently in effect. Stop Loss is not 
about numbers, it is a temporary measure that does not permanently 
affect the Army's end strength and has not been a key planning element 
in determining or growing the force.
    We fully understand DOD guidance to the Services is to discontinue 
Stop Loss policies as soon as operationally feasible. However, there is 
not a specific end date for the Army's current use of Stop Loss. The 
size of future troop rotations will in large measure determine the 
levels of Stop Loss needed in the future.
    Maturation of the Army initiatives of modularity, restructuring/
rebalancing the Active component/Reserve component (AC/RC) force mix, 
and the stabilization criteria associated with converting units to 
their force stabilization design (3-year life cycled managed units) 
will, over time, alleviate much stress on the force and will help 
mitigate Stop Loss in the future. The proposed smaller overseas 
footprint associated with fixed long and short tours, coupled with 
reduced deployment requirements, will also reduce the need to fully 
employ the Army's Stop Loss policy.
    Clearly, Stop Loss is an issue with soldiers that are affected. 
Although a small number of soldiers have gone public over their concern 
with Stop Loss, it appears the great majority of soldiers affected 
understand the need to keep trained, motivated, and cohesive teams 
together. All three components are doing extensive surveys and sensing 
sessions with our soldiers to get their feedback and insights. To date, 
there has been much discussion of concerns over issues such as 
deployments and family stress; however, Stop Loss does not appear to be 
an overbearing retention issue.

    6. Senator McCain. General Hagee, the Marine Corps is not using 
Stop Loss at this time. How do you work around the need to retain unit 
cohesiveness during deployments without using Stop Loss?
    General Hagee. We maintain unit cohesiveness without the use of 
Stop Loss through the management of our personnel assignments. The 
Marine Corps Teaming initiative assigns entry-level school graduates to 
their new units in groups from the same graduating class. Our junior 
officers and staff noncommissioned officers are assigned to maximize 
their time in the unit with the goal of a minimum of two deployments. 
Our senior commanding officers are selected by a Command Selection 
Board and assume command prior to the unit pre-deployment workups. 
Finally, the Deputy Commandant for Manpower and Reserve Affairs has 
completed an extensive personnel analysis and, beginning in October 
2005, our current 90-day stabilization deadline for marines being 
assigned to their deploying units will be increased to 120 days. 
Overall, the unit cohesion program is accomplishing its goal of keeping 
intact teams of marines who have trained and fought together as a 
combat-ready force. The Marine Corps views Stop Loss as an extreme 
measure to increase forces rapidly, as was needed for Operation Iraqi 
Freedom I, not as a tool for sustaining the force to meet current 
global war on terrorism needs.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                       ARMY FUTURE COMBAT SYSTEM

    7. Senator Inhofe. General Schoomaker, the Army is trying to 
modularize, modernize, recapitalize, reorganize, and fight a war all at 
the same time. Many people don't believe we have the resources to do 
all this at once and that the Army will fall short. I have a concern 
that as we focus on our current force we will lose focus on the future 
force. The Army has canceled over 29 systems in the last 4 or 5 years 
leaving them with one major system for the future: the FCS. There has 
been a lot of discussion about the FCS and the Army's ability to 
deliver manned ground vehicles (MGVs) meeting the current costs and 
schedule, and most importantly, with the kind of survivability and 
lethality required for future combat. Are you confident in the Army's 
ability to deliver the FCS set of MGVs without shortcomings in 
survivability and lethality, in accordance with the current costs and 
schedule?
    General Schoomaker. I share your concern that we cannot lose focus 
on the needs of the future Army. The Nation faces a period of prolonged 
and persistent global conflict. While we cannot predict the future, we 
know that future enemies will seek to deny us the positions of military 
advantage that we have used successfully in the past. We will require 
improved survivability, lethality, sustainability, maneuverability, and 
situational awareness. We must provide our soldiers with the tools they 
need so that they never face a fair fight. With the help of Congress, 
the Army has moved out to restructure the Army to grow the capability 
that our soldiers need in today's fight and provide for the capability 
that future environments will demand. By the end of fiscal year 2006, 
we will have grown the Army combat capability by nearly 10 brigades and 
reorganized it into a more deployable, lethal, and joint capable force. 
Adaptable soldiers and leaders are already demonstrating the improved 
capabilities of the current modular force on the battlefield. The FCS 
strategy provides the material component of the modular force 
capability as our central modernization effort. Our ability to spin-off 
technology into the modular force as it matures accelerates our 
modernization. I am confident that we are on glide path to deliver the 
FCS set of MGVs as a key component of the system of systems capability 
that the FCS strategy is providing. MGV tests are on track and 
demonstrating today the range of capabilities that we seek. 
Capabilities such as the 120-millimeter lightweight cannon, the Non-
Line-of-Sight Cannon (NLOS-C) and the 3D-millimeter cannon are but a 
few examples. The 120-millimeter lightweight line-of-site cannon is 
doing very well in test firings at Aberdeen Proving Ground (APG), 
Maryland. A breach-mounted mortar is also test-firing at APG, while the 
NLOS-C is firing at Yuma Proving Ground, Arizona. The 3D-millimeter 
cannon for the infantry vehicle is the same weapon that will be used by 
the Marine Corps and Navy and is undergoing type classification of 
munitions today. There are various active protection systems, close-in 
active protection systems being developed and tested. Some of them are 
successfully bringing down rocket propelled grenades right now. If you 
look at the unmanned aerial vehicles, the class-four Fire Scout is 
successfully flying right now for the Navy and the Army, and the first-
generation of underground robots, known as UGBs, the PacBot, is being 
used in Afghanistan to search caves and in Iraq to identify IEDs. We 
have developed a flexible and adaptive strategy designed to sustain the 
current force and meet the emerging threats of the future. We are on 
schedule and with the continued support of Congress we will maintain an 
Army capable of accomplishing today's missions and field a future force 
well prepared to meet future challenges.

    8. Senator Inhofe. General Schoomaker, will this family of vehicles 
give you that leap-ahead capability the Army desires?
    General Schoomaker. We are a nation in the first stages of a 
prolonged global conflict. Our enemies are adaptable and will 
undoubtedly seek to avoid our strengths and exploit our weaknesses. We 
believe for instance that future enemies will seek to deny us the 
positions of military advantage that we have used successfully in the 
past. As we look to the capabilities that we seek for the future 
modular force, we have identified some capability gaps in our current 
capability that we seek to fill with our modernization effort. The FCS 
strategy encompasses all aspects of technological modernization of the 
Army to provide projected gains in survivability, lethality, 
situational awareness and reduction of operating and maintenance costs 
while reducing the logistical footprint. I am confident that we are on 
glide path for the FCS strategy and the MGVs to give us the leap-ahead 
capability that we will need for the current and future modular force.

                        RECRUITING AND RETENTION

    9. Senator Inhofe. General Schoomaker and General Hagee, one of the 
most interesting comments I have heard lately came from General Casey 
when asked about recruiting and retention. He said: ``We have never had 
to recruit an all volunteer Army during a long shooting war before.'' 
He went on to say we are learning as we go. General Casey also pointed 
out, and I find very interesting and quite heartening, is that 
retention amongst soldiers who have been deployed to Iraq and 
Afghanistan is at a higher rate than those who have not deployed. This 
tells me that those soldiers get it. They understand what we are up 
against, understand the enemy, and understand our mission--its value 
and importance. Secretary Hall was in my office recently and we talked 
about recruiting and retention. In the past the saying was ``you 
recruit a soldier and you retain a family''. Admiral Hall pointed out 
that now we need to recruit the family in many cases. Negative media 
reports and constant criticism that undermines the perception of 
support for our troops seem to be having a very negative affect on our 
ability to recruit. As the numbers indicate, once the soldier or marine 
sees first hand what we are accomplishing and why we are there, he 
understands what needs to be done and why it is so important. The 
numbers seem to support this. Army retention is about 104 percent of 
your goal in all components--Active, Reserve, and National Guard. 
Marine retention is also on or above the goals set. However, both the 
Army and Marine Corps have had trouble recruiting new members. What are 
we learning about recruiting an Army and Marine Corps during a shooting 
war?
    General Schoomaker. The global war on terrorism, lower propensity 
to serve, and negative feedback from influencers, coupled with the 
improving economy and lower unemployment rates, have combined to 
present a very challenging recruiting environment. We are finding that 
it takes more resources to maintain our forces and expand them, than we 
ever anticipated. To offset these challenges, the Army has increased 
its resources dedicated to recruiting. However, we reiterate that 
today's youth have a broad set of opportunities to choose from. These 
choices do not necessarily include serving as a soldier. This is not 
only an Army issue, but more importantly, a national issue. We must 
communicate to today's youth that service to our Nation remains 
critical for the Nation's security and well-being. As Army and national 
leaders, we must ensure that today's youth fully comprehend how 
important and rewarding service to our Nation can be for them and their 
country.
    General Hagee. What we are learning about recruiting during a 
shooting war is the importance of ensuring our recruiters have the 
tools to reach out to family members and community leaders who 
influence the decisions of those interested in military service. 
Recruiting is affected by much more than media reports and criticism. 
We have learned that it takes much more time and effort to recruit 
marines in the current environment. More important today is the active 
role of the influencers in the decision making process. We have made a 
conscientious decision to ensure they are part of our process.

    10. Senator Inhofe. General Schoomaker and General Hagee, how do we 
transfer the positive can-do attitude that our veteran soldiers and 
marines possess into the minds of our young men and women so that they 
understand and desire to serve?
    General Schoomaker. The key point is communication. The Army is 
diligently working to get our message out to the public and the 
Nation's youth. We are doing so in several ways, such as advertising 
and through our soldiers and our leaders. We shape our advertising 
messages for the Nation's youth and influencers to address the value of 
being a soldier. We are also providing more recruiters to the 
accessions effort. In addition, soldiers are currently dedicated to 
assisting recruiters in their hometowns and local communities. This 
program is called the Special Recruiter Assistance Program. These 
soldiers, as well as many of our recruiting force, are veterans of 
Operation Iraqi Freedom and Operation Enduring Freedom. Our soldiers 
are doing very well in communicating to the public. We also appreciate 
America's leaders' continued support in speaking on behalf of, and with 
our soldiers, the proud service they perform on a daily basis. 
Developing and strengthening the can-do attitude and desire to serve 
remains a national issue.
    General Hagee. We are all painfully aware the recruiting 
environment is extremely challenging right now for all of us. We 
aggressively capitalize on all available resources, to include our 
veteran marines in the community. The Marine Corps will continue to 
send only the best-qualified marines to serve on recruiting duty. These 
highly-qualified marines will be tasked with seeking out and enlisting 
the best and brightest of our young Americans. They will represent the 
Corps' best.

                             MEDIA AND IRAQ

    11. Senator Inhofe. General Schoomaker and General Hagee, for a 
very long time I have been concerned about the media's reporting of 
what is going on in Iraq. In my trips there, I have found that the 
whole story is not being portrayed. The positive results of our 
military's work and the hard work of the U.S. Government as a whole to 
restore freedom to Iraq has been trampled over by reporters more 
focused on trying to find ways to diminish the work our young men and 
women are doing there rather than portraying a balanced view by 
reporting on the many key successes they have accomplished.
    Before one of my previous trips, I was fortunate to come across an 
article in World Tribune.com written by Lieutenant Colonel Tim Ryan, a 
battalion commander with the First Calvary Division in Iraq. He led 
troops into battle in Fallujah late last year and was involved in 
security operations for the recent election. I also spoke to this 
courageous, dedicated American soldier. Being on the ground in Iraqi 
hot spots, he is best able to reflect what is actually occurring there. 
Listen to his words: ``The key to the enemy's success is use of his 
limited assets to gain the greatest influence over the masses. The 
media serves as the glass through which a relatively small event can be 
magnified to international proportions, and the enemy is exploiting 
this with incredible ease. There is not good news to counteract the 
bad, so the enemy scores a victory almost every day.''
    I could go on and on. I am disturbed that soldiers like Lieutenant 
Colonel Ryan do not feel we are winning the public relations war. He is 
right. Distorted, negative news both here at home and in the Middle 
East score victories for the insurgents.
    Last Thursday, we heard very much the same story from Secretary 
Rumsfeld, General Myers, General Abizaid, and General Casey. Opinion 
polls are showing that more Americans are questioning our operations 
over there, and I think that's due in large part to the biased media 
coverage.
    We've just started to hear that our troops are beginning to ask 
whether the American public has the will to support them in their noble 
efforts. Are you beginning to hear these questions from your soldiers 
and marines?
    General Schoomaker. Due to modern communications technologies like 
the Internet, today's deployed soldiers have more access to information 
from home than any soldiers in our Nation's history. Today's deployed 
soldiers know how critical our current military operations are to the 
future security of the United States; therefore, when they see news 
stories about recent polling showing any erosion of support in American 
public opinion, they are naturally concerned and have expressed those 
concerns to me.
    General Hagee. First, I'd like to thank you very much for your very 
strong and extraordinary support to our men and women in uniform. Our 
marines, sailors, soldiers, and airmen know full well that you are 
behind them. It's very important for our marines to know that the 
American public is behind them also and I don't think that's in 
question. The marines I've talked to know that the American public 
appreciates their sacrifice in serving our great Nation and understand 
the great effort being put forth to assist Iraqis in establishing 
security in their country. There is no shortage of people who actively 
show support for our troops and the fight against terrorism with notes 
and care packages sent to the troops, scholarships for family members, 
support for our injured servicemembers, grassroots fundraisers, benefit 
functions, family appreciation events, and much more. Our deployed 
marines certainly recognize and appreciate this outpouring of support. 
Nevertheless, our marines are not oblivious to the fact that all 
segments of the American public do not support the political goals of 
the government that has sent them into harm's way. They also understand 
that Americans are perfectly justified in disagreeing with the means by 
which their government attempts to achieve its goals, which is the very 
freedom our troops will fight to the death to protect for others. I 
have not seen any indication that our troops don't believe the American 
public supports them. However, our marines, sailors, soldiers, and 
airmen are, after all, human beings with hopes and dreams of their own. 
They want to know that the American people are behind the government 
that is sending them into harm's way. 

    12. Senator Inhofe. General Schoomaker and General Hagee, is there 
concern about the American public's support?
    General Schoomaker. The support of the American people is vital to 
the ultimate success of our ongoing military operations. When our 
soldiers deploy, they are confident that the American public, 
regardless of their differing political views, supports every soldier 
working to protect the citizens of this great Nation on a daily basis.
    General Hagee. First, I'd like to thank you very much for your very 
strong and extraordinary support to our men and women in uniform. Our 
marines, sailors, soldiers, and airmen know full well that you are 
behind them. It's very important for our marines to know that the 
American public is behind them also and I don't think that's in 
question. The marines I've talked to know that the American public 
appreciates their sacrifice in serving our great nation and understand 
the great effort being put forth to assist Iraqis in establishing 
security in their country. There is no shortage of people who actively 
show support for our troops and the fight against terrorism with notes 
and care packages sent to the troops, scholarships for family members, 
support for our injured servicemembers, grassroots fundraisers, benefit 
functions, family appreciation events, and much more. Our deployed 
marines certainly recognize and appreciate this outpouring of support. 
Nevertheless, our marines are not oblivious to the fact that all 
segments of the American public do not support the political goals of 
the government that has sent them into harm's way. They also understand 
that Americans are perfectly justified in disagreeing with the means by 
which their government attempts to achieve its goals, which is the very 
freedom our troops will fight to the death to protect for others. I 
have not seen any indication that our troops don't believe the American 
public supports them. However, our marines, sailors, soldiers, and 
airmen are, after all, human beings with hopes and dreams of their own. 
They want to know that the American people are behind the government 
that is sending them into harm's way.

    13. Senator Inhofe. General Schoomaker and General Hagee, is this 
negative media coverage one of the reasons we're struggling with 
recruiting numbers in your branches?
    General Schoomaker. The media coverage has accentuated the 
negative, and we know a lot of good that is being done by soldiers goes 
unreported. To the extent that the news media focus on military 
casualty information, there is a negative impact on recruiting. We 
believe that influencers, such as parents, may hesitate to support 
their child's decision to enlist because of the perceived risks of 
injury and death.
    General Hagee. Today's environment is challenging for recruiting. A 
number of factors contribute to the environment such as: current 
operations, world events, increasing the recruiting numbers, and an 
improving economy. Specifically, we have seen an increase in the amount 
of time it takes to enlist an individual. This additional time is spent 
working with both applicants and their parents, addressing the 
opportunities and benefits of serving in the Marine Corps. It would not 
be fair to say that negative media coverage has solely affected our 
recruiting numbers. Although the media has continued to cover the role 
of the Marine Corps in the current global war on terrorism, the 
American people, to include the media, have always recognized the 
Marine Corps as a tough, smart, elite organization and marine 
recruiters continue to sell that same message today.

    14. Senator Inhofe. General Schoomaker and General Hagee, how are 
we combating this negative media coverage in the recruiting office?
    General Schoomaker. We are taking proactive steps to provide 
alternative sources of information in recruiting offices to mitigate 
negative media coverage. For example, we provide monthly talking points 
down to the recruiting station level, on a variety of topics, and take 
special care to include talking points about positive progress in Iraq 
and Afghanistan. We also forward the Headquarters, Department of the 
Army's ``Stand To'' newsletter to our brigades and battalions, for 
forwarding to the recruiting companies and recruiting stations. Our 
very best means to counter misinformation is our soldiers themselves. 
We use soldiers who are Operation Enduring Freedom and Operation Iraqi 
Freedom (OEF/OIF) veterans in the Special Recruiting Assistance Program 
by bringing them to our recruiting stations to share their first-hand 
experiences within the local community. Further, an overwhelming 
majority of our detailed recruiters are now OIF and/or OEF veterans. We 
are also planning a series of televised local townhall meetings across 
the country. We will bring together small panels of soldiers of various 
backgrounds (officer, noncommissioned officer, enlisted) and parents of 
soldiers to answer audience questions about the Army and what it means 
to be a soldier.
    General Hagee. As previously stated, we have not seen significant 
negative media coverage of the Marine Corps or the marines fighting the 
global war on terrorism. The coverage has shown the realities of how 
tough this fight is and the sacrifice that is required. Well before the 
events of September 11, 2001, our recruiting message was and continues 
to emphasize that marines are trained to fight and win against our 
country's foes. We remain confident that this message will continue to 
resonate allowing us to continue to succeed in recruiting marines that 
are needed to fight and win while the country is at war.

                        RECONSTITUTION OF FORCES

    15. Senator Inhofe. General Myers, General Schoomaker, and General 
Hagee, I am concerned about the capabilities of our military units who 
have been engaged in Operations Enduring Freedom and Iraqi Freedom and 
those units getting ready for the next contingency as they rotate back 
to their home bases. Many units will return to their home units without 
the equipment they took to the war because that equipment was still 
needed in theater by the men and women coming to replace the troops who 
were rotating out. So there will be no equipment or less equipment to 
train with once they are back at their home station; or, they will be 
bringing home equipment that underwent untold stress operating in the 
Southwest Asia environment, in some cases with regular servicing 
inspections delayed or waived in the interest of the mission. We need 
to ensure ongoing training so that our military can maintain its 
readiness for the next contingency. What is the DOD's plan to meet 
these shortfalls or limitations in equipment needs?
    General Myers. The Services, in coordination with the Joint Staff, 
are continuously developing return and/or replacement plans for 
military equipment in theater. When feasible, equipment transfers or 
reimbursements are taking place between units relinquishing equipment 
to units taking possession upon arrival in theater. Where equipment 
shortages exist due to operational wear and replacements are scarce, 
the Joint Staff is assisting in the prioritization of requirements to 
return and/or replace equipment from several sources, such as pre-
positioned stocks, to mission-ready condition without sacrificing the 
necessary training of deployable forces.
    General Schoomaker. As units redeploy from the theater of 
operations, the Army will continue to reset the force to meet future 
requirements. The goal is for all returning Active-Duty units to 
achieve a sufficient level of combat readiness within 3 months of 
equipment arrival at home station. When equipment shortages exist, the 
Army is reallocating equipment from lower priority units or from 
current production, if available, to fill voids. Replacement of 
equipment is imperative to ensure the units will be able to train for 
future deployments.
    Active component units undergoing modular transformation are 
provided 180 days to complete their reconstitution and reorganization 
to ensure a return to high readiness. Reserve component units will 
likely take longer to achieve the desired readiness level. The working 
assumption is that Reserve units will take 1 year to reestablish pre-
deployment readiness after equipment returns to home station. Our 
Reserve component formations are experiencing a little personnel 
degradation upon their return home station; therefore, efforts are 
being implemented to reorganize them into modular units and supply 
sufficient equipment for these units to provide depth to our available 
forces.
    Readiness involves three essential components: people, equipment, 
and training. It is only by addressing our soldiers' needs, 
reconstituting our organizational equipment, reorganizing and training 
to standard on our collective combat tasks that units will return to an 
acceptable readiness level. The goal is to culminate these intensive 
reconstitution efforts by conducting a certification exercise at one of 
the combat training centers. By adopting such an aggressive approach, 
the Army will continue to ensure its ability to meet the combatant 
commanders' near-term requirements.
    Further, both the U.S. Army Forces Command and the National Guard 
Bureau are in the process of redistributing equipment to ensure the 
proper amounts and types of equipment are available to permit training 
to standard. They are also cooperating to ensure our governors have 
adequate equipment on-hand to support our homeland security, homeland 
defense, and military support to civil authorities responsibilities. In 
addition to the intense maintenance efforts by Army installations, Army 
Reserve and Army National Guard maintenance organizations, the Army 
Material Command has an aggressive depot maintenance program to rebuild 
and refurbish equipment that was stressed beyond its useful life. 
Finally, funding for new equipment as replacement or to support 
modularity is providing much needed modernization for our aging fleets.
    General Hagee. The Corps remains engaged to address the shortfalls 
of Marine Corps units. The Strategic Ground Equipment Working Group 
(SGEWG) was established in August 2004 to specifically engage this 
issue; membership includes representatives from the Marine Forces 
(MARFOR), Logistics Command, Systems Command, Combat Development 
Command, and Programs and Resources Department, and the individual 
Marine Expeditionary Forces. The charter of the working group is to 
take action on equipment readiness issues for the Marine Corps. To 
date, the SGEWG has formally met on five different occasions to address 
these specific equipment deficiencies for units returning to CONUS.
    The SGEWG has initiated the following actions to source MARFOR 
deficiencies:

    1. Cross-leveling. Business rules were developed based on input 
from the SGEWG members and the MARFORs. They are:

    For Active Component units:

        Priority 1 units (within 6 months of deploying to global war on 
        terrorism)

                Goal--equip to 90 percent of Table of Equipment

        Priority 2 units (all other units)

                Goal--equip to 75 percent of Table of Equipment

    For Reserve component units:

        Priority 1 units (within 6 months of deploying to global war on 
        terrorism)

                Goal--equip to 100 percent of Table of Allowance

        Priority 2 units (all other units)

                Goal--equip to 85 percent of Table of Allowance

    Marine Forces Pacific and Marine Forces Atlantic each published 
internal cross-leveling guidance based on the SGEWG business rules. 
Both MARFORs are currently executing. The business rules are recognized 
as goals and in many cases cannot be met due to equipment availability/
density. The intent is to ensure that units have the equipment 
necessary to conduct training to prepare them for their next rotation 
into the theater. MARFORs submitted shortfalls by priority unit on 15 
Nov 2004. The SGEWG continues to explore and develop executable 
sourcing solutions for the MARFOR shortfalls.
    2. The individual MARFORs have conducted internal redistribution in 
order to support the training of units within a 6-month deployment 
window.
    3. Some of the identified equipment shortfalls were sourced through 
the fiscal year 2005 supplemental. Any known unfounded requirements 
will be requested via the next funding opportunity as appropriate.

    The Marine Corps will continue to address deficiencies across the 
Corps to ensure that all units have the capability to conduct training 
in order to prepare their marines for current and future operations.

    16. Senator Inhofe. General Myers, General Schoomaker, and General 
Hagee, yesterday at his nomination hearing to be the Chairman of the 
Joint Chiefs of Staff, General Peter Pace estimated that it would take 
upwards of 2 years from the conclusion of U.S. operations in Iraq to 
reconstitute. What would you ask of this committee to ensure our 
military is reconstituted to prepare for future threats?
    General Myers. The Joint Staff would ask Congress to fully support 
requested funding, including supplemental funding, in order to fully 
reconstitute our equipment and facilitate the Department's preparation 
for future threats.
    General Schoomaker. We greatly appreciate the understanding and 
support of the committee in providing supplementary funding for the 
global war on terrorism. Supplemental funding has been the key to 
maintaining readiness and provisioning throughout the fight. Continued 
support of the base budget and supplemental requirements is necessary 
to maintain the required state of readiness to prosecute the global war 
on terrorism.
    General Hagee. The Marine Corps has prepared preliminary resetting 
the force estimates and we have been briefing the committee staff on an 
ongoing basis as to those evolving requirements. I concur with General 
Pace's estimation that it will take at least 2 years after the 
conclusion of operations in the Area of Operations to reconstitute. I 
ask for the committee's continuing support of our supplemental funding 
requests in which we have begun to address our resetting the force 
requirements. Replacement and repair of equipment that has attrited or 
is rapidly approaching the end of its useful life due to the high 
OPTEMPO and harsh environmental conditions in both Iraq and Afghanistan 
are critical if the Marine Corps is to maintain unit readiness, restore 
our prepositioned stock, and conduct adequate pre-deployment training.

    17. Senator Inhofe. Secretary Chu and Secretary Abell, as a follow-
up to my previous question on equipment status, how has the global war 
on terrorism impacted the readiness status of the personnel themselves?
    Dr. Chu and Mr. Abell. Our soldiers and marines are currently 
better prepared and ready than at any time in our recent history. They 
are battle hardened, combat tested, and able to accomplish the missions 
asked of them. There are certain occupational areas that do require 
specific attention, e.g., military police, civil affairs, and Special 
Operations Forces, where more capacity is needed. The Department is 
addressing this need with several initiatives to include rebalancing 
the force between the Active and Reserve Forces, conversion of military 
to civilian positions to free up more military personnel, and joint 
solutions where each Service can contribute in non-traditional areas to 
ease the stress on the force and even the workload among the Services.

    18. Senator Inhofe. Secretary Chu and Secretary Abell, what will it 
take to reconstitute these smart, competent, and dedicated service men 
and women?
    Dr. Chu and Mr. Abell. As experienced service men and women return 
to their home stations after deployment, they are able to share the 
valuable knowledge and experience they have gained with new 
servicemembers coming into the Service and with those preparing to 
deploy. They will provide valuable leadership within the tactical units 
as well as experienced trainers to support the combat training centers 
and the Joint National Training Capability. This will allow the 
Department to maintain a high level of competency and proficiency 
across the force.

    19. Senator Inhofe. Secretary Chu and Secretary Abell, what 
concerns can we expect, regarding reconstitution, and how do we best 
prepare to address these concerns?
    Dr. Chu and Mr. Abell. All of the Services have developed 
executable plans to ensure forces returning from current operations are 
reconstituted and postured to ensure continued support for our current 
and future operations. For example, as brigades return from Operation 
Iraqi Freedom/Operation Enduring Freedom, the Army is transitioning 
them into the new modular Brigade Combat Team structure. The brigades 
then go through a cycle of maintenance and training to prepare them for 
future operations. The Services are moving to a new force management 
model: the Air Force Air Expeditionary Force, the Naval Fleet Response 
Plan, and the Army Force Generation Model. This will improve the 
ability of our forces to respond and to reconstitute once have done so.

                              BUDGET NEEDS

    20. Senator Inhofe. General Schoomaker and General Hagee, this 
question is not designed to erupt into a turf battle; however, it may 
invoke such a response. The land combat component of the joint force is 
currently under tremendous stress. These rotations in Iraq and 
Afghanistan as well as numerous other smaller operations around the 
world are very costly possibly jeopardizing future modernization. Are 
we adequately funding your Service?
    General Schoomaker. Congress has been very supportive of Army 
requirements throughout this period of tremendous stress. Supplemental 
appropriations have funded incremental costs associated with military 
operations, sustained our transformation efforts, and allowed us to 
begin to reset our force. Your continued support will be essential. In 
addition to funding the costs associated with rotations to Iraq and 
Afghanistan, we estimate we will require continued supplemental funding 
to reset for the force for at least 2 years beyond the end of the 
conflict.
    General Hagee. To a degree we have been able to protect our future 
modernization plans by requesting the repair or replacement of 
equipment attrited or damaged in global war on terrorism through 
supplemental funding. However, the unfunded bill to completely reset 
the Marine Corps to the capabilities which existed before September 11, 
2001, is growing exponentially with each passing month. This 
jeopardizes our ability to maintain funding for both essential 
modernization and global war on terrorism operations.
    It will take, in my judgment, a minimum of 2 years of supplementals 
after the cessation of operations in Iraq and Afghanistan to reset the 
Marine Corps. In the absence of such funding our modernization efforts 
would have to become the primary source for resetting the force.

    21. Senator Inhofe. General Schoomaker and General Hagee, do we 
need to increase your shares of the pie?
    General Schoomaker. Although relative Service shares of the base 
budget have remained fairly constant, the Army has received by far the 
largest share of supplemental funding. In effect, it's a bigger pie and 
the Army has an increased share at this time. Without the additional 
funding, it would be impossible for the Army to sustain military 
operations, continue the transformation to the Army modular force 
structure, and reset our force.
    General Hagee. Decisions regarding resource allocation within the 
DOD are very carefully assessed by the Office of the Secretary of 
Defense and the Joint Staff. A balanced approach has been adopted in 
that process to ensure that the most urgent needs are addressed without 
sacrificing longer term departmental objectives. The budget requests, 
including supplemental funding, the DOD submits to Congress reflect 
those decisions.

    22. Senator Inhofe. General Schoomaker and General Hagee, how 
important are the emergency supplementals you have projected for fiscal 
year 2006 and fiscal year 2007 to your ability to sustain and 
reconstitute your force?
    General Schoomaker. The fiscal year 2006 and fiscal year 2007 
supplementals will be critical to sustain military operations and to 
reconstitute the force. We will require supplemental funding to cover 
the incremental cost of military operations, our increased Active 
component end strength, and, in fiscal year 2006, our investment in 
Army modular forces. We estimate we will require continued supplemental 
funding to reconstitute our force throughout the period of conflict and 
for at least 2 years after.
    General Hagee. The fiscal year 2006 supplemental request we are 
currently developing will be critical in maintaining the resetting the 
force efforts we began with the funding received in the fiscal year 
2005 supplemental. Due to production leadtimes and the continuing 
impact global war on terrorism operations are having on our ground and 
aviation equipment, we must continue to procure replacement equipment 
to sustain current operations without further degrading training and 
readiness throughout the Marine Corps.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                           ADEQUATE EQUIPMENT

    23. Senator Collins. General Hagee, according to a Marine Corps 
Inspector General assessment of ground equipment in Iraq completed in 
May 2005, and delivered to this committee last week, Marine Corps units 
fighting in some of the most dangerous territory in Iraq do not have 
adequate weapons, communications gear, or properly outfitted vehicles. 
The report notes that because of the extensive theater in which the 
marines are operating and the specific mission for the forces, the 
standard ``T/E sets,'' or metric that determines what equipment is 
needed, is ``not sufficient for the Marine units.'' The report 
continues, ``the force requires additional capabilities in mobility, 
engineering, communications, and heavy weapons assets regardless of the 
size of any specific element of the Marine Air Ground Task Force.''
    I would like to note that throughout the report, the dedication and 
resourcefulness of our marines are repeatedly and deservedly praised. 
But in my view, we have failed them if we are not providing adequate 
long-term assessments of what resources--whether it is machine guns, 
armor, vehicles, or communications equipment--our troops need.
    Such a report should prompt a reevaluation of our efforts to arm 
and supply our troops. One fine member of my staff is in the Marine 
Corps Reserve and served a tour in Iraq this past year. I want to be 
sure that we are providing our Marine Corps and all troops with the 
resources they need to perform their duties. What measures have been 
taken to ensure that our troops have adequate communications gear, 
vehicles, protection, and weapons that they need?
    General Hagee. You are correct; the standard table of equipment (T/
E) set is not adequate. Over in the OIF theater of operations, the 
Marine Corps is not adhering to the T/E, but to the Equipment Density 
List (EDL). The EDL is a task-organized T/E that provides the operating 
force with everything they require and is based upon their mission 
analysis. That EDL is significantly more than the T/E with more than 
twice the HMMWVs and significantly more weapons and communications. The 
intent of the statement from the report was to point out this disparity 
between the way we are used to operating and how we must operate in the 
austere environment of OIF. We are supplying the marines deployed 
forward with the equipment they need to accomplish the mission--they 
validate the EDL quarterly and their requirements as the combat 
environment matures and changes, due to the opposition's emerging 
tactics, becomes the Marine Corps' priority.

    24. Senator Collins. General Hagee, are you concerned by the 
findings of this Marine Corps Inspector General report?
    General Hagee. The report validates our concerns: That OIF's 
austere, combat environment requires a greatly increased equipment list 
with increased capabilities throughout the deployed force. The harsh 
conditions and combat operations have accelerated the deterioration of 
our ground equipment. This report has provided me with an assessment of 
the effectiveness of our equipment replacement and rotation plan and 
pinpointed areas where we need to provide more support.

    25. Senator Collins. General Hagee, are you exploring how to 
implement the report's recommendations through 2006 and beyond?
    General Hagee. Yes. The Marine Corps has done and is doing the 
following:

        - Conducted a Force Setting and Equipment Conference;
        - Approved the EDL and developed sourcing solutions for OIF EDL 
        deficiencies;
        - Captured unfunded requirements for inclusion into the fiscal 
        year 2006 supplemental;
        - Developing a plan to globally source remaining OIF EDL 
        deficiencies; and
        - Sourcing the executable portion of the Principal End Item 
        rotation plan with available equipment sources. The fiscal year 
        2005 supplemental was used to source a portion of this 
        requirement; we are looking at other solutions and will address 
        this issue in the August Strategic Ground Equipment Working 
        Group conference in Albany, GA.

    MARCENT or HQMC will conduct an annual assessment of the equipment 
deployed to OIF. Further, the Marine Corps Inspector General will 
deploy assessment teams into theater every 9 months and provide a 
report on equipment condition/status.

    26. Senator Collins. General Hagee, why are we are having trouble 
adequately arming and supplying our marines?
    General Hagee. Our marines in OIF/OEF are adequately armed and 
supplied. They are the focus of effort in the global war on terrorism. 
Because of the conditions in those theaters of operation, they require 
considerably more equipment; in communications, mobility, and weapons, 
more than twice in some areas from what our units are outfitted. We 
have had to draw from forces back in garrison and from our strategic 
supplies to fully outfit our forward deployed forces. This has created 
some shortfalls back home which are being mitigated through a cross-
leveling of our assets and ensures that those units preparing to deploy 
have the equipment necessary to train.

               SERVICEMEMBERS TRANSITION TO CIVILIAN LIFE

    27. Senator Collins. Secretary Chu and Secretary Abell, a GAO 
report issued in May assesses how the U.S. Government helps 
servicemembers transition to civilian life. The report discusses the 
Transition Assistance Program (TAP), which is jointly administered by 
DOD, the Department of Veterans' Affairs, and the Department of Labor. 
The program offers pre-separation counseling, employment workshops, a 
session on veterans' benefits, and, for those in need, a session for 
disabled veterans. The report notes that improvements are especially 
needed in transition assistance services for Reserve and National Guard 
members. Given the rapid demobilization of Reserve and National Guard 
members, they participate in abbreviated versions of the program and 
generally do not have time for any employment preparation. The GAO 
report urges that DOD, Department of Veterans' Affairs, and the 
Department of Labor work together, with DOD as the lead, to improve 
outreach to members of the Reserve and National Guard. Are you familiar 
with this recent GAO report?
    Dr. Chu and Mr. Abell. Yes, the Department is familiar with the 
recent GAO Report GAO-05-544, ``Military and Veterans' Benefits: 
Enhanced Services Could Improve Transition Assistance for Reserves and 
National Guard,'' and we are taking appropriate steps to address GAO's 
recommendation.

    28. Senator Collins. Secretary Chu and Secretary Abell, how do you 
plan to implement the recommendations of this GAO report?
    Dr. Chu and Mr. Abell. The Department has formed an Interagency 
Demobilization Working Group consisting of representatives from all 
three agencies to review and assess TAP and the demobilization process. 
They will report to the senior leadership of DOD, Department of 
Veterans' Affairs, and Department of Labor with recommendations for 
implementation.

    29. Senator Collins. Secretary Chu and Secretary Abell, is DOD 
prepared to handle the growing number of former Active-Duty 
servicemembers who will need assistance from the TAP?
    Dr. Chu and Mr. Abell. Yes, the Department is committed to 
supporting former Active-Duty servicemembers who need assistance from 
TAP.

                          RECRUITING PRACTICES

    30. Senator Collins. Secretary Chu, Secretary Abell, and General 
Schoomaker, I would like to address the issue of recruiting practices. 
Let me say that I salute the fine work of our military, and I fully 
understand the importance of having a strong recruiting program to 
bring young people into our Armed Forces. However, we need to be sure 
that recruiters are not under so much pressure that they use 
unprofessional tactics to encourage young people to join. I would like 
to bring to your attention the case of a constituent of mine from 
Maine. He wrote to me that he is a firm supporter of our military and 
of our President. He joined the Army Reserve, in fact. But his 
experiences with Army recruiters were less than professional. I don't 
want to get into the details of his specific case, but I do want to 
hear your reaction to some of his allegations. My constituent wrote 
that some Army recruiters:

        <bullet> Coach potential recruits on how to best complete 
        enlistment questionnaires;
        <bullet> Promote fast weight loss programs in order to 
        encourage potential enlistees to get down to the acceptable 
        limit; and
        <bullet> Encourage cessation of drug use so that tests can be 
        passed without broader counseling or screening of illegal drug 
        users.

    This constituent concluded, ``recruiters are far more worried about 
losing a recruit than they are about getting quality persons for the 
Army. It is my opinion that the Army needs to relax the standards on 
recruits and increase them on recruiters.'' What safeguards are in 
place to ensure the professionalism of recruiters and recruiting 
practices?
    Dr. Chu and Mr. Abell. We will share your concerns with the 
recruiting commanders. We assure you that the Services take the issue 
of unprofessional conduct very seriously and have the appropriate 
safeguards in place to remedy violations and forestall future 
occurrences. Each Service has an office that provides recruiter 
oversight regarding misconduct and unethical behavior. Recruiters found 
guilty of violating the standards are generally punished under the 
Uniformed Code of Military Justice.
    Each of the Services understands the importance of recruiting with 
integrity and being professional. Each Service utilizes focused 
training, implements sound policies, and fosters a professional culture 
to instill a sense of professionalism in their recruiter force. Army 
leadership recently displayed this resolve by conducting a 1-day 
``stand down'' on May 20, 2005, for recruiters to discuss the standards 
and to reinforce their importance to the mission.
    We would be glad to investigate any specific cases you are prepared 
to share with us.
    General Schoomaker. Army values guide our recruiters to do the 
right thing when no one is looking, just as any other soldier or leader 
on the battlefield. We have an Enlisted Standards Program in place to 
maintain oversight of our recruiters and to identify trends that might 
indicate problems. We track new recruits through initial entry training 
and their performance is linked back to the recruiter who enlisted 
them. We investigate all allegations of recruiting impropriety and take 
appropriate corrective actions as needed. Since 1999, less than 1 
percent of recruiters assigned have been relieved as a result of a 
recruiting impropriety. The U.S. Army Recruiting Command held a 
command-wide Army Values Stand Down on May 20, 2005 to restate our 
commitment to achieving our recruiting mission with the utmost 
professionalism and adherence to Army values.

    31. Senator Collins. Secretary Chu, Secretary Abell, and General 
Schoomaker, are unreasonable demands being placed on recruiters to 
achieve unrealistic quotas?
    Dr. Chu and Mr. Abell. The current recruiting environment clearly 
presents a challenge for our recruiters, but we believe the demands 
placed on them are realistic and achievable. Through your continued 
support, we have been able to provide them with additional resources to 
help reduce the burden. We have found that the single greatest tool in 
reducing the demand on individual recruiters is to better man the 
recruiting force and, in response, both the Army and the Marine Corps 
have increased their recruiter manning. We will continue to monitor the 
expectations levied on our recruiters, and the resources provided them.
    General Schoomaker. Recruiting an All-Volunteer Force is 
challenging, even in the best of times. Today's environment, 
characterized by low unemployment, a decline in the propensity among 
influencers to recommend military service, and a general lack of public 
support, makes recruiting a very challenging task. We have increased 
the number of recruiters commensurate with the increase in recruiting 
goals to mitigate the demands of the mission. Given the current 
environment, the level of effort required of the individual recruiter 
is significant, but no more demanding than what is being asked of 
soldiers around the world. We are an Army at war, and we must provide 
the Army the number of new soldiers that it requires. That is our 
mission, and we can do no less.

    32. Senator Collins. Secretary Chu, Secretary Abell, and General 
Schoomaker, has the situation damaged the professionalism of our 
recruiting practices?
    Dr. Chu and Mr. Abell. Any time a recruiter violates the trust of 
his or her organization and the people they are sworn to protect, it 
calls their professionalism into question. While every infraction is 
serious, media coverage of these infractions distorts the size of the 
issue. Few news stories are written about recruiting success, or about 
the recruiters who uphold our high expectations. Our recruiters, with 
very few exceptions, are an outstanding group of professionals 
performing a vital mission for their country. The contributions that 
these recruiters make to their communities and country are vital to 
maintaining a truly professional force. We solicit your assistance in 
giving prominence to their fine performance.
    General Schoomaker. No. Our recruiting practices are intact and as 
professional as ever. The majority of recruiters conduct themselves 
with integrity everyday. Although there was media coverage of a few 
recruiters who allegedly violated our recruiting regulations, we do not 
believe that there was any widespread damage to our recruiters' 
reputation as a whole. We continue to receive many positive comments 
from proud parents and influencers, complimenting our recruiters for 
their professionalism and care in assisting their sons and daughters 
through the enlistment process. We believe the public knows that we are 
a values-based institution and that despite the actions of a few, Army 
recruiters live and work in accordance with Army values.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole

                   FAMILIES OF SERVICE MEN AND WOMEN

    33. Senator Dole. Secretary Chu and Secretary Abell, in General 
Schoomaker's opening statement he mentioned that he is ``examining how 
to best expand support for veterans and National Guard and Army Reserve 
soldiers.'' I would offer that in North Carolina we have a very 
successful pilot program called the Citizen Soldier Support Program 
that partners with DOD programs to link existing community services 
with families' needs. Is there anything the Department is doing across 
the Services to support the families and thereby reduce stress on our 
deployed Guard and Reserve servicemembers?
    Dr. Chu and Mr. Abell. The Department facilitates family support 
during sustained operations in the global war on terrorism and other 
contingencies. Taking care of families is a top priority for the 
Department.
    The Department and Services operate over 700 family assistance 
centers around the world to enhance family support. Approximately 400 
of those are National Guard Family Assistance Centers. Programs include 
education, training, outreach, and personal support.
    A variety of options keep military families and servicemembers in 
direct contact, including e-mail, telephone cards, and videophone 
access. Military OneSource gives access to professional advisors and 
referral services via toll-free numbers and the Internet, 24 hours a 
day. A number of Web sites have been established that address all 
aspects of military life and deployment. Military and civilian 
community-based resources provide professional, non-medical, 
readjustment and family counseling, including education and referral 
services. The Department provided $53 million, over 2 years (fiscal 
years 2003 and 2004), from supplemental funding to help families manage 
work schedules while one parent is gone and to offer time to take care 
of other family business. This money provided extended child care to 
cover additional work shifts, opened centers for additional hours, 
subsidized in-home care, created ``satellite homes'' in which centers 
and homes share care, and located spaces for those geographically 
isolated from military installations.

    34. Senator Dole. General Schoomaker, in your opening statement I 
was heartened to hear you acknowledge the strain on soldiers' marriages 
and families. You mentioned that you are ``tracking numerous metrics to 
ensure that we meet the needs of those that serve and their loved 
ones.'' What are these metrics?
    General Schoomaker. Individual programs report statistics based on 
utilization and use surveys and questionnaires to determine rates of 
success and identify where improvements are needed. Examples of these 
metrics would include:

    Army OneSource (AOS): A division of Military OneSource, this is a 
24-hour, 7 days-a-week, toll free information and referral telephone 
service available worldwide to Active-Duty, Reserve, and National Guard 
military members, deployed civilians, and their families. AOS provides 
information ranging from every day concerns to deployment/reintegration 
issues. Total contacts made to AOS as of June 2005 was 96,652. These 
contacts include phone, e-mail, in-person counseling sessions, and 
online visits. The top three issues for in-person counseling sessions 
are emotional well-being of couples, depression, and family 
relationships accounting for over two-thirds of the total sessions. 
Overall satisfaction for these services was extremely high. Over 88 
percent of the customers were positively impacted by their services, 
over 96 percent were satisfied with in-person counseling, and over 99.5 
percent found the overall quality of online services and educational 
materials to be excellent.
    Because chaplains are mostly embedded in Army units, much of the 
counseling they do is informal and not reportable. However, anecdotal 
reports from the field suggest family stress and consequent counseling 
services is up significantly. This is supported by the data gathered at 
the chaplain counseling training centers on Forts Hood and Benning 
where statistics are showing a 42-percent increase of families 
accessing services comparing similar reporting periods from 2005 and 
2004. The Chaplain Corps has fielded a rapidly expanding series of 
reinforcing marriage retreats and training events called Building 
Strong and Ready Families (BSRF). From 2001 to 2005, utilization and 
funding of these retreats for Active-Duty couples has expanded 
dramatically from $500,000 in 2001 to $1.8 million in 2005. The Army 
Reserve and Army National Guard are funded at $5 million for this year. 
In 2005 the program will provide 621 marriage retreats to be attended 
by more than 23,375 volunteer deploying and reconstituting soldier 
families. Based on exit and follow-up surveys, Army couples are 
reporting considerable improvement in their overall relationship 
satisfaction, conflict resolution, confidence, and mitigating negative 
interactions. In total more than 75 percent of the couples questioned 
showed improvements in these areas compared to their pre-BSRF scores. 
Couples completing BSRF reported that it helped them relate to each 
other better, handle the stress of Army life, and want to stay in the 
Army longer.

    35. Senator Dole. General Schoomaker, what factors do the metrics 
account for?
    General Schoomaker. The metrics account for factors like 
constituent satisfaction, availability, as well as program utilization 
in categories such as family support, healthcare, standard of living, 
values, continuous learning, and welfare of our soldiers and families.

    36. Senator Dole. General Schoomaker, what are these metrics 
showing?
    General Schoomaker. There has been increased utilization of 
services and demand for information and counseling from both physical 
and Web-based services by soldiers and their families. Many family 
programs have added to the variety of services provided and lengthened 
their hours of operation to meet increased demands. When Reserve 
component soldiers are mobilized and deployed, often their families are 
not located near the deploying unit's home station or an Army 
installation where services are available. The Army is working to 
mitigate Reserve component issues through the development of additional 
Reserve component capabilities within the Army's ``People'' programs. 
These Reserve component centric capabilities include Web-based and 
toll-free services to assist these families in finding local assistance 
and answers to their concerns.

    37. Senator Dole. General Schoomaker, what trends are we seeing 
from the metrics?
    General Schoomaker. The trends are showing escalated utilization 
for programs already in existence and an increase in the variety of 
programs being offered Army-wide.

    38. Senator Dole. General Schoomaker, how are you translating these 
findings into tangible help for families?
    General Schoomaker. For both mandatory and voluntary services, most 
programs show considerable levels of success and satisfaction for those 
who participate in them. Examples include:

    a. Army OneSource (AOS): A division of Military OneSource, this is 
a 24-hour, 7 days-a-week, toll-free information and referral telephone 
service available worldwide to Active-Duty, Reserve, and National Guard 
military members, deployed civilians, and their families. AOS provides 
information ranging from everyday concerns to deployment/reintegration 
issues. Face-to-face counseling referrals are available for six 
sessions per issue with professional civilian counselors at no cost to 
the soldier or their families. To date, AOS has assisted almost 100,000 
people requiring services and educational material with a 90-percent 
satisfaction rating.
    b. Building Strong and Ready Families (BSRF): The Chaplain Corps 
has fielded a rapidly expanding series of reinforcing marriage retreats 
and training events called BSRF. From 2001 to 2005, use of these 
retreats has expanded dramatically, and beginning in 2005 they were 
offered to the Reserve component. For fiscal year 2005, the program 
will provide several hundred marriage retreats for more than 20,000 
volunteer soldier families. Couples completing BSRF report that it 
helps them relate to each other better and stay longer in the Army.
    c. Spouse/Family Employment Program: The Employment Readiness 
Program is focused on assisting eligible family members who are 
relocating as a result of a military or civilian sponsor's transfer by 
providing accurate, timely information and other supportive services 
necessary to minimize the employment problems associated with such 
moves. The U.S. Army Community and Family Support Center has 
established 17 collaborative partnerships with public and private 
sector companies to create career and training opportunities for 
military spouses.
    d. Deployment Cycle Support (DCS): DCS assists the total Army 
family in meeting challenges during all phases of the deployment cycle. 
Deploying soldiers, civilians, and their family members participate in 
a series of classes, discussions, screenings, and assessments. Topics 
covered range from household budgeting and services available to 
reunion expectations and how to identify symptoms of deployment related 
stress. Redeploying soldiers and their families receive multi-faceted 
reintegration orientation and services beginning in-theater and 
continuing several months after arrival home.
    e. Employer Support of the Guard and Reserve (ESGR): In calendar 
year 2004, the Nation released just over 109,000 Reserve component 
soldiers from Federal Active Duty. Of these, less than 3 percent 
(approximately 3,100) required mediation services from the ESGR. Of 
that group, less than 2 percent reported being denied the right to 
return to work. ESGR resolves such problems through its ombudsman 
volunteers. Using education and mediation, these volunteers resolve 95 
percent of all cases. Unresolved cases are referred to the Department 
of Labor for formal investigation.
    f. Multi-Component Family Support Network (MCFSN): The MCFSN 
partners with States and communities and creates joint, multi-agency 
support for Active and Reserve components. It leverages current systems 
to provide robust, cohesive support systems with alternative delivery 
options to ensure diverse needs of Active, Guard, and Reserve soldier 
families are met. The five pilot regional programs developed and 
underway include the Southwest, Southeast, and Northwest.
    g. Child and Youth Services (CYS): CYS offers quality programs and 
accountability for children and youth which reduce the conflict between 
mission readiness and parental responsibility. CYS responds to these 
requirements by providing programs with flexible hours and reducing 
child care fees for deployed soldiers.
    h. Deployment Related Stress Treatment and Healthcare for Reserve 
Component Soldiers: The U.S. Army Medical Department has a 
comprehensive and integrated system for combat stress control, 
including prevention, intervention, and care. The combat stress control 
teams are deployed to areas of current operation to work closely with 
leaders and soldiers to help them cope with both the stresses of combat 
and the challenges of being on extended deployments. Educational 
activities include combat and operational stress control, suicide 
prevention classes, symptoms of combat and operational stress 
reactions, self-help techniques and exercises they can use to counter 
these reactions, and professional services available to help them. 
TRICARE Reserve Select (TRS) is a premium-based TRICARE health plan 
available to eligible Reserve component soldiers who are ordered to 
Active-Duty in support of the global war on terrorism. All who were 
mobilized for 90 or more continuous days are eligible for TRS. TRS 
coverage is similar to TRICARE Standard or Extra.

        TECHNOLOGIES FOR COUNTERING IMPROVISED EXPLOSIVE DEVICES

    39. Senator Dole. General Myers, in General Hagee's submitted 
opening statement he mentioned an out-of-cycle small business 
initiative to find new technologies and quickly procure them to counter 
IEDs. In North Carolina we have several successful initiatives to marry 
small business capabilities and technologies with the needs of DOD in 
the areas of biotechnology and aircraft parts. Currently, it is left up 
to Congress to help small business through adds and earmarks on 
specific projects. What can be done systemically to expand the DOD's 
utilization of small businesses for meeting current and future 
procurement and technological requirements?
    General Myers. The DOD has a Small and Disadvantaged Business 
Utilization Office that represents the Secretary of Defense on small 
business matters. This office develops DOD-wide small business policy 
and provides oversight to ensure compliance by all military departments 
and defense agencies. They are responsible for recommending systemic 
changes to the Secretary of Defense regarding DOD utilization of small 
businesses.

    40. Senator Dole. General Myers, wouldn't such expanded outreach 
not only help our small business but will also help our Nation maintain 
an important technological advantage?
    General Myers. The value of industry continually advancing 
technology to meet warfighter needs is vital to our success. The 
Department strives to identify promising technologies in our 
laboratories, research centers, academia, and domestic commercial 
sources, and these ideas are shared among DOD elements.
    Evolutionary acquisition is the preferred DOD strategy for rapid 
acquisition of mature technologies. An evolutionary approach delivers 
capability in increments, recognizing the need for future capability 
improvement. The objective is to balance needs and available capability 
with resources, and to put capability into the hands of the user 
quickly. The success of the strategy depends on consistent and 
continuous definition of requirements and the maturation of 
technologies that lead to disciplined development and production of 
systems that provide increasing capability.
    Representatives from multiple DOD communities assist in formulating 
broad, time-phased, operational goals and describing requisite 
capabilities. The Department then examines multiple concepts and 
materiel approaches to optimize ways to provide these capabilities. The 
examination includes robust analyses that consider affordability, 
availability of technology, and responsiveness.
                                 ______
                                 
              Questions Submitted Senator Daniel K. Akaka

                             IDENTITY THEFT

    41. Senator Akaka. Secretary Chu, you recently stated that the 
military has purchased data from commercial vendors for quite some 
time. You also stated that you did not know why a firm specializing in 
target marketing was hired to compile a database of personal 
information on potential military recruits and that the information 
managed by the new contractor would be used only by local recruiters. 
Given the numerous recent accounts of identity theft incidences with 
large numbers of records being lost, what checks do you have in place 
to ensure that this personal data about potential recruits is protected 
and the individuals' privacy will be protected?
    Dr. Chu. Recruiting activities are conducted solely by the 
Services, not by any private company. BeNOW is the company that 
warehouses the data that the DOD collects. The subcontract was awarded 
based solely on BeNOW's ability to maintain and securely store large 
amounts of data and does not include marketing efforts of any kind. The 
Department is dedicated to protecting the privacy and protection of all 
personal data and recognizes the importance of ensuring that the data 
it collects are safely compiled, handled, stored, and securely 
transferred to the Services. All data are transferred via a Secure File 
Transfer Protocol. These data are stored in a highly secure and 
restrictive environment. Vulnerability and risk assessment reviews are 
conducted on a regular basis to ensure maximum safeguarding of 
information. Access cards are required to enter the facility and video 
monitoring is conducted on a continuous basis. All data are password 
protected and access to these data is on a need to know basis.

    42. Senator Akaka. Secretary Chu, do you not believe that 
collecting students' Social Security numbers and other sensitive date 
is an infringement on one's privacy?
    Dr. Chu. No, the Department only uses the Social Security number 
(SSN) and other demographic data in order to carry out its functions. 
Contacting young Americans and making them aware of their options to 
serve in the military is critical to the success of the All-Volunteer 
Force and is an activity conducted under a 23-year old congressional 
mandate. SSNs have been provided to the Department through two input 
sources--Selective Service System Registrants, and the Military 
Entrance Processing Command accession files. The Department does not 
keep actual SSNs in the database. The SSNs are scrambled and stored in 
a secure manner and the original numbers are securely expunged. SSNs 
provide the most accurate method to match and remove duplicate records 
in the database. Additionally, SSNs are the most accurate way to match 
Selective Service responders to the accession files. This matching 
allows DOD to better understand who has joined the military.

                              MILITARY PAY

    43. Senator Akaka. Secretary Chu, in March of this year, Secretary 
Rumsfeld chartered the Defense Advisory Committee on Military 
Compensation (DACMC) to identify approaches to balance military pay and 
benefits in sustaining recruitment and retention of high-qualified 
people, as well as a cost-effective and ready military force. The 
operating cost of the DACMC was founded for $3.5 million. The DACMC is 
scheduled to conduct numerous public hearings this summer and is 
expected to file an interim report in September of this year. Have you 
received any interim reports from the DACMC that would give an 
indication of how significant the impact of disparity in pay between 
Active-Duty servicemembers and reservists and National Guard when it 
comes to recruiting and retaining a ready military force?
    Dr. Chu. In May 2005, the DACMC began conducting monthly public 
meetings as it deliberates on military compensation issues. As 
indicated, it is slated to provide an interim report to the Office of 
the Secretary of Defense by October 2005, with the final report due in 
April 2006. As part of its review, the DACMC is examining the area of 
Reserve and Guard compensation. Since the DACMC is still in the process 
of gathering and analyzing data, it is anticipated that any findings or 
recommendations will first be available as part of the interim report.

          EFFECTIVENESS OF FIGHTING WARS IN MULTIPLE THEATERS

    44. Senator Akaka. General Myers, as the 2005 QDR looks to shift 
the focus of the previous QDR from being prepared to fighting two major 
conventional wars in separate theaters, it is considering having the 
force-planning construct revolve around homeland defense, the global 
war on terrorism, and conventional major warfare. What measures has the 
administration already instituted to ensure that the homeland security 
and global war on terrorism are being carried out most effectively and 
what reviews are in place to measure success?
    General Myers. a. Homeland Security: On 4 July 2004, the Joint 
Staff Director of Operations directed an evaluation of standing 
homeland security execution orders (EXORDs) for currency and relevance. 
As a result, EXORDs in the air, land, and maritime domains have been 
rewritten, as well as the EXORD for consequence management. The updated 
consequence management EXORD gives U.S. Northern Command and U.S. 
Pacific Command the capability to respond to multiple chemical, 
biological, radiological/nuclear, and explosive consequence management 
(CBRNE CM) events in support of a lead Federal agency within their 
areas of operation.
    The Joint Staff is supporting an OSD-led interagency analysis 
effort to develop DOD concept of operations, task lists, and force 
requirements for several of the Homeland Security Council's planning 
scenarios. This coordinated analysis effort will serve to inform the 
Department in the development of CBRNE CM capabilities.
    b. War on Terrorism: The Department of Defense has developed a 
process for assessing progress with respect to war on terrorism based 
on the six military strategic objectives (MSOs) outlined in the 
National Military Strategic Plan for the war on terrorism. Progress 
toward achieving the first two MSOs (``Deny terrorists the resources 
they need to operate and survive'' and ``Enable partner nations to 
counter terrorism'') was studied during an accelerated assessment 
conducted during the spring of 2005. A complete assessment of progress 
measured against all six MSOs will commence in the fall of 2005.

    [Whereupon, at 12:31 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
